<html>
<title> - THE FUTURE OF NASA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                           THE FUTURE OF NASA

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 28, 2005

                               __________

                           Serial No. 109-19

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
21-949                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                             June 28, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative Bart Gordon, Ranking Minority Member, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    14

Statement of Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    15
    Written Statement............................................    16

Statement of Representative Mark Udall, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    17
    Written Statement............................................    17

Prepared Statement of Representative Ralph M. Hall, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement of Representative Curt Weldon, Member, 
  Committee on Science, U.S. House of Representatives............    19

Prepared Statement of Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement of Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    20

Prepared Statement by Representative Al Green, Member, Committee 
  on Science, U.S. House of Representatives......................    22

                                Witness:

The Honorable Michael D. Griffin, Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    23
    Written Statement............................................    24

Discussion
  Timetable for Information......................................    34
  Budget Firewalls...............................................    36
  Returning to Flight............................................    39
  The Centrifuge.................................................    39
  Financial Management...........................................    39
  Aeronautics....................................................    40
  Hubble Space Telescope.........................................    41
  The Iran Nonproliferation Act..................................    42
  Center Workforce...............................................    46
  FFRDC..........................................................    48
  Safety and Risk................................................    48
  Voyager and CEV................................................    49
  Life Science Research..........................................    50
  Space Grant Programs...........................................    50
  Lessons Learned From the International Space Station...........    56
  Workforce......................................................    57
  Manned Space Flight vs. Unmanned Space Flight..................    58
  Debris Hazards.................................................    60
  The Value of Humans on the Moon................................    60
  Strategic Decision-making......................................    60
  The Role of HBCs...............................................    60
  Launch Vehicle Determination...................................    61
  U.S. Preeminence in Space......................................    63

             Appendix 1: Answers to Post-Hearing Questions

The Honorable Michael D. Griffin, Administrator, National 
  Aeronautics and Space Administration...........................    66

             Appendix 2: Additional Material for the Record

Review of President's FY 2006 Budget, Statement by Michael D. 
  Griffin, NASA Administrator....................................    78


                           THE FUTURE OF NASA

                              ----------                              


                         TUESDAY, JUNE 28, 2005

                  House of Representatives,
                              Committee on Science,
                                            Washington, DC.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                           The Future of NASA

                         tuesday, june 28, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    On Tuesday, June 28, 2005 at 10:00 a.m., the Committee on Science 
will hold a hearing on the future of the National Aeronautics and Space 
Administration (NASA). NASA Administrator Michael D. Griffin will be 
the sole witness. The hearing will examine Administrator Griffin's 
guiding philosophy and plans for NASA's programs in human space flight, 
space science, Earth science, and aeronautics, as well as plans for the 
Agency's workforce, organization, and infrastructure. The hearing will 
set the stage for the Committee's action the following day on the NASA 
authorization bill.

Overarching Questions:

        1.  What are Administrator Griffin's priorities and how does he 
        plan to maintain a balanced portfolio of science, aeronautics, 
        and exploration programs?

        2.  What is the status of NASA's plans to define the final 
        configuration of and research agenda for the International 
        Space Station? What is the status of NASA's plans for returning 
        the Space Shuttle to flight and for retiring it at the end of 
        the decade?

        3.  What is the status of NASA's plans to define the Vision for 
        Space Exploration, including accelerating the Crew Exploration 
        Vehicle and selecting launch vehicles?

        4.  How does Administrator Griffin intend to ensure the Agency 
        has the appropriate size and skill mix in its workforce, as 
        well as the facilities and infrastructure necessary to support 
        the Agency's goals?

Overview:

    Dr. Michael D. Griffin was sworn in as NASA's 11th Administrator on 
April 14th. Administrator Griffin takes the reins of the Agency at a 
crucial time, when NASA faces significant issues in nearly every facet 
of the Agency's operations. Since taking office, Administrator Griffin 
has moved swiftly to begin tackling critical issues in many key areas. 
He has been personally involved in reviewing plans for returning the 
Shuttle to flight later this year. He has directed a team to undertake 
a study, to be completed in July, to define the final configuration of 
the Space Station, its research agenda, and to develop plans to 
continue Space Station following the retirement of the Shuttle, which 
he has stated will be in 2010. He has directed another team to 
undertake a study, to be completed in July as well, to better define 
plans for NASA's exploration program, including accelerating the Crew 
Exploration Vehicle (CEV) to minimize the gap after the Shuttle is 
retired in 2010 and defining the launch vehicle options for missions 
back to the Moon. Griffin has also made several significant 
organizational and personnel changes, including removing many key 
managers at headquarters and realigning the reporting structure for 
NASA's field centers so they report directly to him.
    Looking forward, Administrator Griffin will have many critical 
decisions to make over the next year. He will need to install a new 
management team to replace those leaving their posts, and key decisions 
will be made as to what the focus and responsibilities of the various 
field centers will be and what facilities at those field centers are 
necessary to implement the Agency's goals. So far, Griffin has 
indicated a strong preference for giving the field centers more 
responsibility to manage programs and rebuild the expertise resident 
within the government.
    Over the next year, Administrator Griffin will have many 
programmatic and technical issues to address. He will have to decide, 
once the Shuttle has flown a couple of times, whether the Agency should 
move forward with a Hubble servicing mission. Griffin will have to 
decide whether to recommend a Shuttle-derived launch vehicle or use 
existing rockets for heavy lift missions to the Moon, a recommendation 
to be made jointly by the Administrator and the Secretary of Defense. 
He will also have to decide how to pay for increased costs on several 
programs, such as the recent cost increase on the Webb telescope, while 
maintaining a balanced portfolio of exploration, science, and 
aeronautics programs.
    On the policy side, NASA and the Administration are still working 
out proposed legislative changes to the Iran Nonproliferation Act 
(INA), which currently prohibits the U.S. from purchasing or bartering 
for Soyuz capsules and Progress vehicles for the Space Station. Without 
a legislative proposal, it's difficult to know whether Congress would 
approve the change in law, but if the current law is not amended, the 
U.S. would not be able to have a permanent presence on the Space 
Station, at least not until the CEV was available. NASA is reportedly 
developing plans on how they would proceed with the station if the law 
is not changed, should that situation arise.

Issues:

Shuttle Return-to-Flight
    Administrator Griffin's first priority has been to review NASA's 
progress in preparing the Space Shuttle for return-to-flight. He has 
personally participated in several technical reviews in preparation for 
the launch. Shortly after becoming Administrator, he postponed a 
planned Shuttle launch in May because of technical concerns with the 
Shuttle's External Tank and to provide additional time to complete some 
of the analysis. The launch is now scheduled for July 13th.
    The Stafford-Covey Return-to-Flight Task Group, created to oversee 
NASA's implementation of the Columbia Accident Investigation Board's 
(CAIB) return-to-flight recommendations, has approved all but three of 
the CAIB's 15 return-to-flight recommendations. The three remaining 
items relate to developing an adequate tile repair capability, 
completing an analysis of potential sources of debris that could harm 
the Shuttle, and hardening the Shuttle against potential debris damage. 
The Stafford-Covey panel is scheduled to hold its final meeting on 
Monday, June 27th and will then provide NASA with its final results and 
recommendations.
    Griffin will ultimately make the final decision on whether the 
Shuttle is ready to launch. The launch window extends from July 13th 
through to July 31st. The next launch window occurs in September.

Planning for Human Space Flight: Shuttle Transition and CEV 
        Acceleration
    Administrator Griffin has indicated that he will take a different 
approach in developing the missions to return astronauts to the Moon. 
He has created a new Office of Program Analysis and Evaluation (PA&E) 
and charged it with developing two critical plans for NASA's human 
space flight programs: one to examine options for how to configure the 
Space Station to conduct the research NASA must do to enable human 
exploration in deeper space, to minimize the number of Shuttle flights 
necessary to finish putting the station together, and to ensure the 
Shuttle can retire by the end of 2010.
    The second planning effort involves developing the strategy for how 
to return astronauts to the Moon and possibly to Mars, including how to 
accelerate the development of the Crew Exploration Vehicle to minimize 
the gap between the retirement of the Shuttle and the first flight of 
the CEV, when the U.S. will not have its own capability of putting an 
astronaut into space. Both studies will be completed this summer in 
time to aid key Agency and Congressional decisions.
    Administrator Griffin has set a goal to accelerate the Crew 
Exploration Vehicle (CEV) so it is ready as close to 2010 as possible 
to minimize any gap. Griffin has also directed that the CEV be designed 
to fly to the Space Station, a requirement that had not been set 
previously. NASA recently awarded contracts to two industry teams to 
begin preliminary design work for the CEV. Later this year, NASA is 
expected to release updated specifications and plans for accelerating 
the CEV. A key decision will be the selection of the launch vehicle for 
the CEV program.

Webb Telescope Cost Increase
    Recently NASA announced that the cost of the James Webb Space 
Telescope, one of NASA's highest priority space science programs, was 
expected to increase by approximately $1 billion to a total of $4.5 
billion. Under current plans, the mission is scheduled to be launched 
in 2011. NASA has convened a science panel and an engineering panel to 
review the mission, focusing on options to control costs and perhaps 
scale back the program. The panels' reports and recommendations are due 
to be completed later this summer. Any increases in cost will likely 
have to be borne by the science program. Both NASA and the scientific 
community will face tough choices as the options for dealing with Webb 
telescope become clear and a decision on whether NASA should conduct a 
Hubble servicing mission nears.

Workforce and Institutional Issues
    The reduction in aeronautics funding proposed in the fiscal year 
2006 budget request would require the elimination of 1,100 civil 
service jobs at NASA centers, although NASA has also said that there 
will not be any layoffs in 2006. In addition, NASA officials insist 
that there are no plans to close any NASA centers. Also, the retirement 
of the Space Shuttle in 2010 will require NASA to address the size and 
skill mix of a significant segment of the workforce at some centers. 
Work on the CEV and other elements of the mission to the Moon will 
significantly help offset the loss of Shuttle work, but some jobs and 
skills may still need to be eliminated. NASA may be able to help 
affected employees take advantage of training, retraining, and job 
placement programs to help the transition.
    How to ``right size'' NASA, its facilities, and its workforce, and 
ensure NASA has the necessary skill mix, are among the issues Griffin 
and Congress will have to face.

Iran Nonproliferation Act Limits Use of the Space Station
    NASA faces a legal hurdle, the Iran Nonproliferation Act (INA), 
that could affect utilization of the Space Station after April 2006. 
The U.S. is totally dependent on Russian Soyuz capsules for crew 
rescue, and without access to Soyuz capsules, Americans will not be 
able to stay on Space Station for long duration missions. U.S. 
astronauts will still be able to visit the Space Station using the 
Shuttle and will be able to continue construction of the station, but 
the Shuttle is not capable of remaining docked to the Space Station 
long enough to provide a crew rescue capability. NASA policy prevents 
astronauts from being aboard the Space Station if there is no rescue 
capability. Russia is currently providing capsules under an agreement 
that was grandfathered into the INA. However, Russia fulfills its 
obligation under that agreement in April 2006 and will no longer 
provide capsules or other services without payment.
    The INA prohibits the U.S. from purchasing or bartering for 
services from Russia in connection with the International Space Station 
unless the President certifies that the Russians are not proliferating 
nuclear or certain missile technologies to Iran--a certification the 
President is highly unlikely to make. NASA has no known alternative 
plans for providing a crew rescue capability beyond buying such 
services from the Russians, until the CEV is available.
    The matter is currently the subject of an interagency review, and 
the Administration is expected to send up a legislative proposal to 
amend the INA as early as next month. However, it is unclear how 
Congress would react to such a proposal with Iran being such a focus of 
attention in foreign policy. The International Relations Committee 
shares jurisdiction with the Science Committee over the INA, so any 
legislative effort would involve both committees. If Congress fails to 
amend the INA, the U.S. would not be able to use the Soyuz as a rescue 
vehicle or to use Russian Soyuz and Progress vehicles to ferry 
astronauts and cargo, respectively, to and from the Space Station. NASA 
has begun the process of developing contingency plans for the Space 
Station in the event that an exception in INA is not made for whatever 
reason. Without access to Soyuz, U.S. astronauts could be there as long 
as the Shuttle is docked, and thus could continue to utilize the 
station as long as the Shuttle is flying, but only on short-term 
visits. After the Shuttle is retired they would not be able to be there 
at all until the Crew Exploration Vehicle is available.

The Future of the Hubble Space Telescope
    Two days after the President's speech announcing the Vision for 
Space Exploration in January of 2004, NASA announced that it would not 
use the Shuttle to conduct further servicing missions to the Hubble 
Space Telescope. Then-Administrator Sean O'Keefe cited Shuttle safety 
concerns as the primary reason for his decision. Widespread criticism 
led NASA to explore the possibility of a robotic servicing mission. A 
December 2004 report from the National Research Council, however, 
concluded that a robotic servicing mission was not likely to succeed in 
the time available. In the fiscal year 2006 request, NASA requested 
funds only for a de-orbit mission (to ensure that Hubble re-enters from 
orbit without posing danger to populated areas).
    During his April 2005 confirmation hearing, however, Administrator 
Griffin pledged to revisit the decision after the Shuttle returns to 
flight and its risks are better understood following the post-Columbia 
modifications. He also directed NASA engineers to resume planning for a 
Shuttle servicing mission so they could move forward expeditiously if 
needed. Work on more advanced space telescopes, such as the Space 
Interferometry Mission and the Terrestrial Planet Finder, is being 
deferred in order to preserve the option to service Hubble and provide 
for its safe de-orbit.

Aeronautics Research, Wind Tunnels and Workforce
    Over the last decade, funding for NASA's aeronautics budget has 
declined by more than 50 percent, to about $900 million. For fiscal 
year 2006, NASA proposes a relatively small decrease ($54 million, or 
about six percent) in aeronautics research and development compared to 
2005. The proposed five-year budget projection for aeronautics 
contemplates substantial funding reductions (20 percent) for 
aeronautics research, together with significant cutbacks in its civil 
service and contractor workforces. Civil service personnel and 
infrastructure costs account for much of the aeronautics budget, 
largely because of the expenses involved in the operation and 
maintenance of NASA's 31 wind tunnels. Specifically, the aeronautics 
program receives only six percent of NASA's total budget, yet it 
employs more than 20 percent of the entire NASA workforce and is 
responsible for 40 percent of all of NASA's infrastructure costs.
    NASA commissioned a study last year from RAND, which concluded that 
NASA should continue to operate 29 of its 31 wind tunnels. RAND 
estimated the annual operating cost of all 31 tunnels to be $125-$130 
million. RAND argued that while some of the tunnels were not well used 
now, they offered capabilities that could be needed in the future and 
that would be hard to replicate if the tunnels were shut down. RAND 
also argued that while some questions that once needed to be solved 
with wind tunnels could now be answered through computer simulation, 
many critical questions still required wind tunnels. It also said that 
wind tunnel data were sometimes needed to develop computer simulation 
software.
    The Committee held a hearing on aeronautics earlier this year and 
the House appropriations bill restores the cuts to the fiscal year 2006 
budget. In addition, the appropriations bill includes a legislative 
provision directing the Administration to develop a national 
aeronautics policy to guide NASA's aeronautics research program.

Balancing Science and Exploration
    The President's Vision for Space Exploration provides the human 
space flight program with a clear set of goals to guide its programs. 
Many applaud the Administration for providing clear direction for the 
human space flight program, but it has also made others nervous, 
particularly in the science community, that the Vision will require a 
disproportionate amount of NASA's funding and that valuable science 
programs will suffer.
    In the past, Congress has a played an important role in ensuring 
that a balance exists between science and human space activities. 
However last year, because of the uncertainty surrounding the 
implementation of the Vision and the unknown costs of the return-to-
flight costs for the Shuttle, Congress provided an unprecedented level 
of authority to transfer funding between appropriations accounts. The 
effect of this authority was to remove the ``wall'' between science and 
human space activities.
    Administrator Griffin has stated that the Vision is not intended to 
undermine other core functions of the Agency, such as aeronautics, 
space science, and Earth science, but it is not yet clear how NASA will 
maintain a balance between science and human space activities within 
its projected budget.

Organizational and Personnel Changes
    Administrator Griffin has moved quickly in making key personnel and 
organizational changes. First, he announced that the directors for each 
of NASA's field centers would report directly to him, instead of 
through the Associate Administrators. Next, he informed three of the 
four Associate Administrators (human space flight, science, and 
exploration) of his intent to reassign them to other positions within 
the Agency. The fourth Associate Administrator (for aeronautics) has 
decided to step down. Additional personnel changes are expected over 
the next several months as Griffin begins to install his own management 
team. An important issue is how quickly he will be able to fill key 
slots to completely staff his management team.

FY 2005 Operating Plan Update
    On May 11, Administrator Griffin submitted an updated Operating 
Plan for fiscal year 2005. The plan provides the first complete picture 
of how NASA is prioritizing its funding for 2005. The plan fully funds 
the $762 million increase above the appropriated amount for 2005 for 
returning the Shuttle to flight and provides the full $291 million 
appropriated to begin planning for a Hubble servicing mission, as well 
as re-programs over $500 million in cost increases for several 
programs, most notably to cover costs for the Mars Reconnaissance 
Orbiter, scheduled for launch this August, and the New Horizons mission 
to Pluto set to launch in January 2006. The plan also fully funds 
Congressionally-directed items, as adjusted for the rescission.
    Administrator Griffin has said that his overarching philosophy in 
finding offsets is to eliminate lower-priority programs rather than 
reducing all programs in the face of budget difficulties. To do so, he 
must set clear priorities within the budget that has been allocated. To 
pay for the increases included the Operating Plan NASA is considering a 
two-year delay in the Mars Science Laboratory to 2011. To pay for the 
2005 costs to prepare for a possible Hubble servicing mission, NASA 
will defer work on several advanced space telescopes, such as the Space 
Interferometry Mission (SIM) and the Terrestrial Planet Finder. NASA is 
also reviewing plans for its nuclear systems program, Project 
Prometheus. NASA has indefinitely deferred the Jupiter Icy Moons 
Orbiter (JIMO) and will focus on higher priority and more near-term 
needs for nuclear power, such as for use as a power source on the 
Moon's surface. A summary of NASA's Operating Plan changes is in the 
Appendix.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. The Committee will come to order.
    It is a great honor and pleasure to welcome Dr. Michael 
Griffin this morning in his first appearance before this 
committee as NASA Administrator. Dr. Griffin appeared before us 
many times as a private citizen, and he has long served this 
committee as a trusted advisor. The announcement of his 
nomination was greeted in these precincts with something close 
to glee, and we have not been disappointed.
    Mike has taken on his duties with gusto and with candor. In 
fact, it would be easy to paint Mike as a Don Quixote-like 
figure, lost in his books. Mike does not realize that idealism 
has dimmed, and he suits up and wanders about NASA, righting 
old wrongs, questioning old varieties, and rescuing programs in 
distress.
    But there is an essential difference between Administrator 
Griffin and the man of La Mancha. The errors Dr. Griffin is 
battling are real, and the results are consequential rather 
than comic.
    Indeed, much is riding on Dr. Griffin's tenure at NASA. 
Each and every NASA program is facing fundamental questions. 
What will the CEV look like, and what will we do on the Moon? 
What kind of aeronautics research will NASA pursue and at what 
facilities? Will NASA continue to have a robust Earth science 
program? What is the future of the Hubble and Webb telescopes? 
What will be done about the Iran Nonproliferation Act?
    And those are just a few of the basic issues. In fact, more 
than two years after the President announced his Vision for 
Space Exploration, NASA can barely give a definitive answer to 
a single question about its programs. That is not, believe it 
or not, criticism of NASA. The Agency is rethinking its 
activities, and the answers will take time. Moreover, 
Administrator Griffin wisely sent some of his teams working on 
the answers back to the drawing board. But it is important to 
remember that we are pretty much flying blind right now. We 
expect to have the first answers about the human space flight 
program some time in July. And NASA will have to answer the 
most fundamental question about its current manned programs 
this week, when it determines whether to return the Shuttle to 
flight. As yesterday's Stafford Covey deliberations indicated, 
that is a close question. And I am ready to abide by any 
decision Administrator Griffin makes.
    But even as NASA wrestles with these thorny issues, 
congress needs to move ahead with authorizing legislation. The 
bill that Chairman Calvert and I introduced yesterday provides 
a framework for moving forward, ensuring that Congress has the 
information it needs to make more detailed policy calls in the 
years ahead.
    I look forward to working with all of the members of this 
committee as we move the bill forward to enactment over the 
next several months.
    There are two matters on which the bill is crystal clear: 
first, that we should move ahead with returning to the Moon by 
2020; and second, that human space flight programs cannot 
become the sole mission of the Agency. Figuring out how to 
balance those goals will be no easy task, but it is essential. 
Part of the answer is ensuring that the Shuttle is indeed 
retired no later than 2010. But it will take more than that to 
ensure that NASA continues to have vibrant and productive 
aeronautics, Earth science, and space science programs, 
programs that are not evaluated in terms of the vision but on 
their own terms for their own contributions.
    I look forward to working with Administrator Griffin, who 
also wants to see a balanced and multi-mission NASA. And so I 
look forward to hearing from the Administrator on his latest 
thoughts this morning. If things don't go well, he can just 
write us off as one more windmill he has to tilt with today.
    Thank you.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    It is a great honor and pleasure to welcome Mike Griffin this 
morning in his first appearance before this committee as NASA 
Administrator. Dr. Griffin appeared before us many times as a private 
citizen and he has long served this committee as a trusted advisor. The 
announcement of his nomination was greeted in these precincts with 
something close to glee.
    And we have not been disappointed. Mike has taken on his duties 
with gusto and with candor. In fact, it would be easy to paint Mike as 
a Don Quixote-like figure: lost in his books, Mike does not realize 
that idealism has dimmed, and he suits up and wanders about NASA, 
righting old wrongs, questioning old verities and rescuing programs in 
distress.
    But there's an essential difference between Administrator Griffin 
and the Man of LaMancha: the errors Mike is battling are real, and the 
results are consequential rather than comic.
    Indeed, much is riding on Mike's tenure at NASA. Each and every 
NASA program is facing fundamental questions: what will the CEV look 
like and what will we do on the Moon? What kind of aeronautics research 
will NASA pursue and at what facilities? Will NASA continue to have a 
robust Earth science program? What is the future of the Hubble and Webb 
telescopes? What will be done about the Iran NonProliferation Act?
    And those are just a few of the basic issues. In fact, more than 
two years after the President announced his Vision for Space 
Exploration, NASA can barely give a definitive answer to a single 
question about its programs.
    That is not, believe it or not, a criticism of NASA. The Agency is 
rethinking its activities, and the answers will take time. Moreover, 
Administrator Griffin, wisely, sent some of the teams working on the 
answers back to the drawing board. But it's important to remember that 
we are pretty much ``flying blind'' right now. We expect to have the 
first answers about the human space flight program some time in July.
    And NASA will have to answer the most fundamental question about 
its current manned programs this week, when it determines whether to 
return the Shuttle to flight. As yesterday's Stafford-Covey 
deliberations indicated, that is a close question, and I am ready to 
abide by any decision Administrator Griffin makes.
    But even as NASA wrestles with these thorny issues, Congress needs 
to move ahead with authorizing legislation. The bill that Chairman 
Calvert and I introduced yesterday provides a framework for moving 
forward, ensuring that Congress has the information it needs to make 
more detailed policy calls in the years ahead. I look forward to 
working with all the Members of this committee as we move the bill 
forward to enactment over the next several months.
    There are two matters on which the bill is crystal clear. First, 
that we should move ahead with returning to the Moon by 2020, and 
second that human space flight programs cannot become the sole mission 
of the Agency.
    Figuring out how to balance those goals will be no easy task, but 
it is essential. Part of the answer is ensuring that the Shuttle is 
indeed retired no later than 2010.
    But it will take more than that to ensure that NASA continues to 
have vibrant and productive aeronautics, Earth science and space 
science programs--programs that are not evaluated in terms of the 
Vision, but on their own terms, for their own contributions. I look 
forward to working with Administrator Griffin, who also wants to see a 
balanced and multi-mission NASA.
    And so I look forward to hearing Administrator Griffin's latest 
thoughts this morning. If things don't go well, he can just write us 
off as one more windmill he had to tilt with today.
    Thank you.

    Mr. Gordon. Thank you, Mr. Chairman.
    I want to welcome not only Dr. Griffin, but also our 
audience today. I think the number of folks that are here 
indicate the significance of this hearing, and I am sure there 
are many more that are watching elsewhere. So welcome everyone. 
And as usual, I want everyone to know that I concur with my 
Chairman and his statement, and we are on board in most ways--
and in sync in our direction for NASA.
    Dr. Griffin, you have come to the job of Administrator with 
impressive technical credentials and a wealth of experience. I 
want to wish you well. I look forward to working with you to 
ensure that the United States maintains a strong and robust 
civil space and aeronautics program.
    I count myself among the supporters of the Exploration 
Initiative. I believe that the long-term goals for human space 
flight program proposed by the President makes sense. At the 
same time, I must say that I am concerned about where NASA is 
headed and about the large number of unanswered questions that 
remain almost 18 months after the President announced his 
Exploration Initiative.
    And let me elaborate for a minute on some of those 
unanswered questions. For example, what is the overall 
architecture for achieving the President's exploration goals? 
That is, where are we going, how are we going to get there, 
what are we going to do when we get there, how long will it 
take, and how much will it cost?
    Last year, we were told that there was a rigorous process 
underway involving 11 concept exploration and refinement teams 
from industry and academia working with NASA to answer these 
questions. Now we are being told that the process is no longer 
relevant. Instead, a small internal NASA team has been tasked 
with coming up with an exploration architecture by some time in 
July.
    Another set of questions. What is the Crew Exploration 
Vehicle going to do? How are we going to acquire it? And what 
will it cost? Last year, we were told that there was a rigorous 
process to develop a ``System of Systems'' concept for the CEV 
and associated launch vehicles, incorporating a ``spiral 
development'' acquisition approach.
    Now we are being told that the planned CEV acquisition 
approach is no longer relevant and that a new approach is being 
taken in order to accelerate the CEV, but there is no way of 
knowing, at this point, how much it will cost to accomplish the 
accelerated program.
    What is the International Space Station going to be used 
for, and what is it going to look like? Last year, we were told 
that the International Space Station research program was being 
restructured to more closely align it with the Exploration 
Initiative and that Congress would be given the restructured 
plan last fall.
    Now we are being told that the entire ISS program content 
is once again being restructured and that it will be later this 
summer before we will know what those plans are. And we hear 
that our international partners are very concerned about the 
impact on their plans from NASA's restructuring.
    And what is the priority of the nuclear power and 
propulsion system in the President's Exploration Initiative? 
For the last several years, we were told that the most 
appropriate demonstration of the Project Prometheus space 
nuclear technology would be the scientific probe to Jupiter's 
moons, called the JIMO mission.
    Now we are being told that the JIMO mission is essentially 
dead, that Project Prometheus is being restructured, and that 
the main Project Prometheus activity at present appears to be 
transferring money from NASA to DOE's Office of Naval Reactors.
    Last year, we were told that it was important to undertake 
the whole series of exploration systems research and technology 
development projects at a cost of more than $700 million in 
fiscal year 2005 alone.
    Now we are being told that the funding for many of those 
proposed projects has been put on hold. Now I could go on, but 
I hope my point is clear. Almost 18 months after the President 
announced his Exploration Initiative, basic questions are still 
unanswered, and much of what Congress was told last year is no 
longer valid.
    Yet in the absence of needed information, Congress is being 
asked to support the exact funding levels for exploration 
proposed in the fiscal year 2006 NASA budget request, almost 
$3.2 billion, and to cut other non-exploration programs in 
order to free up funds for the initiative.
    That is, we are being asked to make a ``trust me'' vote on 
NASA's funding requests, and I might add that is what the 
previous Administrator not only asked but demanded and 
received, and you see where we are.
    Dr. Griffin, you have only been on the job for about two 
months, and you cannot be held accountable for anything that 
had gone on at the Agency prior to your arrival. At the same 
time, given all of the changes you have made to the exploration 
program since you became NASA Administrator, it would seem that 
you have concluded that none, or rather not all of more than $2 
billion allocated for NASA's exploration system program since 
January 2004, has been wisely spent.
    And that is troubling, because even $100 million of that 
exploration system's funding could make a significant 
difference in the health of NASA's aeronautics program or 
NASA's Earth science program.
    Yet the reality is that under the President's plan, those 
other programs may increasingly become bill payers for the 
Exploration Initiative in coming years, and the healthy balance 
that should exist between all of NASA's core missions will be 
lost. That is certainly going to be the case if NASA continues 
cutting NASA's--or if the Administration continues cutting 
NASA's out-year funding profile in the upcoming fiscal year 
2007 request as it did in the fiscal year 2006 request, while 
at the same time attempting to hold on to the President's 
milestones for his Exploration Initiative.
    Unfortunately, the results of that approach are already 
evident. Some 2,500 current NASA employees are at risk of 
losing their jobs. Scientific missions are being canceled, 
deferred, or cut, and NASA's aeronautics approach--or program 
is on a path of becoming ``irrelevant'' in the words of one of 
the recent witnesses before this committee.
    In addition to being a waste of human capital and 
infrastructure built up at NASA over the last forty years, I 
believe such actions will make it increasingly difficult to 
sustain support for NASA's budget in coming years as the 
Agency's focus is narrowed and the overall fiscal situation 
facing the Nation becomes worse. I hope we can avoid such an 
outcome, but I think it will require a course of correction 
within NASA and the White House if that is to succeed.
    Now, Mr. Griffin, what does all of this mean? Let me tell 
you. You remember very well a few years ago when we had a 
number of votes at a time when we had a tough--we had world-
record budget deficits, we had a lot of needs here on Earth, 
and the question was: ``Should we continue with the 
International Space Station?'' And after a number of votes, by 
only one vote did the Space Station succeed.
    Now what I am afraid that we are going to see is, at a time 
when we have even worse deficits, even more needs on Earth, we 
are going to see a series of attempts to take money out of 
Mission to Mars and put it here on Earth. And as we do this, 
and it is not going to be tomorrow, it is going to be in the 
next three or four years, during that same period of time, I am 
afraid that we are going to see a cannibalization of other 
programs in NASA. We are going to see a lot of long-term 
employees with expertise and core missions within the centers 
to be lost.
    And so the situation then could very well be, at this 
point, and whatever it might be in three or four years, we have 
those same kind of votes. The--we decide that money, rather 
than going to Mars, ought to be placed in schools or veterans 
or something else on Earth, while at the same time, we have 
already undermined our existing programs. Well, then do we say, 
``Well, NASA now is not relevant in even more ways, and there 
are even more cuts.'' That is my concern.
    And so I also have a suggestion. And let me tell you what 
my suggestion is. I am taking a little more time than I 
normally do, maybe going back to some previous times, because 
you haven't been to see me yet, and so I want to have--take 
this opportunity to let you know.
    Here is what I think that we need to do.
    If we are planning on going to Mars in the year 2030, or I 
guess it is 2035 or beyond, then rather than 30 years, it might 
be 31 years. I don't think we are any worse off, and we might 
save a lot of money. What I would hope you would do is go 
forward with those things we know that need to be done. We have 
got to return-to-flight. We have got to get this Crew 
Exploration Vehicle going. We need to go ahead and look for 
the--a heavy payload type of lift. We have got to do those 
things, but let us slow down in terms of restructuring NASA 
until we--until you answer those questions that are out there. 
Let us take this year to try to find out what are those 
programs outside the exploration mission that really are 
important. Let us have some priorities there. Let us be sure 
that we are not going to have this start-stop approach any 
longer. I think we will save money. I think it would be the 
best thing for NASA, and I hope that you will give that some 
consideration.
    And thank you for your indulgence, Mr. Chairman. I guess I 
am reclaiming lots of time that I yielded early in the past.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good morning. I want to join the Chairman in welcoming Dr. Griffin 
to today's hearing.
    Although Dr. Griffin has testified before this committee on 
previous occasions, this will be the first time we will have a chance 
to hear from him in his capacity as NASA Administrator.
    Dr. Griffin, you come to the job of Administrator with impressive 
technical credentials and a wealth of experience. I want to wish you 
well, and I look forward to working with you to ensure that the United 
States maintains a strong and robust civil space and aeronautics 
program.
    I count myself among the supporters of the exploration initiative--
I believe that the long-term goals for the human space flight program 
proposed by the President make sense. At the same time, I must say that 
I am concerned about where NASA is headed, and about the large number 
of unanswered questions that remain almost 18 months after the 
President announced his exploration initiative.
    Let me elaborate for a minute on some of those unanswered 
questions. For example, what is the overall architecture for achieving 
the President's exploration goals--that is, where are we going, how are 
we going to get there, what will we do when we get there, and how long 
will it take and how much will it cost?
    Last year, we were told that there was a rigorous process underway 
involving 11 Concept Exploration and Refinement teams from industry and 
academia working with NASA to answer those questions. Now we are being 
told that that process is no longer relevant--instead, a small internal 
NASA team has been tasked with coming up with an exploration 
architecture by sometime in July.
    Another set of questions: What is the Crew Exploration Vehicle 
going to do, how are we going to acquire it, and what will it cost? 
Last year, we were told that there was a rigorous process to develop a 
``System of Systems'' concept for the CEV and associated launch 
vehicles, incorporating a ``spiral development'' acquisition approach.
    Now we are being told that the planned CEV acquisition approach is 
no longer relevant, and that a new approach is being taken in order to 
accelerate the CEV--but that there ``is no way to know'' at this point 
how much it will cost to accomplish that accelerated program.
    What is the International Space Station going to be used for, and 
what is it going to look like? Last year, we were told that the 
International Space Station research program was being restructured to 
more closely align it with the exploration initiative--and that 
Congress would be given that restructured plan last fall.
    Now we are being told that the entire ISS program content is once 
again being restructured, and that it will be later this summer before 
we know what the new plans are. And we hear that our International 
Partners are very concerned about the impact on their plans of NASA's 
latest restructuring.
    What is the priority of nuclear power and propulsion systems in the 
President's exploration initiative? For the last several years, we were 
told that the most appropriate demonstration of Project Prometheus's 
space nuclear technologies would be a scientific probe to Jupiter's 
moons, the so-called JIMO mission.
    Now we are being told that the JIMO mission is essentially dead, 
that Project Prometheus is being restructured, and that the main 
Project Prometheus activity at present appears to be transferring money 
from NASA to DOE's Office of Naval Reactors.
    Last year, we were told that it was important to undertake a whole 
series of Exploration Systems Research and Technology development 
projects at cost of more than $700 million in FY 2005 alone.
    Now we are being told that the funding for many of those proposed 
projects has been put on hold. I could go on, but I hope my point is 
clear. Almost 18 months after the President announced his exploration 
initiative, basic questions are still unanswered. And much of what 
Congress was told last year is no longer valid.
    Yet in the absence of needed information, Congress is still being 
asked to support the exact funding levels for exploration proposed in 
the FY 2006 NASA budget request--almost $3.2 billion--and to cut other 
non-exploration programs in order to free up funds for the initiative.
    That is, we are being asked to make a ``faith-based'' vote on 
NASA's funding request.
    Dr. Griffin, you have only been on the job for about two months, 
and you cannot be held accountable for anything that had gone on at the 
Agency prior to your arrival. At the same time, given all the changes 
you have made to the Exploration program since you became NASA 
Administrator, it would seem that you have concluded that not all of 
the more than $2 billion allocated for NASA's Exploration Systems 
program since January 2004 has been wisely spent.
    That's troubling, because even a $100 million of that Exploration 
Systems funding could make a significant difference to the health of 
NASA's aeronautics program or NASA's Earth science program.
    Yet, the reality is that under the President's plan, those other 
programs may increasingly become bill payers for the exploration 
initiative in coming years and the healthy balance that should exist 
between all of NASA's core missions will be lost. That is certainly 
going to be the case if the Administration continues cutting NASA's out 
year funding profile in the upcoming FY 2007 budget request as it did 
in the FY 2006 request while at the same time attempting to hold on to 
the President's milestones for his exploration initiative.
    Unfortunately, the results of that approach are already evident: 
Some 2,500 current NASA employees are at risk of losing their jobs; 
scientific missions are being canceled, deferred, or cut; and NASA's 
aeronautics program is on a path to becoming ``irrelevant,'' in the 
words of one of the recent witnesses before this committee.
    In addition to being a waste of the human capital and 
infrastructure built up at NASA over the last 40 years, I believe such 
actions will make it increasingly difficult to sustain support for 
NASA's budget in coming years as the Agency's focus is narrowed and the 
overall fiscal situation facing the Nation worsens. I hope we can avoid 
such an outcome, but I think it may require a course correction within 
NASA and the White House if we are to succeed.
    Well, we have a lot to talk about today. I again want to welcome 
you to this morning's hearing, Dr. Griffin, and I look forward to your 
testimony.

    Chairman Boehlert. The spirit of cooperation.
    The Chair is pleased to recognize the distinguished 
Chairman of the Subcommittee on Space and Aeronautics, Mr. 
Calvert of California.
    Mr. Calvert. And in the spirit of brevity, Mr. Chairman, I 
will be very brief.
    Today, we welcome NASA's 11th Administrator, Dr. Mike 
Griffin, and his first appearance before this committee. 
Tomorrow, we will mark up the first NASA authorization bill in 
a number of years in the Subcommittee on Space and Aeronautics, 
which I am certainly happy to Chair. And I am very hopeful that 
we will be able to get this bill through the House of 
Representatives before the August work period where we can go 
into conference with the United States Senate.
    Dr. Griffin, you are certainly a breath of fresh air for 
NASA, and we are really looking forward, as you can tell, to 
working with you to build a better and stronger NASA together.
    As you know, we are beginning a second space age, as I like 
to put it. The first space age was born in the Cold War. The 
second space age will feature space exploration while achieving 
synergy with commercial, civil, national security space 
programs. Doctor, you are in a place to lead us in the second 
space age, and we will work together to build a better NASA.
    For NASA to develop an overall grand strategy, we must have 
a strategy for NASA's aeronautics research and technology as 
well as a multi-year plan for NASA's science programs that 
parallel NASA's vision for space exploration. Once we have well 
defined mission strategies, NASA will be able to move forward 
more effectively and efficiently in its core areas.
    As you know, I plan on visiting all of the NASA centers in 
this Congress, and so far I have visited Kennedy Space Center. 
I plan to be at the Jet Propulsion Laboratory on July 3 to 
observe the climax of Deep Impact program as it collides with a 
comet, and for the first time, we will have a good look inside 
a comet. This will be an exciting evening.
    At each of these centers, I have been impressed with the 
enthusiasm, dedication, and the technical skills of the 
workforce. I spoke with a number of workers who were preparing 
the Space Shuttle for return-to-flight, processing components 
of International Space Station, conducting life science 
research, and testing experimental vehicles. This NASA 
community is comprised of a talented workforce with skills that 
America cannot afford to lose.
    I believe that Mike Griffin is the right person to lead 
this talented workforce in a direction to benefit our nation 
and to enhance our competitiveness globally. Administrator 
Griffin said in a speech last week, ``My feet are firmly 
grounded in reality, but I am also grounded in the idea that we 
need to change some of the definition of reality.''
    I look forward to working with you as we change the 
definition of reality and work into this second space age, and 
I certainly welcome your testimony today.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    Today, we welcome NASA's 11th Administrator, Dr. Michael Griffin, 
in his first official appearance as Administrator before the House 
Science Committee. Tomorrow, we will mark up the first NASA 
Authorization in a number of years in the Subcommittee on Space and 
Aeronautics, which I chair. I am very hopeful that we will be able to 
get our bill through the House of Representatives before our August 
district work period.
    Dr. Griffin is a breath of fresh air for NASA and we are really 
looking forward to working with him as we build a better and stronger 
NASA together. We are beginning a ``Second Space Age.'' The first space 
age was born of the Cold War. This Second Space Age will feature space 
exploration while achieving synergy with the commercial, civil and 
national security space programs. Dr. Griffin is now in place to lead 
us in this Second Space Age as we work together to make a better NASA.
    For NASA to develop an overall grand strategy, we must have a 
multi-year plan for NASA's aeronautics research and technology as well 
as a multi-year plan for NASA's science programs that parallel NASA's 
Vision for Space Exploration. Once we have well-defined missions and 
strategies, NASA will be able to move forward more effectively and 
efficiently in all its core areas.
    I plan to visit all the NASA centers this Congress and so far, have 
visited the Kennedy Space Center and Dryden Flight Research Center. I 
plan to visit the Jet Propulsion Laboratory on July 3, to observe the 
climax of the Deep Impact program as it collides with a comet and we 
have our first look inside a comet. At each of these centers, I have 
been impressed with the enthusiasm, dedication and technical skills of 
the workforce. I spoke with a number of the workers who are preparing 
the Space Shuttle for the Return-to-Flight, processing components of 
the International Space Station, conducting life-science research, and 
testing experimental vehicles. This NASA community is comprised of a 
talented workforce with skills that America cannot afford to lose.
    I believe that Mike Griffin is the right person to lead this 
talented workforce in a direction to benefit our nation and to enhance 
our competitiveness globally. As Administrator Griffin said in a speech 
last week, ``my feet are firmly grounded in reality, but I am also 
grounded in the idea that we need to change some of the definition of 
reality.''
    I look forward to working with Administrator Griffin as we change 
the definition of reality and move into this Second Space Age.
    I welcome Dr. Griffin to testify today.

    Chairman Boehlert. Thank you very much, Mr. Calvert. And 
thank you for the leadership you are providing in the 
Subcommittee during a very important time for the Agency.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. Good morning, Dr. 
Griffin.
    I am going to hopefully--put myself in the same spirit as 
my chairman, Mr. Calvert, and be brief.
    If I could, Mr. Chairman, I would like to ask for unanimous 
consent to include my entire statement in the record.
    Chairman Boehlert. Without objection.
    Mr. Udall. Dr. Griffin, I think it may be a bit of a 
cliche, but I think it is worth saying that NASA is at a 
crossroads, and this is the focus that we want to have at this 
hearing is how we balance all of these competing interests. The 
President has given us a new long-term vision for human space 
flight. I support that vision, but I am not sure how all of 
these aspirations, as I just said, fit into the budget that has 
been provided to NASA.
    Congressman Calvert, Congressman Gordon, and Congressman 
Boehlert talked about the aeronautic side of NASA. I have 
concerns based on what we have heard recently from non-
government witnesses, and looking at the President's budget, I 
think those concerns are worth considering. That is one of the 
reasons I introduced, along with a group of bipartisan 
supporters, H.R. 2358, the Aeronautics R&D Revitalization Act, 
which I would like to see incorporated into the NASA 
reauthorization.
    The concerns I have also heard from the fundamental biology 
and microgravity research communities, as well as from 
commercial organizations, and about what we are going to do in 
the areas of Earth and space science, I think, are worth 
hearing. And I look forward to your testimony today in that 
regard.
    As I close, I do want to thank you for your willingness to 
start preparing for a Shuttle servicing mission to the Hubble 
space telescope, contingent, of course, on a successful return-
to-flight of the Space Shuttle. It is one of the most 
significant space laboratories ever launched, and I believe we 
should continue to utilize it to its fullest capacities as long 
as it remains productive.
    So again, Doctor, it is a tremendous opportunity to have 
you here. Thank you for your service. And I look forward to 
hearing your testimony and engaging further with you in the 
question and answer period.
    Mr. Chairman, I would yield back any time I have remaining.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning and welcome, Dr. Griffin. I look forward to working 
with you in the months ahead, and I wish you all the best as you 
shoulder your new responsibilities.
    While it can sound like a bit of a cliche to say that NASA is at a 
crossroads, I think it nonetheless is an accurate description of the 
current situation.
    The President has given NASA a new long-term vision for its human 
space flight program--one that I support. At the same time, it's not at 
all clear that the President's aspirations fit the budget that has been 
provided to NASA.
    And one result of that mismatch is that the highly productive 
balance that has existed between NASA's space science, Earth science, 
aeronautics, and human space flight activities is at risk of being 
seriously damaged.
    The evidence of the stresses on NASA's non-exploration programs is 
all around us.
    At a recent hearing before the Space Subcommittee, there was 
unanimity among all of the non-government witnesses that NASA's 
aeronautics programs have been negatively impacted by the budget cuts 
of recent years and that the President's proposed five-year budget for 
aeronautics will significantly worsen the situation.
    That is one of the reasons I and a bipartisan group of co-sponsors 
introduced H.R. 2358, the Aeronautics R&D Revitalization Act, which I 
would like to see incorporated into the NASA Authorization.
    The situation facing NASA's Earth-Sun Systems program is no better. 
The Science Committee heard compelling testimony from a panel of 
respected experts that bluntly concluded that the Nation's Earth 
observations program is at risk. And we have heard about productive 
missions being threatened with termination due to budgetary shortfalls.
    In addition, although we have not yet had a Space Station oversight 
hearing, I and my staff have been hearing from the fundamental biology 
and micro-gravity research community, as well as from commercial 
organizations.
    Their message is the same.
    For more than 15 years, NASA has been telling them that there would 
be a place for their research on the ISS. Now however, it appears that 
the budgetary demands of the exploration initiative are going to cause 
NASA to break those long-standing commitments.
    While all of this has been going on, the unfortunate fact is that 
18 months after the President first announced his exploration 
initiative, specifics on NASA's plans are still hard to come by. That 
concerns me, especially given the fact that the specifics we do have 
from NASA concern cuts to NASA's non-exploration programs.
    I hope that Dr. Griffin will be able to shed some light on what 
NASA's plans are for both exploration and for NASA's other core 
missions, as well as for its workforce. We will need that information 
if we are to do our oversight jobs properly, and I think enough time 
has passed for us to be justified in asking for specifics.
    Finally, before I close, I would just like to express my 
appreciation to Dr. Griffin for his willingness to start preparing for 
a Shuttle mission to service the Hubble space telescope, contingent of 
course on a successful return-to-flight of the Space Shuttle.
    As you know, Hubble is one of the most significant space 
observatories ever launched, and I believe that we should continue to 
utilize it to its fullest as long as it remains scientifically 
productive.
    Mr. Chairman, today's hearing is an important one for this 
committee, and I look forward to hearing from our witness. Thank you.

    Chairman Boehlert. Thank you very much.
    How is that for a warm welcome?
    Dr. Griffin. Very interesting.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, thank you for holding this hearing on the future of 
NASA. On the eve of the Subcommittee markup of the NASA Authorization 
bill, it is useful to hear what the Administrator of the space agency 
thinks about the future of the organization.
    Dr. Griffin, I would like to congratulate you on your new position 
as the 11th Administrator of NASA. You have a challenging task ahead, 
but I know that you are more than capable of leading this agency into a 
bright and exciting future. I am already pleased with the direction you 
have been going since taking the position on April 14.
    When President Bush announced the new Vision for Space Exploration 
in January 2004, I was excited to see that NASA had a new direction and 
focus for the future. Our ventures into space not only keep America at 
the forefront of exploration and innovation, but they also are vital to 
our economy and our national security. This new Vision sets America on 
a course toward the Moon and Mars, and we should embrace this dream and 
work to make it a reality.
    The money that we put into NASA grows exponentially when we 
consider the scientific and technological spin-offs that space 
exploration provides. Experiments conducted on the Space Shuttle and 
International Space Station expand health research and move us toward 
cures for some of our most threatening diseases. Microgravity 
experiments in the 1990s led to advances in antibiotics to fight 
infections. These experiments also unlocked secrets to protein growth 
that produced medicines to treat patients who have suffered from 
strokes and to prepare them for open-heart surgery. Americans suffering 
from osteoporosis also benefit from bone-density experiments conducted 
on the International Space Station in microgravity environments. These 
tests accelerated the clinical trials of a drug that is expected to be 
on the market soon. From the development of MRI technology to 
microchips, the scientific partnerships between NASA and American 
universities and companies ensure our nation's viability, increase our 
nation's competitiveness, and help drive our economy.
    A few weeks ago, I had the opportunity to meet with the astronauts 
who will be returning to flight next month on the Shuttle. Returning 
the Shuttle to flight is the first step toward meeting the goals of the 
Vision, and it helps America fulfill its promise to our international 
partners to complete the International Space Station. I know that NASA 
has made progress toward making the Shuttle as safe as possible, and I 
am pleased that the Columbia Accident Investigation Board (CAIB) 
approves of many of the changes the Agency has made.
    Retiring the Shuttle in 2010 and moving to a newer, safer vehicle 
is a welcome goal. As contractors develop the new Crew Exploration 
Vehicle for human space flight, we need to make sure that a viable crew 
escape system for our astronauts is incorporated into the design of the 
spacecraft. As we implement the new space vision, I will work to ensure 
that NASA fulfills this priority and minimizes the risks for our brave 
men and women who fly our space missions. Our hopes and dreams ride 
with them, and we must do all we can, at whatever cost is necessary, to 
ensure their safety.
    Dr. Griffin, thank you again for coming to Capitol Hill today to 
tell us of your plans for NASA. I look forward to working with you and 
your staff to reach these goals together and move America toward its 
destiny in space.

    [The prepared statement of Mr. Weldon follows:]

            Prepared Statement of Representative Curt Weldon

    Mr. Chairman, Mr. Ranking Member, and Administrator Griffin, I 
appreciate the opportunity to submit my testimony for the record.
    First, I would like to officially congratulate Administrator 
Griffin on his new position and thank him for taking the time to come 
to Capitol Hill and address the Committee's questions and concerns. I 
look forward to working with him to create a stronger more viable NASA.
    I also look forward to the Shuttle's possible Return-to-Flight 
later this month. I trust the Administrator's experience and expertise 
will enable him to make the right decisions about the safety of the 
Shuttle's launch while taking into account the recommendations set 
forth by the Stafford Covey Return-to-Flight Task Group (SCTG).
    I do support NASA's desire to further explore space and recognize 
the immeasurable value in learning more about our solar system, but I 
would be remiss if I did not voice my concerns over the projected costs 
of the President's Vision for Space Exploration. I am concerned that 
too much of our precious resources and funding will be diverted away 
from other NASA programs in favor of space exploration.
    As a senior Member of this committee, over the past several years, 
I have witnessed the decrease and now elimination of funds for 
rotorcraft research. As an aggressive supporter of rotorcraft funding 
and research, I am greatly concerned that this important program is 
being neglected. NASA has cut aeronautics research by half between 1998 
and 2003 and requested zero dollars for its rotorcraft research 
programs for FY03-FY06.
    I am truly concerned about what will happen to the U.S. Aeronautic 
industry if the Federal Government continues to ignore rotorcraft 
funding. As you know, the U.S. aerospace industries are highly reliant 
on technologies enabled by NASA research. Aerospace business markets 
today make it difficult for companies to invest huge sums in high-risk, 
long-term R&D activities. The consequences of insufficient research and 
development investment are already being felt. There is a direct 
relationship between the viability of federal aeronautics R&D conducted 
by NASA, the future of the U.S. aeronautics and transportation 
industry, and economic growth.
    I fear that our country's neglect of rotorcraft could pave the way 
for other nations to surpass the United States in development of a 
technology with the potential to change the way we travel. To this end, 
I have established the Center for Rotorcraft Innovation (CRI), which 
will provide a single, coordinated, national focus within industry and 
academia for cooperation with the government on rotorcraft. CRI will 
focus on emerging and unmet national needs in rotorcraft operations and 
technology, and will function as a venue where the public and private 
sectors can work together for the sake of the American rotorcraft 
industry.
    In my opinion, the establishment of future rotorcraft technology, 
systems and infrastructure is also critical to promote national 
security, and emergency response. The war in Iraq clearly demonstrates 
how precious helicopter assets are to Americans in harms way for the 
purpose of emergency evacuation, combat and logistical support.
    So in closing, I would just like to again reiterate my 
disappointment that this important program has consistently suffered 
major funding cuts. I ask that the Administrator provide me with 
information on his vision for the future or Aeronautics funding, 
specifically Rotorcraft within NASA. In the meantime, I will continue 
to use my position as a senior member of this committee and Vice-
Chairman of the Armed Services and Homeland Security Committees to 
advocate and fight for increased federal rotorcraft and aeronautics 
dollars. Thank you for you time.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank Administrator Griffin for appearing 
before our committee to discuss the FY06 Budget for NASA. Today's 
hearing serves as an opportunity for oversight of certain departmental 
programs. My colleagues on the Science Committee and I have been 
calling for the Administration to establish a vision for the space 
program even before the Space Shuttle Columbia tragedy. Last year, when 
the President announced his space exploration initiative, I was pleased 
we were setting long-term goals for our nation's human space flight 
program. However, a year later many of NASA's plans and organizational 
arrangements for implementing the initiative are in flux. I am 
concerned that NASA is proceeding aggressively on the implementation of 
the President's exploration initiative and is making fundamental 
changes in its priorities without providing Congress with more 
specifics as we consider the FY06 budget request for NASA. While the 
Administration continues to bolster this initiative and state it is 
affordable under the budgetary plan developed by NASA, NASA's track 
record on the credibility of its cost estimates over the last several 
years is at best mixed. The President's proposal will have a high price 
tag and it should not come at the cost of our commitment to our 
children, our veterans, our seniors, and our other important domestic 
priorities. We currently have over a half-trillion dollar deficit and 
the case is going to have to be made to this committee and the American 
people why this proposal should be supported in the face of that 
deficit.
    In last year's FY05 Omnibus, the appropriators gave NASA a great 
deal of latitude to determine the allocation of the funds appropriated 
to it, with the understanding that the appropriations committees would 
review that allocation as part of the standard Operation Plan process. 
I realize it is too early to draw definitive conclusions about NASA's 
performance on the exploration initiative because most of its efforts 
over the last year have been focused on developing requirements and 
``roadmaps'' and restructuring its organization. Yet, the all of these 
efforts are still unclear at this point. Since Administrator Griffin 
has indicated that he intends to significantly reshape NASA's human 
exploration-related program and has suspended or terminated many of the 
exploration-related planning activities that were underway when he 
became Administrator, I am concerned NASA's commitment to building the 
Agency's core foundation of aeronautics and aerospace research and 
development as well as its missions of exploration are overlooked.
    I welcome the Administrator and look forward to his testimony.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for hosting this 
hearing, and Mr. Griffin, thank you for joining us today to discuss the 
future of NASA. I am very interested in hearing your testimony.
    Many on this committee have been paying attention to NASA's 
budgetary decisions and what these choices mean for the long-term 
direction of the Agency. In particular, I look forward to hearing your 
perspective on how or if NASA will be able to balance the President's 
space exploration agenda with the Agency's traditional multi-mission 
approach.
    We are pleased to have you with us for the first time and I look 
forward to this morning's hearing.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing to 
discuss The Future of NASA. I want to welcome Dr. Griffin, the new NASA 
Administrator and thank him for coming before this committee this 
morning. NASA faces a watershed moment after having endured a 
tremendous tragedy in the Columbia disaster and now trying to map its 
future with a return to the Moon and manned exploration of Mars.
    Unfortunately, while I wholeheartedly support the work of NASA, I 
am deeply concerned that the President's budget does not meet all the 
needs for future space exploration as we move forward in this new 
century. A lack of necessary budget authority makes the job for a new 
Administrator much more difficult and brings in to question the true 
vision for NASA. As I have stated before, this Administration has made 
many bad budgetary choices, which continue to push us further into a 
huge deficits and mounting debt during the last four years. In 
addition, the President has proposed a highly questionable plan for 
Social Security along with an uncertain military future in Iraq that in 
conjunction with proposed $1.6 trillion tax cuts will result in less 
funds being available for vital agencies such as NASA.
    I have been supportive of President Bush's Vision for Space 
Exploration because I firmly believe that the investment we make today 
in science and exploration will pay large dividends in the future. 
Similarly, I do not want to put a cap on the frontiers of our 
discovery, NASA should aim high and continue to push our nation at the 
forefront of space exploration. However, I find it hard to be more 
supportive of the President's plan, when I have no real specifics as to 
what this plan will entail. Large missions of this sort require 
detailed planning and as a Members of Congress we deserve to know how 
exactly the President's plan proposes to accomplish its objectives so 
that we can set out the proper resources and provide the necessary 
oversight. In addition, the President stated that the fundamental goal 
of his directive for the Nation's space exploration program is ``. . 
.to advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' I could not agree more with that 
statement; unfortunately, this President's own budget does not meet the 
demands of his ambitious agenda. One year after the Administration laid 
out a five-year funding plan for NASA that was intended to demonstrate 
the affordability and sustainability of the exploration initiative, the 
Administration submitted a budget proposal for 2006 that would reduce 
that funding plan by $2.5 billion over the next four years. For 
example, in 2006, the Administration is seeking $546 million less than 
it said would be needed for NASA in 2006 in the five-year funding plan 
that accompanied last year's request. In fact 75 percent of the $2.5 
billion shortfall will fall to NASA's science and aeronautics programs. 
This kind of under-funding for vital programs is unacceptable. Again, 
it is even more alarming because the President has not provided a 
detailed plan as to how he intends to accomplish his space exploration 
agenda; certainly draining money from the budget will not help that 
cause. I hope Administrator Griffin will be able to shed some light on 
the vision of NASA with the current budget shortfalls.
    My greatest concern at this point is that we may not allocate 
enough money or resources to ensure the safety of all NASA astronauts 
and crew. After the Columbia disaster, safety must be our highest 
priority and it is worrisome that there is not a noticeable increase in 
funding to address all safety concerns. Presently, NASA is working 
towards a resumption of Space Shuttle flights, with the date for such a 
launch in uncertainty at this point. However, once NASA returns the 
Shuttle to flight status, it is then supposed to begin the task of 
figuring out how to retire the Space Shuttle fleet in 2010 while 
continuing to fly the Shuttle safely up to the very last flight. I am 
concerned that pressure to retire the Shuttle by a fixed date to free 
up resources for other activities, coupled with the need to fly up to 
28 Shuttle flights to assemble the Space Station, could--if not handled 
properly--lead to the types of schedule and budgetary pressures that 
were cited by the Columbia Accident Investigation Board (CAIB) as 
contributing to the Columbia accident. I hope this concern is paramount 
at NASA as we move forward in the future.
    As Members of this committee know, I have always been a strong 
advocate for NASA. My criticism of the President's budget and its 
relation to the vision for NASA is intended only to strengthen our 
efforts to move forward as we always have in the area of space 
exploration and discovery. NASA posses an exciting opportunity to 
charter a new path that can lead to untold discoveries. As always I 
look forward to working with the good men and women of NASA as we push 
the boundaries of our world once again.

    [The prepared statement of Mr. Green follows:]

             Prepared Statement of Representative Al Green

    Chairman Boehlert and our Ranking Member, Mr. Gordon, I appreciate 
the opportunity that you have provided us to speak to the newly 
appointed Administrator of NASA, Dr. Michael Griffin. First and 
foremost, Administrator Griffin, let me extend my congratulations.
    As a Member of the Science Committee, I have had the distinct 
pleasure of following NASA's progress as it has moved towards its 
Return-to-Flight mission scheduled in mid to late July. I have also 
followed NASA while it has re-defined itself behind President Bush's 
Vision for Space Exploration. Let me reiterate my support for NASA.
    With Johnson Space Center only moments away from the 9th 
Congressional District of Texas, I must admit that NASA is an entity 
near and dear to the interest of my district. I remember the ebullience 
that our nation felt when Neil Armstrong walked on the Moon in 1969. 
Our young people need to witness similar achievements that will drive 
them into advanced careers in science, engineering, and math, and I 
truly believe that the Vision for Space Exploration will be one giant 
step towards that goal.
    I am however concerned with such a focused approach because NASA 
has successfully accomplished a broad mission including aeronautics, 
Earth science, and additional space research programs that do not 
revolve around this Vision for Space Exploration. I must say I am 
cautious about NASA's return-to-flight because of the inherent risks to 
our brave astronauts. As we eagerly await the return-to-flight mission, 
I am seeking the assurance that NASA has done everything in its power 
to ensure the safety of its crews. The Vision for Space Exploration is 
a superior ambition, however we cannot afford another devastating 
accident that leads to setbacks and losses of life.
    Now that you have had two months in your position as Administrator, 
I look forward to hearing your vision for NASA. More specifically, I 
would like to learn how you intend to balance and restructure NASA in a 
way that continues all of its important missions and accomplishes an 
aggressive research and exploration agenda that makes the safety of our 
astronauts a top priority.

    Chairman Boehlert. Mr. Administrator, as both Mr. Gordon 
and I noted in our opening statements, many fundamental 
questions facing NASA remain to be answered. Let me go through 
a list of pending items that we reviewed at the February 
hearing with then Acting Administrator Gregory. For each of 
these, I would like you to tell me and the Committee when we 
will get the answer to the question. You may have mentioned 
some of these in your testimony, but I would like to go through 
the list, nonetheless, to create a single place in the record 
we can all go back to to measure our progress.
    The research--can you tell me when you are going to have 
the research agenda for the International Space Station and its 
proposed final configuration?
    Wait. Make a statement first.
    Dr. Griffin. No, sir. I wanted to take your questions. You 
were----
    Chairman Boehlert. Are you sure? I----
    Dr. Griffin. No, that is fine, sir.
    Chairman Boehlert. All right. Fine.
    Can I repeat that? I will go through the list.
    Dr. Griffin. Please do.
    Chairman Boehlert. The first one, you have got that, right? 
The--when do you plan to have the research agenda for the 
International Space Station and its proposed final 
configuration? I will do them one by one and let you respond.
    Dr. Griffin. Okay. Oh, I am sorry.
    We are reworking the research agenda of the Space Station, 
as has been pointed out. We are looking at--the question is 
difficult to answer, because, in part, it ties up with how much 
research on the Station do we want to do while we are trying to 
build and finish developing it.
    As was pointed out in your earlier statement, or someone's 
earlier statement, we must retire the Shuttle by 2010. We must, 
as soon as possible thereafter, deploy the CEV, the Crew 
Exploration Vehicle, which will replace the Shuttle and which 
will be our means of ferrying astronauts back and forth. And 
so, to some extent, the research that we would do on the Space 
Station, if we were otherwise unconstrained, must take a back 
seat to getting the necessary systems online to allow us to 
develop and utilize the Station.
    I can't specifically give you an answer as to when we will 
have the research agenda for the Station fully defined.
    Chairman Boehlert. Can you hint?
    Dr. Griffin. Yes. Yes, sir, I can hint.
    I made a couple of notes on this. We are trying to 
rebalance the portfolio. The high-priority areas are going to 
be space radiation health and shielding, advanced environmental 
control and monitoring, advanced EVA activities and the support 
of those, human health encounter measures, life support 
systems, medical care for exploration, and human factors, 
medical research with human subjects and microgravity 
validation of the environmental control and life support 
systems.
    We expect to refine those as a result of the Shuttle and 
Station Configuration Options Team examination that is underway 
today. Within the next few weeks, we will be briefing, 
discussing configuration options within the Administration, and 
then, in short order, with you here on Capitol Hill, with this 
committee and with others.
    Our uncertainty today--so I--so in a briefer answer to your 
question, I would say later this summer. Later this summer.
    Chairman Boehlert. Later this summer.
    Dr. Griffin. The situation that we find ourselves in that 
results in this lack of full definition is that, as we sit here 
today, the one thing we are certain of is that we cannot fly 28 
Shuttle flights to assemble the Station and still retire the 
Shuttle by 2010. There are not 28 flights available in our 
manifesting sequence, if we wish to retire by 2010. Therefore, 
what we are looking at is a redefined program of Shuttle 
flights that we can execute with a high degree of confidence 
over the next five years. And that necessarily results in 
replanning the research agenda.
    Chairman Boehlert. You know, I was so anxious to get to 
these questions, we all are, that I neglected to give you the 
opportunity for an opening statement. We want to welcome you 
with open arms before this committee and give you the chance to 
share with us some of your thoughts before we proceed with the 
questions.
    So the Floor is yours, Mr. Administrator.

   STATEMENT OF HONORABLE MICHAEL D. GRIFFIN, ADMINISTRATOR, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. Well, thank you, Chairman Boehlert. I am--I 
will just make a few brief remarks, and then I believe I will 
enter into the record this statement as well as the more--
longer, more formal statement.
    I do want to thank you for inviting me to appear before 
you. As both you and Ranking Member Gordon have pointed out, I 
have been here many times before as a private citizen. I have 
forged, I think, excellent working relationships with this 
committee, and I certainly hope that that won't change in 
testifying before you in a new capacity as NASA Administrator.
    And we do have many challenges to overcome. We need to work 
closely with this committee and the entire Congress to carry 
out the President's vision for exploration and our other 
programs. You have many--you have raised many questions. I have 
made significant changes in the last 21/2 months that I and my 
staff believe are necessary to get us on the right track. And I 
look forward to answering as many of the questions that Ranking 
Member Gordon and yourself have raised today as I possibly can.
    So with that introduction, let me enter, if I might, this 
oral statement into the record. Your staff and you can pursue 
it at your leisure, and with your permission, then, we can move 
directly to your questions, which I will try to answer as----
    Chairman Boehlert. Well, without objection, so ordered. 
Your entire statement will be made part of the permanent record 
for our perusal, quite frankly, close examination.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's plans for the future as 
represented in the President's FY 2006 budget request for NASA.
    On January 14, 2004, President George W. Bush announced the Vision 
for Space Exploration. The President's directive gave NASA clear 
objectives as well as a new and historic focus. The fundamental goal of 
this directive for the Nation's space exploration program is ``. . .to 
advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' In issuing this directive, the 
President committed the Nation to a journey of exploring the solar 
system and beyond, returning humans to the Moon, and sending robots and 
ultimately humans to Mars and other destinations. He challenged us to 
establish new and innovative programs to enhance our understanding of 
the planets, to ask new questions, and to answer questions as old as 
humankind. NASA embraced this directive and began a long-term 
transformation to enable us to achieve this goal.
    In June 2004, the President's Commission on Implementation of the 
United States Space Exploration Policy, led by E. C. ``Pete'' Aldridge, 
Jr. (the Aldridge Commission), reported its findings and 
recommendations to the President. The Aldridge Commission emphasized 
the crucial role that technological innovation, national and 
international partnerships, and organizational transformation must play 
if we are to implement the President's vision for an affordable and 
sustainable space exploration program. NASA is committed to making the 
necessary transformation to achieve the Vision for Space Exploration.
    On December 21, 2004, the President signed a new national policy 
directive that establishes guidelines and implementation actions for 
United States space transportation programs and activities to ensure 
the Nation's continued ability to access and use space for national and 
homeland security, and civil, scientific, and commercial purposes. NASA 
will play a significant role in implementing this directive, fostering 
and enabling the development of space transportation capabilities for 
human space exploration beyond low-Earth orbit with the Crew 
Exploration Vehicle (CEV), consistent with the goals of the Vision for 
Space Exploration.
    The President demonstrated his commitment to the Vision for Space 
Exploration by making it a priority in his FY 2005 budget request, and 
Congress responded positively by providing funding for NASA at the 
level requested by the President. The President has reaffirmed his 
commitment to the Vision by again making it a priority in his FY 2006 
budget request in a very challenging budget environment. The $16.46 
billion requested for NASA reflects an increase of 2.4 percent over FY 
2005.
    While today's hearing concerns the President's FY 2006 budget 
request for NASA, I must also use this opportunity to update the 
Committee regarding the difficult choices that need to be made in 
executing NASA's FY 2005 budget, and my guiding philosophy in dealing 
with these challenges.
    A detailed FY 2005 Operating Plan update was recently provided to 
all of the Committees in Congress which oversee NASA. With this FY 2005 
Operating Plan update, NASA is fully funding--within our FY 2005 
budget--the $762 million increase for returning the Space Shuttle 
safely to flight, consistent with the recommendations from the Columbia 
Accident Investigation Board (CAIB), over $400 million in 
Congressionally-directed items, $291 million for Hubble servicing, and 
over $500 million in necessary programmatic cost increases, notably to 
cover cost growth in several space science missions, including the Mars 
Reconnaissance Orbiter, scheduled to be launched this August, and the 
New Horizons mission to Pluto set to launch in early January 2006.
    Identifying offsets needed to fund these items has created some 
difficult choices for the Agency. Given a choice, I generally favor 
eliminating lower-priority programs rather than reducing all programs 
in the face of budget difficulties, because this allows for the more 
efficient execution of the programs which remain. Thus, we must set 
clear priorities to remain within the budget which has been allocated.
    Allow me to be as clear as possible on what the impact of these 
costs means to other programs. The Agency has adopted a ``go-as-you-
can-pay'' approach toward space exploration. Several NASA missions and 
activities will need to be deferred or accomplished in other ways in 
order to ensure adequate funding for the priorities of the President 
and the Congress in FY 2005. NASA cannot do everything that we, and our 
many stakeholders, would like to accomplish. Several missions will have 
to be delayed, deferred, or canceled in order to pay for the missions 
where the priorities were set by the President and Congress. We have 
tried to be sensitive to the priorities of the affected research 
communities, and have listened carefully to their input. For example, 
we seek to impart a new balance among planetary science, Earth science, 
solar physics, and astronomy within the overall science program by 
revisiting our Mars exploration program strategy and mission sequence 
and the schedule for advanced space telescopes such as the Space 
Interferometry Mission (SIM) and Terrestrial Planet Finder (TPF).

NASA Priorities

    Over the past year, NASA has made great strides in implementing the 
Vision for Space Exploration and meeting other national priorities:

        <bullet>  Shuttle Return-to-Flight--We are making final 
        preparations for the Space Shuttle return-to-flight planned for 
        mid-July.

        <bullet>  International Space Station--The ISS began its fifth 
        year of continuous human presence on-orbit.

        <bullet>  Exploring Our Solar System and the Universe--The Mars 
        rovers, Spirit and Opportunity, have exceeded all expectations 
        and made unprecedented discoveries; the Cassini/Huygens mission 
        is providing stunning views of Saturn and Titan; the Genesis 
        mission, despite its hard landing, has returned primordial 
        samples from space; new missions have been launched to Mercury 
        and to comets; and amazing discoveries continue with Hubble, 
        Chandra, and Spitzer.

        <bullet>  Laying the Groundwork for the Future--We awarded 
        initial contracts in preparation for a major milestone in 2008 
        with the mapping of the Moon in unprecedented detail by the 
        Lunar Reconnaissance Orbiter (LRO).

        <bullet>  Aeronautics--We are continuing to execute a portfolio 
        of focused, results-oriented technology demonstrations of next-
        generation aircraft along with aviation safety, security, and 
        airspace systems. NASA, with its industry partners, recently 
        demonstrated the feasibility of significantly reducing the 
        sonic boom from supersonic aircraft, and, last November, NASA's 
        hypersonic X-43A demonstrated that an air-breathing engine can 
        fly at nearly 10 times the speed of sound.

        <bullet>  Earth Science--We have completed deployment of the 
        Earth Observing System and are supporting investments in the 
        Global Change Science and Technology Program and the next 
        generation Earth observing satellites for numerous 
        applications, including improved weather forecasts, earthquake 
        prediction, resource management, and other hazard warnings.

NASA's Proposed FY 2006 Authorization Bill

    On June 17, 2005, NASA transmitted its proposed FY 2006 
Authorization Bill to the Congress. I look forward to working closely 
with the House Science Committee and Senate Commerce Committee this 
year to enact this important legislation.
    Through NASA's proposed FY 2006 Authorization Bill we are 
requesting a set of critical tools and authorities to implement the 
Vision for Space Exploration consistent with the recommendations of the 
Aldridge Commission. The provisions requested are an integral 
complement of critical tools and authorities that will better equip 
NASA to address the challenges we face in implementation of the Vision 
for Space Exploration.
    As the United States implements the Vision for Space Exploration, 
the Administration recognizes the value of effective cooperation with 
Russia to further our space exploration goals. At the same time, it is 
essential that we appropriately maintain U.S. nonproliferation policy 
and objectives in our relationship with Russia. Such a balanced 
approach must include the Iran Nonproliferation Act of 2000 (INA), 
which contains certain restrictions that complicate cooperation with 
Russia on the International Space Station (ISS), and will also have an 
adverse impact on cooperation with Russia on our future space 
exploration efforts related to human space flight.
    Over the last several months, NASA has been participating in an 
interagency coordination process related to INA in an effort to develop 
a solution to this issue that would provide NASA with needed 
flexibility while still meeting our nation's nonproliferation 
objectives. The interagency group has proposed a legislative solution 
in the form of an amendment to the INA, which sustains the Act's 
nonproliferation core, while allowing for continued NASA-Russian 
cooperation on the ISS and human space flight endeavors.
    It is expected that this approach will be delivered to Congress in 
the very near future. To that end, the Administration looks forward to 
working with Congress to ensure that the Vision for Space Exploration 
is able to succeed while remaining fully consistent with broader U.S. 
national security and nonproliferation goals.
    In the Authorization bill, we are also requesting authority to 
award prizes through Centennial Challenges. With this authority the 
Agency will award prizes to stimulate innovation in basic, advanced, 
and applied research; technology development; and, through prototype 
demonstrations that have the potential for application for the 
aeronautics and space activities of NASA. Instead of soliciting 
proposals for a contract or grant, Centennial Challenges will identify 
a challenge, the prize amount to be awarded for achieving that 
challenge, and a set of rules by which teams will compete for that 
prize. Centennial Challenges will help NASA meet technology challenges 
while encouraging creativity and innovation in the private sector, 
particularly in exploration.
    NASA is placing a new emphasis on building an agile workforce, with 
the right mix of permanent civil servants, other-than-permanent civil 
servants, and contractors. As a result, we are seeking a set of 
critical workforce management tools needed as the Agency engages in a 
major transformation and restructures itself to achieve 21st Century 
goals. Specifically, the Agency is seeking the authority to re-hire 
annuitants without a salary offset to accommodate short-term emergency 
or critical program needs; the ability to offset the expense of short-
term health care coverage for employees who are involuntarily separated 
from the Agency and request extended coverage (as currently authorized 
by law); provide incentives for permanent employees who voluntarily 
convert to a time-limited appointment to minimize the need for other, 
less desirable workforce reshaping actions; and provide additional 
hiring flexibilities under collaborative research activities to further 
enhance our partnerships.
    Furthermore, NASA seeks the ability to realign real property assets 
with Agency missions by expanding the current enhanced-use lease 
authority beyond the current two center pilot projects, and allowing 
NASA to retain the proceeds from the sale of real and personal 
property.
    Lastly, the proposed legislation requests intellectual property, 
financial management, and administrative improvements to support NASA's 
mission.

Affordability and Sustainability

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the FY 2006 Budget. The budget savings and reforms in the 
Budget are important components of achieving the President's goal of 
cutting the budget deficit in half by 2009, and we urge the Congress to 
support these reforms. The FY 2006 Budget includes more than 150 
reductions, reforms, and terminations in non-defense discretionary 
programs, of which three affect NASA programs. The Agency wants to work 
with the Congress to achieve these savings.
    To achieve the Vision for Space Exploration, NASA is proceeding, as 
directed by the President, to plan and implement a sustainable and 
affordable, integrated robotic and human exploration program, 
structured with measurable milestones, and executed on the basis of 
available resources, accumulated experience, and technology readiness. 
Last year, we provided a long-range roadmap through 2020 to outline 
this program:

        <bullet>  The Space Shuttle will be retired by 2010. Prior to 
        its retirement, it will be utilized primarily for the assembly 
        of the ISS. Our top priority will be to make each flight safer 
        than the last one.

        <bullet>  The new CEV and its associated launch system will 
        transport crews on exploration missions, and will also be 
        capable of ferrying astronauts to and from the Space Station. 
        The CEV will be developed in the latter part of this decade and 
        deployed operationally as soon as possible. The CEV will 
        conduct missions in Earth orbit, including missions to the ISS, 
        but its primary mission will be to support exploration of the 
        Moon and other destinations.

        <bullet>  Robotic missions will continue to increase our 
        understanding of our home planet and will continue the 
        exploration of the solar system, traveling to the Moon and Mars 
        in anticipation of later human visits, as well as to other 
        destinations such as Mercury, Saturn, Pluto, asteroids, and 
        comets. Observatories will be deployed to search for Earth-like 
        planets and habitable environments around distant stars, and to 
        explore the universe to understand its origin, structure, 
        evolution, and destiny. The President's Budget requests 
        increased funding for these areas over the coming years, with 
        Science investments growing from 33 percent to 38 percent of 
        the Agency's total budget.

        <bullet>  Human explorers will return to the Moon, possibly as 
        early as 2015--with the CEV as the first core element of a new 
        exploration architecture. Major development of the other 
        elements in the exploration architecture will commence later 
        this decade and will accelerate upon the retirement of the 
        Space Shuttle. These exploration elements will include launch 
        vehicles, in-space transfer systems, lunar landers, and surface 
        habitation systems. Critical research and technology investment 
        decisions will be guided by the development requirements of 
        these elements.

    These human and robotic explorers will enable our exploration and 
scientific plans. A recent report released on February 3, 2005, by the 
National Research Council, entitled Science in NASA's Vision for Space 
Exploration, states, ``Exploration done properly is a form of science. 
Both robotic spacecraft and human space flight should be used to 
fulfill scientific roles in NASA's mission to explore.'' To that end, 
NASA has initiated an Exploration Systems Architecture Study (ESAS), 
which will provide the analytical support for a number of key near-term 
decisions for NASA, the White House, and Congress. The ESAS is a 90-day 
study that is examining many of the larger questions associated with 
the Vision for Space Exploration. Some of the topics the ESAS is 
reviewing include the requirements for returning to the Moon and 
extending human exploration to Mars, as well as possibilities for 
accelerating the development of the Crew Exploration Vehicle (CEV). 
This team is expected to complete its work in July and we will keep 
Congressional Committees informed as this study effort progresses.
    This study effort will focus on four primary areas:

        <bullet>  Complete assessment of the top-level CEV requirements 
        and plans to enable the CEV to provide crew transport to the 
        ISS and to accelerate the development of the CEV and crew 
        launch system.

        <bullet>  Definition of top-level requirements and 
        configurations for crew and cargo launch systems to support the 
        lunar and Mars exploration programs.

        <bullet>  Development of a reference lunar exploration 
        architecture concept to support sustained human and robotic 
        Lunar exploration operations.

        <bullet>  Identification of key technologies required to enable 
        and significantly enhance these reference exploration systems, 
        and a re-prioritization of near-term and far-term technology 
        investments.

    NASA is also currently examining alternative configurations for the 
Space Station that meet the goals of the Vision and the needs of our 
international partners, while maintaining safety as our highest 
priority. In May 2005, we initiated the Shuttle/Station Configuration 
Options Team (SSCOT). This team is conducting a 60-day study of the 
configuration options for the ISS and assessing the related number of 
flights needed by the Space Shuttle before it retires no later than the 
year 2010. The scope of the Shuttle/Station Configuration Options Team 
study spans ISS assembly, operations, and use and considers such 
factors as international partner commitments, research utilization, 
cost, and ISS sustainability. This team is expected to complete its 
work in June, with those results integrated into the ongoing 
Exploration Systems Architecture Study (ESAS).

NASA Priorities in the FY 2006 Budget Request

    The President's FY 2006 budget request for NASA reaffirms the 
funding strategy outlined above. NASA's FY 2006 request endeavors to 
provide a balanced portfolio of programs to meet the needs of our 
national priorities in aeronautics and civil space. It maintains focus 
on key priorities, milestones, and schedules for the Vision introduced 
in the FY 2005 budget.
    To support the Administration's goal of reducing the deficit, 
NASA's budget was reduced $0.5 billion in FY 2006 below the level 
planned in the 2005 budget for FY 2006. In addition, returning the 
Shuttle safely to flight will cost $0.4 billion more in FY 2006 than 
previously estimated. To address these and other items, we proposed a 
budget that provided $0.4 billion (11 percent) less for Exploration 
Systems than previously planned for, $0.3 billion (five percent) less 
in Science, $0.1 billion (11 percent) less in Aeronautics, and $0.2 
billion (four percent) more in Space Operations. These changes were not 
easy, but in the end, we made the decisions to protect the priorities 
outlined above.

Science

    The FY 2006 budget request of $5.5 billion for the Science Mission 
Directorate will support 55 missions in orbit, 26 in development, and 
34 in design phase. By 2010, the Science budget will increase by 23 
percent over current levels.
    The FY 2006 budget includes $858 million for Mars and Lunar robotic 
exploration. The Mars rovers, Spirit and Opportunity, have far exceeded 
all goals with their unprecedented discoveries and longevity. Last 
year, the rovers found definitive evidence of an ancient body of water 
on the Red Planet, and they continue to gather data more than a year 
after their successful landing. We recently awarded contracts for six 
instruments to be flown on the 2008 LRO that promises unprecedented 
mapping of the Moon's surface. The 2008 LRO will be the first step in 
revolutionizing our understanding of the Moon, in much the same way 
that our Mars missions have transformed our understanding of Mars. As 
mentioned earlier, to simplify the management chain-of-command among 
mission directorates, our FY 2005 Operating Plan update transfers 
management responsibility for the Lunar Exploration program, including 
LRO, to the ESMD. This will help to maximize the exploration and 
science benefits of this important program.
    The budget also includes $218 million to maintain competitive 
efforts for the Explorer Program, $56 million for the Beyond Einstein 
program to study the universe, $234 million for studying the Sun in the 
Living With a Star program, and $136 million for competitive 
opportunities in the Earth System Science Pathfinder program. With our 
international partners, we also continue to add to the constellation of 
Earth-observing satellites that monitor our planet while extending our 
reach and presence further into the solar system. NASA launched Aura to 
look back at Earth and give us a better picture of our atmosphere and 
changing climate, and the entire Earth Observing System continues to 
return trillions of bytes of information about our dynamic Earth. In 
the future, NASA plans to develop a ``sensor-web'' to provide timely, 
on-demand data and analysis to users who can enable practical benefits 
for scientific research, national policy-making, economic growth, 
natural hazard mitigation, and the exploration of other planets in this 
solar system and beyond.
    NASA will continue to expand its exploration reach with an armada 
of existing and new space observatories operating in many different 
wavelengths and looking at different parts of our exotic universe. The 
three ``Great Observatories''--Hubble, Spitzer, and Chandra--will 
continue to bring wondrous images to our eyes and exciting new 
scientific discoveries. Missions such as Kepler will provide a new 
understanding and knowledge of the planets orbiting stars far from our 
solar system.
    This budget also includes $372 million to continue developing the 
James Webb Space Telescope for a 2011 launch and provides $93 million 
in development funds for the Hubble Space Telescope. This investment in 
the Hubble, together with the synergistic use of the other two Great 
Observatories, and combined with the greatly increased capability of 
ground-based assets and the emergent science of optical interferometry, 
will ensure many years of new scientific discoveries.
    NASA's decision in January 2004 not to service the Hubble Space 
Telescope was a very difficult one, given the Hubble's record of 
spectacular successes. That decision was made at a time when 
significant uncertainty remained regarding the technical solutions and 
risks associated with return-to-flight. After the two successful Space 
Shuttle flights needed to achieve our return-to-flight objectives, NASA 
will have learned a great deal more regarding the risks and operations 
of the vehicle than was known when the previous decision was made. I am 
committed to reassessing this earlier decision after return-to-flight, 
based on the relative risks to the Space Shuttle as well as the costs 
and benefits to our nation's astronomy program. As a result, we are 
continuing our efforts to preserve the option for a Shuttle servicing 
mission for Hubble. Consistent with this ongoing activity, NASA's FY 
2005 Operating Plan update has fully funded the $291 million identified 
in the Conference Report accompanying the FY 2005 Consolidated 
Appropriations bill and has consolidated the funding and management 
responsibility within the Science Mission Directorate. NASA will use 
the balance of the FY 2005 funds to maintain options for HST servicing 
and de-orbit. NASA has also begun the analysis of how a de-orbit module 
for the Hubble Space Telescope could be added to the manifest of such a 
Space Shuttle servicing mission. I will make a decision regarding a 
Shuttle servicing mission for Hubble following the success of the first 
two Return-to-Flight missions. In the interim, the Agency will keep all 
stakeholders apprised as this work progresses. NASA remains committed 
to a world-class, affordable program of space-based astronomy.

Preparing for Exploration

    The FY 2006 budget request of $3.2 billion for the ESMD includes 
$753 million for continuing development of the CEV, the vehicle that 
will serve as the core element for future exploration beyond Earth 
orbit. The CEV promises safer travel for astronauts into space, 
continuing U.S. human access to space after retirement of the Shuttle. 
The CEV will first conduct missions in Earth orbit, but its primary 
mission will be to support exploration of the Moon and other 
destinations. Our earlier plans called for operational deployment of 
the CEV not later than 2014. However, we are now seeking programmatic 
alternatives to allow development of the CEV to be completed as soon as 
possible. Acceleration of the CEV program will be accomplished by down-
selecting to a single contractor sooner than originally planned, and by 
deferring other elements of the Exploration Systems Research and 
Technology plan not required for the CEV or for the early phases of 
human return to the Moon.
    The first CEV missions to Earth orbit will include docking with the 
ISS. NASA's Exploration Systems Mission Directorate will be responsible 
for developing and acquiring both crew and cargo services to support 
the International Space Station, and funds have been transferred to 
that Directorate. We plan to leverage our nation's commercial space 
industry to meet NASA's needs for ISS cargo logistics and potentially 
crew support.
    Going forward, the Agency will need a launch system for the CEV, 
one which does not at present exist. Two possibilities exist by which 
we might obtain such a vehicle. The first is to develop a launch system 
derived from Shuttle components, specifically the SRB with a new upper 
stage. The second option is to upgrade the proposed heavy-lift versions 
of EELV with a new upper stage. As NASA Administrator, I must be a 
responsible steward of our funds, and a key aspect of the Agency's 
analysis of alternatives will be to capitalize on existing technical 
and workforce assets in a cost-effective and efficient way. NASA's goal 
is to develop a CEV capable of operating safely soon after the 
retirement of the Space Shuttle.
    The FY 2006 budget request included $919 million (a 27 percent 
increase) for Exploration Systems Research and Technology (ESR&T) that 
will enable designs for sustainable exploration; though, as mentioned, 
elements of that program will now be deferred to accelerated the CEV. 
Other ESR&T elements include $34 million for a revamped technology 
transfer program and $34 million for the Centennial Challenges prize 
program. The Agency continues to seek the support of the Congress for 
authorization to enable larger prize awards.
    This budget also includes $320 million for a restructured 
Prometheus Nuclear Systems and Technology Theme for space-qualified 
nuclear systems. The technology and capabilities being developed by the 
Prometheus Nuclear Systems and Technology Theme are critical for 
enabling the power and propulsion needs of the Vision for Space 
Exploration. As part of the Agency's effort to define an Exploration 
Systems Architecture, NASA will examine alternative nuclear systems, 
including surface nuclear power, nuclear thermal, and nuclear electric 
systems. NASA will restructure Prometheus for space-qualified nuclear 
systems to support human and robotic missions with clear priorities 
focused on near-term needs. We expect to make program decisions to 
focus our nuclear technology efforts on our highest priorities for 
near-term applications as part of the Exploration Architecture study, 
to be completed this summer. In addition, the FY 2006 budget request 
provides $806 million for Human Systems Research and Technology, which 
has been restructured so that its programs are now linked directly to 
exploration requirements for human missions to the Moon, Mars, and 
beyond.

Aeronautics Research

    NASA's FY 2006 request for the Aeronautics Research Mission 
Directorate is $852 million, a significant portion of the government's 
overall investment in aeronautics research. To make the most of this 
investment, NASA's technical expertise and facilities for aeronautics 
research are becoming more focused and results-oriented. NASA's current 
aeronautics research is focused on enhancing the public good. NASA is 
also working to maintain a strong basic aeronautics research program 
and to establish a series of far-reaching objectives, each of which, if 
enabled, could significantly transform civil aeronautics. The results 
from the basic research, technology development, and demonstrations 
achieved by NASA's Aeronautics efforts will be transitioned for use by 
both Government and industry. The President's FY 2006 request increased 
the vital research of the Aeronautics program in Aviation Safety and 
Security and in Airspace Systems. These two priority programs are fully 
funded to ensure timely results critical to meeting national goals. 
NASA works closely and constructively with other Executive Branch 
agencies to enhance our nation's aeronautics capability. In this vein, 
NASA, along with the Departments of Defense, Homeland Security, 
Commerce, and Transportation, is a principal member of the interagency 
Joint Planning and Development Office (JPDO), which was chartered by 
the Century of Aviation Revitalization Act to oversee research and 
technology efforts for the Next Generation Air Transportation System. 
NASA is working closely with industry consortia and other government 
agencies to develop advanced aircraft demonstrations, such as those 
that would expand the capabilities of high-altitude, long-endurance, 
unmanned aerial vehicles, which could have numerous commercial, 
scientific, and homeland security applications.
    At this time, NASA is also working with other U.S. Government 
departments and agencies and industry to assess its facilities for 
aeronautics research. NASA will need to consider the possibility of 
closing some under-utilized aeronautics facilities, while modernizing 
some others to become state-of-the-art facilities.
    As we move forward, a broader national dialog on aeronautics R&D 
goals may be appropriate as we enter the second century of aviation. 
These discussions should include a range of stakeholders and customers, 
including the Congress. This process could lead to a national consensus 
for aeronautics R&D goals.

Education

    NASA's FY 2006 budget request includes $167 million for the Office 
of Education to support programs in science, technology, engineering, 
and math education. NASA will establish clear goals, metrics, and 
monitoring capabilities for its education initiatives in the coming 
months to ensure that these funds will achieve the greatest benefit.

Space Shuttle and International Space Station

    The FY 2006 budget request of $6.8 billion for the Space Operations 
Mission Directorate (SOMD) reflects the first step in the Vision for 
Space Exploration: returning the Space Shuttle safely to flight and 
resuming flight operations. Going forward, all SOMD expenditures will 
be consistent with the retirement of the Space Shuttle by 2010, while 
maintaining operational safety of flight throughout the program. The FY 
2006 budget includes $4.5 billion for the Space Shuttle program. The 
budget also provides $1.9 billion for the ISS. NASA currently is 
examining configurations for the Space Station that meet the goals of 
the Vision for Space Exploration and needs of our international 
partners, while requiring as few Shuttle flights as possible to 
complete assembly.
    A key element in the future of the ISS program is the purchase of 
alternate cargo transportation services to supplement the Space 
Shuttle, and the development of new crew transportation capabilities to 
replace Shuttle when it retires. Because the ESMD has the mission to 
develop and acquire such crew and cargo capabilities for the ISS and 
beyond, I have transferred management responsibility for the activities 
and budget of ISS Cargo/Crew Services to ESMD from SOMD, as stated in 
the May update to NASA's FY 2005 Operating Plan. The budget request 
before the Congress provides $160 million for these services in 2006.
    As a top Return-to-Flight (RTF) priority, NASA has made dozens of 
changes to the External Tank (ET) design to reduce both foam and ice 
debris from shedding during ascent. These changes include an improved 
bipod design that now excludes using foam and a new design for the area 
around the liquid oxygen feed line bellows. Each of these changes 
incorporates electric heaters to eliminate an unacceptable debris risk 
to the Orbiter caused by ice buildup on the ET. The new designs are 
presently installed on the ET for Discovery's flight (STS-114) and will 
be included on all those to be used in the future.
    We have also made more than 100 major modifications and upgrades to 
Discovery and its supporting systems, including new cabling and wiring 
for sensors placed in the wing leading edge of each wing, a digital 
camera for monitoring any debris impacting the underside of the 
Orbiter, and a boom extension for the Shuttle's robotic arm that will 
enable us to inspect nearly all the outside areas of the Orbiter's 
Thermal Protection System after achieving orbit. Additionally, 
technicians at KSC have installed the redesigned Forward Reaction 
Control System Carrier Panels and the Reinforced Carbon-Carbon Nose 
Cap. Technicians have also installed 88 new sensors in the leading edge 
of each wing, of which 66 will measure acceleration and impact data and 
22 will measure temperature profiles during Discovery's ascent to 
orbit. These data will be down-linked to the ground to be used as a cue 
for pointing to areas in the thermal protection system needing further 
inspection by the boom mounted sensor system. These are just several of 
the extensive changes we have made to the hardware to mitigate the 
effects of debris shedding from the External Tank. Discovery and its 
propulsion elements are now at the launch pad undergoing the final 
tests and checks required prior to launch, currently scheduled to occur 
not earlier than July 13, 2005.

Transforming NASA

    The CAIB was clear in its assessment that the lack of open 
communication on technical and programmatic matters was as much a cause 
of the loss of Columbia as the shedding of the foam. We have understood 
and embraced this assessment, and are absolutely and completely 
committed to creating an environment of openness and free-flowing 
communication by continuing to assess our leadership practices.
    For the last three decades, NASA and the Nation's human space 
flight program have been focused on the development and operation of 
the Space Shuttle and the Space Station. In its final report, the CAIB 
was very forthright in its judgment that these goals are too limited to 
justify the expense, difficulty, and danger inherent in human space 
flight, given the limitations of today's technology. The CAIB was 
equally forthright in calling for a national consensus in the 
establishment of a program having broader strategic goals. The Vision 
for Space Exploration proposed by the President is that program, and 
NASA has embraced this new direction. But to effect these changes, NASA 
must engage in a major transformation--taking the capabilities we have 
throughout the Agency and restructuring them to achieve these 21st 
Century goals. This is an enormous challenge, but we have begun to 
transform our entire organization to foster these changes and to 
enhance a positive, mission-driven culture.

        <bullet>  Embracing Competition--NASA is embracing competition 
        as a way to elicit the best from NASA's Centers, industry, and 
        academia. The Agency is using competitive processes to 
        encourage more cost-effective, innovative solutions to the 
        scientific and technical challenges presented by the Vision. 
        Over the past year, competitive selections in exploration have 
        demonstrated increased collaboration between NASA's Centers and 
        industry and academia. The engine of competition is the primary 
        force behind the American economy, the greatest the world has 
        ever known, and we plan to make greater use of this engine than 
        has been the case at NASA in the past. NASA plans to pursue 
        appropriate partnerships with the entrepreneurial and 
        commercial space sector to the maximum practical extent.

        <bullet>  The Role of the Centers--While competitive processes 
        are crucial to maintaining NASA at the ``cutting edge'' of 
        science and technology, we must acknowledge that the NASA 
        Centers and other federal research and development laboratories 
        exist, and have existed for decades, precisely because 
        industrial competition does not serve to accomplish all of our 
        national goals. In order to accomplish the national goals set 
        forth by the President and Congress, NASA must set realistic 
        priorities within limited resources. NASA Centers will have an 
        important role in definition of the architecture and 
        requirements for exploration beyond low-Earth orbit, and for 
        the systems engineering and integration functions used in 
        building the systems of that architecture. We will continue to 
        assess the skill-mix that we require, the number of people we 
        require, their location, and how we are organizing ourselves to 
        fulfill our obligations to the President and Congress. To begin 
        to create some of the workforce flexibility necessary for the 
        future, NASA has offered voluntary separation incentives 
        (buyouts) to employees in positions identified with excess 
        competencies. To the extent that NASA's workforce needs 
        revitalization, NASA is proposing legislative initiatives to 
        the Congress as part of the Agency's draft FY 2006 
        Authorization Bill. Congress's enactment of the NASA 
        Flexibility Act of 2004 is also helping the Agency toward that 
        end, and additional authorities will provide even more aid in 
        managing the Agency's workforce.

        <bullet>  Improved Decision-making--NASA recently transformed 
        its organizational reporting in order to provide more 
        integrated decision-making. NASA field Center Directors now 
        report directly to the Administrator, and I am drafting a 
        position description for a new Associate Administrator who will 
        manage the internal activities of the Agency. The Office of 
        Education reports directly to the Director of Strategic 
        Communications, who is also in charge of Public Affairs, 
        External Relations, and Legislative Affairs, in order to 
        provide a more integrated picture of what NASA is doing and can 
        do for its stakeholders and public. NASA's new Office of 
        Program Analysis and Evaluation has been created in order to 
        provide analyses and assessments for strategic planning and 
        budgeting decisions, independent cost estimates, evaluation of 
        projects at major milestones, and feedback from the Centers on 
        their capabilities and work climate. This is to ensure that the 
        acquisition strategies, if done as planned, are executable, 
        have exit and entrance criteria, contain clear approval 
        milestones, and involve independent reviews.

        <bullet>  Improving Financial Management--For the past two 
        years, NASA has received a disclaimer of audit opinion on its 
        annual financial statements due largely to two issues--
        financial system conversion, and accounting for property, plant 
        and equipment, and materials and supplies. In FY 2003, NASA 
        converted the 10 separate NASA Center accounting systems and 
        the associated 120 subsidiary systems, along with over 12 years 
        of historical financial data, into a single integrated agency-
        wide core accounting system. Problems associated with this 
        conversion have been greater than expected and are taking 
        longer than expected to correct. I regard improvement of NASA's 
        financial management as one of my priorities.

        <bullet>  Capital Asset Management--The management of NASA's 
        capital assets, valued at $37.6 billion (83 percent of NASA's 
        assets on the balance sheet), is a significant challenge for 
        the Agency. Historically, the management systems to provide 
        proper valuation and tracking of assets have not been 
        sufficient to meet the rigors of review without significant 
        compensating controls and manual effort. Another challenge we 
        are facing is that the costs of many facilities that could be 
        deemed ``national assets'' were being born as direct charges to 
        our projects causing an unequal competitive base among our 
        field centers. Through the Integrated Asset Management (IAM) 
        project we are steadily creating the proper controls to provide 
        tracking and valuation needed to account for the many types of 
        assets that exist within NASA. Realistically, the successful 
        completion of the IAM project will take time. We are validating 
        the requirements for asset management methods to ensure they 
        comply with audit requirements while we simultaneously update 
        existing tracking systems to modern platforms. For our 
        ``national assets'' we plan to create a new funding structure 
        aimed at ensuring the Centers have a chance to compete on an 
        equal footing. Placing the national asset funding in a 
        separate, carefully managed account will help create a level 
        playing field and encourage broad scale use. A great deal of 
        attention is being placed on asset management to ensure that 
        the new methods and systems we devise provide a robust and 
        enduring solution to the challenges the Agency has faced in 
        resolving this significant issue.

The Nation's Future in Exploration and Discovery

    The aftermath of the tragic loss of the Space Shuttle Columbia on 
February 1, 2003, brought us to a watershed moment in the American 
civil space program. Choices had to be made. The President has put 
forth a choice, a strategic vision for the space program. That vision 
has been enunciated with exceptional clarity, and has been subjected to 
considerable public debate for over a year. While differences of 
opinion exist, the President's proposal has attained broad strategic 
acceptance. As a nation, we can clearly afford well-executed vigorous 
programs in robotic and human space exploration, Earth science, and 
aeronautics research.
    For America to continue to be preeminent among nations, it is 
necessary for us to be the preeminent space-faring nation. It is 
equally true that great nations need allies and partners in this 
journey. That is what the Vision for Space Exploration is about.
    As President George W. Bush said, ``We choose to explore space 
because doing so improves our lives and lifts our national spirit. So 
let us continue the journey.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dr. Griffin. Thank you.

                               Discussion

                       Timetable for Information

    Chairman Boehlert. Let me continue on with my series of 
questions on when.
    When do you expect that we will have some report on the 
number of flights the Space Shuttle will make before its 
retirement, the purpose of those flights, and the expected date 
of the final flight?
    Dr. Griffin. Again, sir, later this summer.
    Chairman Boehlert. Later this summer we are going to be in 
the August recess, so----
    Dr. Griffin. No. Okay, we will be discussing--we are 
examining--as I sit here, a team of bright and dedicated 
engineers with substantial experience in the business and on 
Space Station, in particular, are looking at all of the 
available options by which we might complete the assembly of 
the Space Station consistent with our obligations to our 
partners and our research agenda while remaining within the 
requirement to retire the Shuttle by 2010. I just mentioned 
that there will not be available 28 flights, and so we must 
work with less, and we must make some determination as to what 
amount of work is left over for the new system to complete.
    We will be--we are close to the end of that exercise. 
During the month of July, we will be discussing those 
alternatives within the Administration, and as soon as we can 
do so, with your committee and other Members of Congress.
    Chairman Boehlert. So is it fair to say the September time 
frame would be a----
    Dr. Griffin. Absolutely not later than that, sir.
    Chairman Boehlert. All right. Thank you very much.
    And when might we have a description of the means, other 
than the Space Shuttle, that might be used to ferry crew and 
cargo to the International Space Station?
    Dr. Griffin. Again, in that same time frame, because that 
depends upon the results of a parallel study on exploration 
systems architecture, and I think you know that the President 
has required that the so-called Crew Exploration Vehicle, which 
will provide the fundamental building block for returning 
astronauts to the Moon, must also be capable of ferrying 
astronauts to and from the Space Station. And so again, later 
this summer----
    Chairman Boehlert. That same time frame for a description 
of the launch vehicle for a CEV?
    Dr. Griffin. Absolutely, yes, sir.
    Chairman Boehlert. All right. And now this one is a sticky 
wicket, but the plan for the operation of the International 
Space Station in the event that the Iran Nonproliferation Act 
of 2000 is not amended.
    Dr. Griffin. That will take longer. If--we are in--for the 
Administration, we are planning to seek recommendations for 
that act to allow us to utilize the Station together with our 
Russian partners. If that act is not amended, then, at present, 
the only plan we really have for utilizing the Space Station 
would be while the Space Shuttle is docked at the Station. At 
times other than that, after 2006, the United States would not 
be able to keep astronauts----
    Chairman Boehlert. April 2006 you are saying?
    Dr. Griffin. April 2006. That is correct, sir. So if the 
act is not amended and NASA would not be able to have U.S. 
astronauts on board the Station, other than when the Shuttle is 
there.
    Chairman Boehlert. And the Shuttle can be there a couple of 
weeks?
    Dr. Griffin. A couple of weeks.
    Chairman Boehlert. All right. A description of any heavy-
lift vehicle the Administration intends to develop, the 
intended uses of that vehicle, and whether the decision to 
develop that vehicle has undergone, or is undergoing, an 
interagency review.
    Dr. Griffin. All of the architecture that we intend to put 
forward this summer will undergo interagency review. That is an 
unequivocal statement. For heavy-lift vehicles capable of 
returning us to the Moon, I have made no secret of the fact 
that I believe a Shuttle-derived architecture wherein we retire 
the orbiter and utilize the remaining elements of the Shuttle 
structure, the engines, the tanks, the rocket boosters, will 
provide us a 100 metric ton class payload capability. And the--
but from where we are today, that is the shortest path to such 
a capability.
    Chairman Boehlert. Of the intended purpose of lunar 
missions and the architecture for those missions?
    Dr. Griffin. And sir, later this summer, certainly not 
later than September. That is a study that is ongoing. And I 
realize--I fully respect Mr. Gordon's remarks, and yours, that 
it has been now almost 18 months since the President's 
announcement of the vision for exploration and that it might 
well be said that we owe you, and have owed you for some time, 
those plans and those architectures. I do take responsibility 
for that.
    Chairman Boehlert. Well, it is an agency in transition. We 
understand that.
    Dr. Griffin. It is in transition, and we do not believe 
that the problem needs to be as complicated as some have said, 
and we are--we have been working since I arrived, and we are 
working today in order to be able to provide you with those 
top-level plans, architectures, approaches, and budgets later 
this summer.
    Chairman Boehlert. Well, one of your great skills is your 
ability to take complicated matters and provide some 
simplification, and we are looking forward to that.
    How about the project goals for Project Prometheus?
    Dr. Griffin. I have--if I have an ability to simplify 
things, it is because I must to remain within my own 
limitations, but thank you.
    Project Prometheus is extremely important. The utilization 
of nuclear power in space for electric power and propulsion has 
no stronger advocates than I, and I know that this committee 
knows that, because I have said that in prior testimony. 
However, in a world of limited resources, as I looked at our 
program going forward, I could not justify placing as the first 
goal of Project Prometheus, the development of a nuclear 
electric propulsion system to send a scientific mission to 
Europa. There are--that mission was at $11 billion and counting 
for cost estimates before we got off the drawing board, and I, 
in the face of competing priorities, simply could not endorse 
that. Moreover, the nearest term need that we have for nuclear 
capability in space will be surface power on the Moon in the 
middle or toward the end of the next decade.
    So to the extent that we wish to devote resources to 
exploring Europa, and I do, and we will be submitting such a 
program, I chose not to link the exploration of Europa with the 
development of nuclear electric propulsion to do so. And to the 
extent that I believe in the importance of nuclear power and 
propulsion in space, and I do, I have chosen to devote our 
early resources to the development of lunar power--sorry, 
surface power for lunar missions.
    Chairman Boehlert. Let me, before turning to Mr. Gordon, 
whose indulgence I appreciate, but these are really consensus 
questions.
    Dr. Griffin. I understand, sir.
    Chairman Boehlert. And we are all searching.
    The final thing is when might we expect a plan for managing 
the cost overruns for the James Webb Space Telescope?
    Dr. Griffin. Again, sir, I was apprised of those potential 
cost overruns last month. Within 48 hours of having been so 
apprised, we, at NASA, chartered a special team to review those 
costs with the action to reduce them where possible or where 
they are real, to recognize them and to replan the rest of the 
program around them. The James Webb Space Telescope is the 
centerpiece of our astronomy program going forward, no question 
about it, but we need to make sure that we have an executable 
program with realistic dates. When we have that information, 
again, not later than the end of this summer, I will bring it 
to this committee.
    Chairman Boehlert. It is very apparent that you have a lot 
of busy days ahead, and we don't expect you to wave a magic 
wand and perform miracles, but I hope you can appreciate the 
desire on the part of this committee, on both sides, to get 
answers to some of these basic questions that guide us as we go 
forward with charting the course for the future of NASA.
    Dr. Griffin. Sir, I could not more fully understand and 
appreciate the need to do that. And I--we are with you in this 
search for answers. And as rapidly as we can provide responsive 
and reasonably complete answers, this committee will have them.
    Chairman Boehlert. Thank you very much.
    Mr. Gordon.

                            Budget Firewalls

    Mr. Gordon. First of all, let me say, Mr. Chairman, thank 
you for getting those questions on the record. I think it is 
important for us to, in our mission of oversight, and quite 
frankly, I say that we haven't done as good a job of oversight 
as we should have in the past, because we haven't gotten those 
kinds of answers. And I think, Dr. Griffin, your suggestion of 
September is realistic and reasonable. You have got a lot to 
review. But I will also point out, that is only a few days 
before the beginning of the fiscal year, which is again why I 
would suggest that there not be major redefining of NASA and of 
some of the goals there until you have a chance to get through 
this. So I would hope that you keep that in mind.
    And let me move forward with my questions.
    Dr. Griffin, in my opening statement, I mentioned a number 
of changes that have been made to NASA's exploration program 
since you arrived. I did that not to question your decisions 
but to make the point that a lot is in flux within NASA's 
exploration program. And a lot of what Congress and the 
industry was told last year is no longer relevant. 
Unfortunately, NASA has a history of such changes. The Space 
Station program seemed to change almost every year since its 
initiation in the mid-1980s, and I understand you are now 
considering restructuring it again. In 1994, NASA announced its 
single stage to orbit launch vehicle program with much fanfare. 
A few years later, the program was canceled before the X-33 
test vehicle even flew.
    Then NASA announced that it was instead going to initiate 
the space launch vehicle within the goals of developing a next-
generation reusable launch vehicle and other advanced 
technologies. A few years later, NASA canceled the space launch 
initiative and said that its new plan was to build an Orbital 
Space Plane. Well, the Orbital Space Plane program last year 
was also canceled.
    Then last year, NASA announced its plan to develop a Crew 
Exploration Vehicle, using a spiral development approach. This 
program apparently, the CEV program, is being restructured and 
the acquisition approach changed. And many other changes are 
apparently being made to the exploration program. That may be 
the best thing to do, and I think it probably is, Dr. Griffin, 
but given NASA's record, it is hard to take that on faith.
    So, Dr. Griffin, you are not going to have a lot of room to 
maneuver when it comes to the budgets, which you will likely 
see over the next few years. So how do you plan to ensure that 
your exploration program is not subject to the same errant 
changes that we have seen from NASA in the past? In other 
words, what are you going to do differently? And also, do you 
feel that it is necessary to set up firewalls? Or what are you 
going to do in these tough budget times to stop poaching into 
other areas of NASA's budget? Or do you think that is 
necessary? And is it inevitable that will happen?
    Dr. Griffin. Let me answer the last question first, sir, if 
I might.
    I don't believe that we are allowing the manned space 
flight program to poach onto other areas. I have committed, 
often and publicly, that I intend to, want to, and will protect 
NASA's science program from the demands of human space flight, 
and frankly, vice versa. If the James Webb Space Telescope 
overruns, it is the problem of the astronomy folks, not the 
Shuttle folks. They have their own problems.
    Mr. Gordon. Do you see setting up firewalls or what, other 
than just good faith? And how do you intend to try to do that?
    Dr. Griffin. Well, I don't think, sir, that we need legal 
firewalls, because the preservation of flexibility, in the 
event of an emergency, is always important, as, for example, in 
recovering returning to flight from Columbia, we--NASA did not 
receive a supplemental as we did in the Challenger--the 
aftermath of the Challenger disaster. And so, if we were to 
return-to-flight, there was no alternative but to reprogram 
funds. And this committee, and others, were very helpful in 
allowing us to do that.
    So I think the avoidance of----
    Mr. Gordon. There was a process----
    Dr. Griffin. Pardon, sir?
    Mr. Gordon. There was a process there----
    Dr. Griffin. There was.
    Mr. Gordon.--that allowed you to meet those emergencies.
    Dr. Griffin. And I would use that process again. So I would 
rather avoid legal restrictions on flexibility, and I would 
rather rely on working with this committee to establish the 
correctness and the utility of the decisions that are being 
made. You mentioned that you didn't want to appear to be 
questioning my decisions. On the contrary, sir, I think you 
should. If I make decisions that cannot stand up to the light 
of day, I think they should be questioned.
    Mr. Gordon. Well, we may do that in September once we hear 
them.
    Dr. Griffin. Yes, sir.
    You asked what we will be doing different.
    First of all, I hope never again to let the words ``spiral 
development'' cross my lips. That is an approach to acquisition 
for large systems, very relevant to DOD acquisition 
requirements, but I have not seen the relevance to NASA, and I 
have preferred a much more direct approach, and that is what we 
will be recommending and implementing.
    What else will be different? I hope that you will see, as 
we bring it forward, a very straightforward plan to replace the 
Shuttle and a very straightforward architecture for lunar 
return. That, on the face of it, will seem to you that if we 
are to do these things that the approach being recommended is a 
logical, clean, simple, straightforward approach.
    We--you mentioned, sir, in your opening remarks, the--
postponing the arrival date at Mars in order that we can do the 
proper things now, and I agree. The money that is being spent 
that is being tagged with exploration initiative funding in 
these early years is really, almost entirely, for the 
completion of the Space Station and for the development of the 
Crew Exploration Vehicle. That is what is being done with the 
money that is being provided. And in fact, we need all of it 
that we can get in order that we not have, in my view, a 
strategically undesirable gap between the retirement of the 
Shuttle and brining online the CEV.
    I don't think it is too soon to undertake the redefinition 
of what we are doing in NASA that you have mentioned. I don't 
think we need a year to take a deep breath, because in the 
course of that year, we would be spending a lot of money. There 
are many things, which were on the table when I walked in the 
door at NASA, that needed to be reexamined, and I felt, 
honestly, sir, that the soonest that we could do that and stop 
spending money in directions that we felt were unprofitable and 
unpalatable, the soonest that I could do that would be none too 
soon.
    We have submitted to this Congress the--a revised operating 
plan for 2005. We will be putting forward a budget amendment 
for fiscal year 2006 to reflect some of these changes in 
priorities.
    Chairman Boehlert. Thank you very much.
    Mr. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.

                          Returning to Flight

    Obviously, the hot topic on the news today is returning to 
flight. And last evening, there was a report that indicated 
there were some problems but that they anticipate returning to 
flight soon. I just thought we would ask your current 
assessment of the plans to return the Shuttle to flight. And do 
you still anticipate that we will be able to do that launch on 
July 13?
    Dr. Griffin. Let me start with the end.
    Yes, sir. We have several days of slack available between 
today and launch on July 13. We look like we are in pretty good 
shape there. We have a flight readiness review, the formal 
flight readiness review, tomorrow and Thursday, which I will be 
attending. In fact, I will be leaving this evening for Kennedy 
Space Center. I have participated in every technical review 
that was appropriate for me to do since coming on board as 
Administrator. And I believe I have acquired a pretty good 
picture of where we are with respect to the technical 
requirements to return-to-flight. I have been tremendously 
impressed with the work that the team has done in executing 
those improvements, and I think, based on what I know now, we 
are ready to go. The flight readiness review for the next 
couple of days will either uncover an exception to that 
statement or will endorse it. And we will all see.
    Mr. Calvert. That is good to hear.

                             The Centrifuge

    One of the questions that you answered indicated an obvious 
situation that we are not going to be able to fly the 28 
Shuttle missions that were anticipated to finish the 
International Space Station to some degree that some folks 
would like to happen. I was wondering, with regard to the 
Centrifuge, when do you see the future of that, and are we 
going to be able to move forward with human exploration without 
performing that research that the Centrifuge was to provide? Or 
is there another way to get that Centrifuge up there?
    Dr. Griffin. Well, the--in the fullness of time, there is 
always a way to get anything up there. The Centrifuge 
accommodation module was--is being considered as to whether or 
not it should be flown, given the focus of Station research on 
the effects on the human organism of microgravity. Centrifuge 
can't, of course, accommodate a human. It can accommodate 
tissue or small animals for fundamental, cellular-based, life 
science research. That sort of research at the cellular level 
is not directly applicable and would not be for many years to 
problems of flying humans on voyages back to the Moon or Mars. 
And so in that sense of reorienting the Station's mission to 
focus on human exploration rather than fundamental life science 
research, the Centrifuge accommodation module is in----
[inaudible].

                          Financial Management

    Mr. Calvert. One other question I have that--I know that 
you have only been there a couple of months, but as you know, 
for the last three of the four years, NASA has been unable to 
produce auditable financial statements. Auditors have 
highlighted a number of weaknesses with NASA's financial 
statements, as you know. So what is your assessment, so far, of 
this situation, and what do you have in mind to fix it?
    Dr. Griffin. The situation is deplorable. It is 
unacceptable that NASA cannot meet the standards for financial 
acumen to which it holds its contractors. We--I was apprised of 
this during my preconfirmation visits here on the Hill and 
scarcely a week has gone by that I have not been reminded of 
it. We have provided additional personnel and additional 
budgetary resources to address the issue. We have, in fact, 
invited leading financial management experts from other federal 
agencies to review our plans and have incorporated their 
suggestions. I have empowered the CFO to execute these plans 
and take actions that should produce a long-term financial 
health of the Agency.
    We are trying to--we have three core priorities that we are 
trying to achieve. The first exercise is to generate a clean 
opinion from our auditors, just to simply know where all our 
money is and have our auditors agree that we do. With regard to 
developing our budget, we want to resolve issues of how we 
control our funding distribution, how we should standardize our 
financial data structure, and how we are going to standardize 
our budget formulation process. And finally, we need to 
standardize our management reporting methodology and financial 
management metric. We--our major challenges are to reconcile 
the fund balance with treasury accounts, to provide an 
auditable evaluation of our property plant and equipment and 
environmental liabilities, and to improve our financial data 
integrity and compliance with the Federal Accounting Standards 
board and OMB and Treasury requirements.
    We know the challenge in front of us. We are getting the 
best external and internal help that we can to execute it. I 
take it very seriously.
    Mr. Calvert. Thank you, Doctor, and I look forward to 
working with the Chairman to have, maybe, a hearing about this 
later on and be more specific on this problem.
    Dr. Griffin. Yes, sir.
    Chairman Boehlert. Thank you very much.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    Dr. Griffin, if we could, I would like to focus on the 
aeronautics side to the equation and also ask you a couple of 
questions about Hubble.

                              Aeronautics

    As I mentioned in my opening statement, there has been a 
steady drumbeat of task force reports and testimony that make a 
compelling case that NASA's aeronautics program is at serious 
risk. The five-year funding trend contained in the President's 
2006 budget, I think, could render the aeronautics side of the 
equation irrelevant. Could you just comment, as the NASA 
Administrator, on what you are planning to do, if anything, to 
reverse that decline?
    Dr. Griffin. Well, the President's budget for aeronautics 
is what it is. And what I am committed to do is utilizing that 
budget in the most effective way possible. I absolutely believe 
in the importance of aeronautics for NASA and for this nation, 
and I understand that we have stakeholders in industry, in DOD, 
with the FAA, and even internally within NASA, all of whom to 
which the aeronautics program is of first rank.
    I think we need to focus our efforts going forward more 
than they have been. I think NASA does its best when our 
aeronautics programs are focused around key technical 
demonstrations, which are of a groundbreaking nature. We have 
had much in the aeronautics community, which is of a business-
as-usual, keep-funding, keep-programs-alive nature, and I am 
looking to restructure. I have been, in fact, one of the 
voices, noting that the last time the Nation had a strategic 
plan in aeronautics, it was issued by the Office of Science and 
Technology Policy, and the date it carried was 1982. I have the 
report. I am in full support of this committee's and the 
House's recommendation that we have a new aeronautics strategy.
    Mr. Udall. Do I hear you say, then, that you more 
aggressively promote the aeronautics side of the NASA mission?
    Dr. Griffin. Within the context of the President's budget, 
I absolutely will. I am a strong supporter of our aeronautics 
program. I think we need to be looking at what we can do with 
almost $1 billion in funding rather than complaining constantly 
that it isn't enough.
    Mr. Udall. But if I could, I would ask you, and I think you 
would have a lot of support on the Committee, to push for 
additional funding. I think the flat-line trend puts us further 
behind the eight ball, and it is my opinion that the results, 
the economic return, on the aeronautic side, is equal to that 
of the space side. Could we count on you to push for--within 
the context of your responsibilities, additional funding, at 
least to keep pace with inflation?
    Dr. Griffin. Sir, my first priority will be to 
effectively--to utilize effectively the money that we are 
given. I will be working with this committee and other 
executive agencies to do that.
    Mr. Udall. Let me turn--and I think this conversation will 
continue, if I might conclude in that way----
    Dr. Griffin. Sure.
    Mr. Udall.--because I do think the aeronautics side is 
crucial across the whole series of fronts.

                         Hubble Space Telescope

    Let us turn to Hubble. Again, I want to thank you for your 
willingness to revisit the Hubble policy. I know you have asked 
a team out at Goddard to start planning for such a mission. 
Could you talk about what they are doing? And then would you 
talk about your comment that after the first two successful 
return-to-flight missions, and I am going to presume, as we all 
do here, that these are going to be successful return-to-flight 
missions, what are the criteria you are going to use to decide 
whether to proceed with the Hubble servicing mission?
    Dr. Griffin. There are some detailed test objectives to be 
accomplished on these flights that have to do--that do affect 
our ability to execute Hubble Servicing Mission 4, SM-4, as it 
is known. They have to do with available crew time for EVA, 
other EVA guidelines, use of the manipulator arm for tile 
inspections. What we do with regard to those procedures, they 
need to be worked out before we can fully commit--before I 
could responsibly commit to you that we should undertake the 
servicing mission. What I have said in prior testimony and in 
public remarks is that by this fall, when we have completed 
those two missions, we will know those answers. And if those 
answers are favorable, then I will recommend that we execute 
Hubble Servicing Mission 4 with the Shuttle and restore the 
Hubble to health and to a stable orbit for, you know, the next 
half dozen years or more.
    Mr. Udall. Doctor, do you have any cost estimates on the 
Hubble servicing mission and any sense of how much might be 
funded by the science account in the fiscal year 2006?
    Dr. Griffin. I don't have those estimates currently, no, I 
am sorry. We can provide those to you for the record. I have 
also not looked at, yet, the structure of what that mission 
might consist. Much of the cost depends on the assumptions that 
go into the mission, and we have not flown--all of the missions 
we have flown of that vein beforehand, of course, were prior to 
the loss of Columbia, and we need to think through how we would 
intend to do this mission.
    Chairman Boehlert. The gentleman's time has expired.
    Let me ask you, Mr. Administrator, and come closer to the 
microphone, because we are anxious to hear what you have to 
say.
    Dr. Griffin. Oh, I am sorry.
    Chairman Boehlert. Is it still the operative plan within 
NASA, as you undergo this strategic review in your workforce, 
that there will be no layoffs, at least until 2007, if then?
    Dr. Griffin. I believe that is where we are at present.
    Chairman Boehlert. Okay. Thank you very much.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And I would like to welcome the new Administrator. Thank 
you very much.

                     The Iran Nonproliferation Act

    Let me note that our Chairman compared you to the man from 
La Mancha, which I found very disturbing, Mr. Chairman. In 
fact, after considering that of the four top NASA executives, 
that all four of them are leaving, will be gone shortly, I 
think that we should compare you more to Conan the Barbarian 
rather than the man from La Mancha. So--but we--but our 
governor in California has already secured himself that 
designation. So we will be searching for an appropriate title 
that will exemplify your Administration.
    Let me note that you have started very, very well. And you 
have been bold. You have been making decisions. You have been 
setting up a process in order to make the decisions that can't 
be made now. And you can count on all of us here on both sides 
of the aisle to be working with you.
    A little disagreement with my--with the Ranking Member. I 
would suggest that you actually take as much money from the 
Mars part of the program and spend it on meeting the current 
challenges. Spending money too soon in such a long-term project 
as going to Mars, spending money would be wasteful rather than 
trying to meet the challenges we have now and then using new 
technology in the years ahead, rather than trying to develop 
technology today for something that may not be applicable 
because of changes in the future.
    I would like to specifically talk to you right now about, 
and get your reaction to, something that I see as your ultimate 
short-term challenge, and you mentioned it in terms of the 
Shuttle and the Space Station. And the greatest impediment to 
you, which I can see, of actually meeting that challenge of 
making sure that the Space Station project is finished and 
reaches its potential, and plus our--that we know about in 
terms of the limitations of the Shuttle. And I guess what I am 
talking about is the Iran Nonproliferation Act. And let me 
note, Mr. Chairman, that I was very deeply involved in the 
wording of the Iran Nonproliferation Act in dealing with this 
particular challenge that we face right here. And I will say 
that it was a worthy effort at the time to make sure that we 
pressured the Russians not to participate in the developing of 
a nuclear facility in Iran. That strategy has, however, not 
worked. Clearly, it has not worked. Unfortunately when the 
Nonproliferation Act was put into place in the year 2000, both 
during the Clinton Administration and during this 
Administration, what needed to happen was some type of an 
overture to the Russians that would give them an alternative. 
Neither Administration did its job in the past, and now you, 
after two months as being leader of NASA, are faced with this 
very serious time period when we have to make decisions and we 
have to move forward and decisions have to be made.
    And so you aren't to blame. I would put the blame on the 
Clinton Administration as well as the Bush Administration for 
not doing this, but now we have got this decision to make.
    Do you believe, and you have background with--but we know 
that the Defense Department has been able to work with the 
Russians all along, even with the Nonproliferation Act. Do you 
believe that we should now shift into more of a policy with 
NASA that is more like what you have in the Department of 
Defense and just realize that the Nonproliferation Act is not 
working and Space Station has got to be completed?
    Dr. Griffin. Well, yes, sir, broadly speaking, I do support 
that. And as I said earlier, the Administration is just 
releasing, I, in fact, signed today jointly with Secretary of 
State Rice, a letter to this committee requesting that we do 
amend the act. It is worthy of note that it is, today, possible 
for the Defense Department, through its contractors, to buy 
Russian engines for Defense Department purposes, but if we 
would seek to use one of those engines to support the 
International Space Station program, it would not be possible 
under the act, and--as it exists today, and that is an 
interesting----
    Mr. Rohrabacher. Well, you need not be burdened with things 
that were so weighty, let us say, as the Nonproliferation Act, 
which was not, as I say, followed through on. It was not 
handled correctly by those who preceded you, as well as the 
rest of the Administrations, both the Clinton and Bush 
Administrations. Is there any other way out that you see?
    Dr. Griffin. Other than an amendment of the Act, no, sir. 
As I pointed out earlier, the only approach that we can take 
would be to cease buying Progress and Soyuz services from 
Russia and to restrict our astronaut time on the Space Station 
to periods when the Shuttle is present.
    I would also point out that while, you know, we have 
alliances and differences with Russia, that among the best 
things to have come from our space program over the last 15 
years is the space cooperation that we have enjoyed with 
Russia. And if the act is not amended, that will come to a halt 
in April of 2006.
    Mr. Rohrabacher. Well, it was a worthy goal. We tried, Mr. 
Chairman, to make sure that we used all of the leverage we had, 
including space cooperation with the Russians to try to get 
them out of this nuclear power plant down in Iran. It did not 
work. There is no reason for us not to be realistic, and I 
applaud you and the Administration now for being realistic, 
although I think the Administration shares a great deal of 
blame for bringing us to this point.
    Dr. Griffin. Well, sir, none of us like this position. And 
the fact is that for the next several years, as the Space 
Station development and its partnership go forward, the United 
States is in the position where we cannot effectively utilize 
the Space Station without our Russian partners. This strategic 
dependence, in a critical area, is why I have spoken up so 
strongly since coming into this new position for narrowing the 
gap between Shuttle retirement and Crew Exploration Vehicle 
deployment. That is why I have subordinated other important 
priorities within NASA to that priority, because I believe--I 
absolutely believe that it is strategically essential that the 
United States have its own access to space, dependent upon no 
other nation.
    Mr. Rohrabacher. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. And without objection, the 
letter to the Chair and the Committee, signed by Secretary Rice 
and you, Mr. Administrator, will be put in the record at this 
juncture.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Boehlert. In effect, it says that within the 
Administration, a proposed amendment is still being vetted, and 
we can anticipate something in the short-term. So thank you.
    Dr. Griffin. I think the details of the wording, that is 
correct, but with the broad principle that we need an 
amendment. I believe that is accepted.
    Mr. Rohrabacher. Thank you.
    Dr. Griffin. Thank you, sir.
    Chairman Boehlert. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    And welcome, Mr. Griffin. It is good seeing you again.
    Dr. Griffin. It is good to see you, sir.

                            Center Workforce

    Mr. Honda. A lot of the questions I wanted to ask were 
asked already. And I think your responses were clear and very 
forthright, and I appreciate that.
    And I look forward to September where we get more 
information from you in terms of what the timeline on the 
calendar is going to look like for our programs.
    The previous Administrator had set up the budget in such a 
way that it appeared that our different centers would be 
operating as if they were R&D outsourced agencies. And I heard 
you say that--and I read that you had said that you are 
changing the direction and trying to retain the core competence 
of those engineers and scientists that we have at these centers 
so that they can do what we do best and what NASA's mission has 
been set out in--originally.
    Understanding that and seeing that and looking at the 
proposed budget for NASA for 2006, what is it in the budget 
that you see right now that needs to be revisited or looked at 
in terms of policy refinement in our budget for authorization 
so that you can move forward with the mission that you laid out 
and that you see that needs to be done in the near future? Not 
only the mission, but also in terms of how we are going to be 
able to maintain the staffing that we currently have without 
compromising our core competencies and the direction that you 
would like to take NASA.
    Dr. Griffin. Yes, sir. I feel like I am becoming repetitive 
with this answer, but we have yet another team of senior folks 
within NASA----
    Mr. Honda. I remember that. Yeah.
    Dr. Griffin.--who are looking at exactly the question you 
raised of how do we need to restructure our fiscal year 2006 
plans in order to preserve core competencies within the NASA 
centers. Those results, also, will be available within the next 
few weeks. In fact, we must have them within that time in order 
to present--prevent other undesirable actions.
    Philosophically, there are--there is probably no one you 
will have before you who is a stronger supporter of the broad 
principles of competition and industrial capability than I. I 
have run businesses, which had to make money. I have been an 
entrepreneur.
    But all of that said, federal research centers and 
laboratories are not operating businesses. They don't exist for 
that purpose. They exist to make investments on behalf of the 
American people that it has been determined by the Congress are 
necessary to be made. And they don't operate, and should not 
operate, on the principles of short-term gain or next quarter 
profitability. So we will not be running our NASA federal 
centers as if they were our outsourced laboratories for R&D. We 
will be making strategic assignments of missions--mission areas 
and work to those centers in order to preserve the core 
competencies that we feel we have to have going forward to 
execute NASA's science missions, the vision for exploration, 
and aeronautics.
    They won't be, necessarily, the exact same missions that we 
had been performing in the past or even are performing today. 
During my round of center visits, including to Ames and other 
aeronautic centers, I have pointed out that in fairness, the 
research centers, as opposed to the mission and flight 
operation centers, the research centers should be on the 
cutting edge of change. They should be on the very edge of the 
frontier of what it means to be doing research and development 
for space and aeronautics. Just as today we no longer have 
manufacturers who produce slide rules, today we may well not 
need every wind tunnel that exists within NASA. But the role of 
research within NASA, to keep this Nation on the cutting edge 
of space and aeronautics technology development, cannot be 
denied, and it is uniquely NASA's, and I support it totally.

                                 FFRDC

    Mr. Honda. Thank you, Mr. Chair. If I may, a quick 
question.
    Then have you reached any conclusions about the 
recommendation to convert centers to alternative structures, 
such as the FFRDC?
    Dr. Griffin. I have worked at NASA centers, and I have 
worked at FFRDCs. Both are excellent investments, in my 
opinion, of federal tax dollars. I do not fundamentally see any 
gain to be achieved by having NASA convert federal centers to 
FFRDCs, and the doing of so--such--so doing would, in fact, 
create pension and retirement system liabilities that I don't 
believe this Congress is prepared to take on in the current 
budget environment.
    Mr. Honda. Thank you, Mr. Chairman. And just as a personal 
comment, this program and these projects have been in such 
turmoil in the last few years that a lot of these--being 
repeated, and if we are talking about Don Quixote de La Mancha, 
he had more than one or two windmills he had to hit, and 
sometimes it looked like the same ones. And I think that 
people's lives and people's projects that are affected 
sometimes require repetition for the--to replace the kinds of 
sentiments that had been growing for these past few years, and 
I, for myself, do appreciate your leadership.
    Chairman Boehlert. The gentleman's time has expired.
    Mr. Honda. Thank you.
    Dr. Griffin. Thank you, sir.
    Chairman Boehlert. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman.

                            Safety and Risk

    Let me first say, Mr. Administrator, how pleased I am that 
you are in this position. NASA is at a very crucial juncture, 
and you are the type of person and have the right background to 
solve the multitude of problems that we have been talking about 
this morning, and I appreciate your willingness to take on this 
almost impossible task.
    I would like to join my colleagues who have expressed their 
support for the Hubble servicing mission. I won't go into a lot 
of details on that, but I would simply point out we have done 
it several times before with far less safety concerns than we 
are facing right now, and we completed the missions safely.
    I worry, frankly, and this is not just relating to the 
Hubble repair mission, that we have become so safety conscious 
after the Columbia accident that we may be needlessly 
eliminating our space exploration efforts. We have to 
recognize, as American people, you cannot guarantee absolute 
safety, but I think at this point, you are certainly very close 
to exceeding the safety standards that every American has when 
they enter their automobile and drive through traffic in this 
country. They don't stay at home because there might be an 
accident. And similarly, I don't think you should stay on the 
ground, or your astronauts should stay on the ground, because 
there might be an accident. They recognize full well, and I 
have discussed this with them the risks involved. They 
understood that full well when they became test pilots, the 
many who have served in that capacity. And I suspect we are 
going in a direction where we are trying to make our 
spacecrafts safer than the test aircrafts that they flew in the 
past. So I just--I am just urging some common sense and not an 
atmosphere of fear that I think has pervaded a lot of--that has 
infected a lot of people since the Columbia accident.
    I certainly hope you are able to do the Hubble repair 
mission and, of course, do it as safely as possible, but not be 
Earth-bound by it by fear of what might happen.

                            Voyager and CEV

    The second point I would like to make is Voyager I, which I 
think has reached a very crucial juncture in its voyage. And I 
understand that there is some talk of terminating that 
particular mission. You, of course, can't terminate Voyager I. 
It is still going to be out there transmitting the data, but 
that, for financial reasons, we are not going to continue 
recording the data. I, once again, would plead with you to keep 
that effort going. It seems foolish to wait all of these years 
for it to reach the--and then somebody pull the plug. So I 
hope--and I would be happy to work with you and I am willing to 
try to help you identify other things that could be cut 
instead. But I plead with you to keep Voyager I going. And--I 
shouldn't say that. It is going to keep going, but keep 
collecting data, and even if we may have to slow down the 
analysis for financial reasons, at least collect it and let 
future generations of scientists have that information.
    My final point is I think the highest priority you have, 
other than these two aspects, is development of the Crew 
Exploration Vehicle. And I think when you mentioned earlier the 
need for research, that is clearly an area where we need, I 
think, some very new ideas, some very basic, fundamental 
research, to try to come up with new approaches, particularly 
if we are hoping to travel to Mars some time in the future. We 
have to develop better propulsion systems. And the CEV is a 
golden opportunity to really look at some new ideas that have 
developed since the Shuttle was developed. And so I wish you 
well in that. And I really think you were correct when you say 
it is a very high priority. I think it has to be your highest 
priority, other than the various satellites that are out there 
now.
    I would appreciate any comments or reaction you might have 
to any of these points.
    Dr. Griffin. Sir, with regard to to the preservation of 
operating satellites, we are--we have heard the voice of the 
community and the Congress in this topic. We are doing a fresh, 
top-down review on what satellites will be kept in operation 
and which ones will not. And I assure you that I also think it 
is rather dumb to be turning off Voyagers I and II. 
Nonetheless, you will hear our final answers on that a little 
bit later this year.
    With regard to the priority of the CEV, in my view, it is 
right behind--it is my number two priority, after flying the 
Shuttle safely in the remaining years of its operation. So I 
support your remarks.
    Mr. Ehlers. Thank you.
    Chairman Boehlert. Thank you very much.
    The gentleman's time has expired.
    Mr. Miller.
    Mr. Miller. Thank you.

                         Life Science Research

    Administrator Griffin, I am pleased to see you here. A 
couple of years ago, the investigation into the Shuttle 
disaster concluded that one of the problems was that NASA had 
contracted out too much expertise, that there was not the 
nucleus of expertise in-house at NASA, that they needed to be 
at each other's elbows to do the job that they needed to do. I 
asked Sean O'Keefe if he embraced that finding, since it did 
appear to be contrary to deviate from the Administration's 
orthodoxy about contracting out, and I never got an answer, 
although, when he got through not answering, the light was red. 
So I am very pleased to have heard you embrace that idea that 
we do need to maintain that nucleus of expertise within NASA 
and that you will push for that in future budgets.
    I do have a couple of questions about other programs. You 
did say earlier that you thought that there was not an 
immediate need for life science research into longer-term human 
travel into space, because we aren't going to do it right away. 
But what is going to be the effect of a break in research in 
that? If we don't have continuous research, how easy is it 
going to be to pick back up after having essentially stopped 
the life science and the biomedical research that we had been 
doing and need to do at some point before we do longer-term 
space travel?
    Dr. Griffin. Well, sir, in response to that question, I 
believe the answer is fairly obvious to any of us who have ever 
been grad students in our lives. Most of the kind of research, 
fundamental research that we talk about is done in universities 
or in programs where universities are part. And it will, if we 
are not able to fund all of the work in fundamental life 
science, the researchers who were doing it will go elsewhere to 
other occupations, other research endeavors that are being 
funded, and we will have to put the program back together 
later.
    Mr. Miller. Okay.
    Dr. Griffin. That is just a fact. But I cannot responsibly 
prioritize microbiology and fundamental life science research 
higher than the need for the United States to have strategic--
its own strategic access to space.
    Mr. Miller. Well, I am not happy with that answer, but it 
was an answer.
    Dr. Griffin. Yes, sir. And I am sorry, I am not happy with 
it either, but I don't know what else to do.

                          Space Grant Programs

    Mr. Miller. One additional question about this space grant 
program. It is hard not to look at NASA's request and 
Congress's appropriations and not come to the conclusion that 
Congress values the space grants program more highly than NASA 
does. I think Congress, in fiscal year 2003, appropriated 
$24,100,000 for the space grant program. The request the next 
year from NASA was $19,100,000, and it kind of goes on every 
year. What is your take on the space grant program? Do you 
support that program? Do you think it is important in providing 
the kind of flow of expertise that we need? Is there something 
we ought to be doing instead of the space grant program?
    Dr. Griffin. I would have to take that question for the 
record, sir. I am actually not familiar with the program, and 
in the two and one-half months I have been on board, have not 
had the opportunity to become so. So we will take a look at it, 
and I will get you a responsive answer, but it will have to be 
for the record.
    Mr. Miller. Okay. Thank you.

                       Information for the Record

    The National Space Grant College and Fellowship Program (Space 
Grant) continues to be a critical component in our education portfolio, 
particularly with regard to addressing workforce needs of both NASA and 
the national aerospace industry. Our experience is that the Space Grant 
program also has been very effective in developing a national network 
of affiliated organizations, now comprised of over 550 colleges and 
universities, 80 industry affiliates, 40 government affiliates, and 180 
non-profit and other educational organizations. This network is a 
critical strategic element for preserving and cultivating our future 
workforce expertise in disciplines needed for future space exploration.
    The focus of NASA education is best presented in terms of its three 
major strategic outcomes: (1) Strengthening NASA's and the Nation's 
future science, technology, engineering and mathematics (STEM) 
workforce; (2) Attracting and retaining students in STEM disciplines 
through a progression of educational opportunities for students, 
teachers and faculty; and (3) Engaging Americans in NASA's mission 
through partnerships and alliances.
    The Space Grant Program has and is expected to continue to assist 
NASA in achieving these outcomes in several ways:

        <bullet>  Student Pipeline: Program fellowships and 
        scholarships support an average of 2,200 students each year of 
        which 21 percent are under-represented minorities and 43 
        percent are women; the research component involves over 5,000 
        students each year; and, the higher education component 
        involves over 20,000 students each year.

        <bullet>  Faculty Competitiveness: The research infrastructure 
        building effort contributes to the development of faculty 
        through the travel grants, seed research grants, release time, 
        and research collaborations with NASA Centers and industry.

        <bullet>  Pre-service Education: The pre-college efforts focus 
        on enhancing the knowledge of students and teachers through 
        teacher preparation and development, curriculum development 
        informed by NASA content, and dissemination activities.

        <bullet>  Student Research: The fellowships and scholarships 
        emphasize student internships and research experiences and 
        mentoring components, with consortia reporting an average of 
        1,500 collaborative efforts each year with NASA Centers and 
        with industry.

        <bullet>  Under-represented and Under-served Participation: 20 
        percent of the over 550 academic affiliate organizations are 
        minority-serving institutions. Additionally, over 20 percent of 
        the Space Grant fellowships and scholarships are awarded to 
        under-represented minorities.

        <bullet>  Elementary and Secondary Participation: The pre-
        college component places an emphasis on teacher preparation and 
        development. Each consortium is directed to align pre-college 
        components with the state's STEM standards and existing state 
        systemic reform efforts.

        <bullet>  Informal Education: The public service component 
        emphasizes promoting an understanding of STEM disciplines 
        through the dissemination of NASA content (materials and 
        information), and the stimulation of an interest in STEM 
        disciplines and the NASA mission through public service 
        activities.

    We look forward to sustaining this program with a focus on 
alignment to NASA strategic education outcomes in the areas of 
workforce, pipeline, and public benefit. With our increased emphasis on 
partnerships and alliance, we value the many now long-standing 
affiliations, which have developed through Space Grant over the last 18 
years and look to build on those relationships.

    Chairman Boehlert. Mr. Hall.
    Mr. Hall. I thank you, Mr. Chairman.
    It is not necessary that I be happy. It is probably not 
possible when I hear all of these suggestions that we are going 
to have 28 or 38 missions by 2030, or even talk about our new 
vehicle by 2010. I think about George Burns, at the age of 100, 
saying he didn't buy green bananas. So I don't think it is 
going to happen really quick, but I am glad to see you with 
your hand on the throttle. And we--a lot of us are very happy 
to see him reach down into the maze of men and women that could 
be considered for this to see you come up with it. I am not 
sure you are going to make it, but I am pretty sure that I am 
going to be trying to help you and support you.
    Dr. Griffin. Thank you, sir.
    Mr. Hall. And Congressman Rohrabacher referred to you as 
the man from La Mancha. I guess the areas that you are battling 
are real, however. We know they are, and the results are 
consequential, rather than comical. You have a lot of work to 
do and some very difficult things to change. I just--you have--
you know, for one thing, the trip to Mars, you are faced with 
the Will Rogers look-alikes throughout this country who say 
they are less interested in going to Mars than they are of 
being able to make a trip to the grocery store. And that is a 
pretty--thing that most people can relate to, but the hard and 
cold facts are we need to go to Mars. We have to go to Mars for 
a lot of reasons. And this group--these--we--it is obvious that 
we are aware of those reasons and are pretty supportive of 
them.
    We know that NASA wrestles with all of these thorny issues, 
that we have got to move ahead with authorizing legislation to 
keep you going. And the bill that Chairman Calvert and I 
introduced just yesterday, I think, provides a framework for 
moving forward and ensuring that Congress has the information 
it needs to make a more detailed policy because in years ahead 
you are going to have to make and be having to lead.
    I think that on safety--this hasn't been talked about very 
much here today, but I know it is on everyone's mind. We--as 
you know, we had $15 million set aside. We had requested that 
and had been set aside to study for the future safety of the 
astronauts themselves, and I understand that you all have 
handled that and that you--that either under the previous 
Administration, or your Administration, have been working for 
safety with full plating with the hulls of some of the birds we 
have and space suits and other survival equipment, that that 
has been wrapped into that and going in the future planning 
that I have asked you about so many times. So you know pretty 
well, and because it is still a fragile mission, you know the 
reason I am asking them, and you know the question I am going 
to ask, and you can just answer it without me asking it, but to 
make it a little easier for you, I would like to get it on 
record. This is your first appearance here, official appearance 
here, as the Administrator. You have been here many times 
before, but you know I am concerned, as we all are, about crew 
safety, and I know that you have down-selected the Crew 
Exploration Vehicle to two contractor teams, is that correct?
    Dr. Griffin. That is correct, sir.
    Mr. Hall. And in their proposals, did they address crew 
safety as an issue? And if so, how? And if not, will this be 
included in future iterations of these contracts themselves?
    Dr. Griffin. Oh, crew safety has been addressed, and as we 
go forward to a further down-select early next year to a single 
contractor to build the CEV, we will absolutely make certain 
that crew safety is a top priority.
    Mr. Hall. But you are underway, and you are of record, and 
you are giving leadership in that thrust?
    Dr. Griffin. In every possible way that I can, sir.
    Mr. Hall. Because wouldn't you hate to be Administrator, 
and would we hate to be Members of Congress, if we had another 
tragedy and we weren't already traveling that road to get that 
type of operative procedure for our future astronauts?
    Dr. Griffin. Sir, we are endeavoring with our plans and 
designs for the new Crew Exploration Vehicle to make it as safe 
as we can, as simple as we can, and have it as soon as we can.
    Mr. Hall. Until 2010, and then have the module in that bird 
that would be an escape vehicle.
    Dr. Griffin. Well, we would hope there would be an escape 
system for launch aborts and things like that. Yes, there will 
be.
    Mr. Hall. I thank you. And I thank you for what you have 
done. And I thank you for the way you are doing it. And I 
admire you for the way you are doing it.
    I yield back my time.
    Dr. Griffin. Thank you, sir.
    Chairman Boehlert. The gentleman yields back four seconds.
    Mr. Green.
    Mr. Hall. Well, let me finish then.
    Chairman Boehlert. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman.
    And I also thank you, as well as the Ranking Member, for 
this opportunity to visit with our outstanding head of our 
space program.
    I will tell you, sir, that as you sit there alone, that 
table looks very large. Normally, we have several people there 
at the table, but it appears to me that you are up to the task, 
and I compliment you.
    I would like to segue from Congressman Hall's comments 
about crew safety to another area of crew safety. It is my 
understanding that the Columbia Accident Investigation Board 
gave us 15 recommendations that were to be adhered to, or 
should be adhered to before we return to space flight. I 
understand that 12 of the 15 have been met, but we have three 
that are outstanding. Those three include the debris issue, 
which was a key issue with reference to the demise of Columbia, 
repair tools, and repair techniques. Mr. Bill Parsons has said 
that the space--return to space right now bears an acceptable 
risk. And my question has to do with this term ``acceptable 
risk'', given that we still have the debris issue, we still 
have the repair tools and repair techniques, and we are looking 
at a launch window of possibly early July, July 13 through July 
31. Will you please comment on the term ``acceptable risk''?
    Dr. Griffin. Yes, sir. I believe that Mr. Parsons was 
commenting on the acceptable risk of returning the Shuttle to 
flight in terms of the corrections and improvements that have 
been made after the loss of Columbia to address the causes of 
that loss. Now I have--as I said earlier, I have participated 
in every significant technical review that has been held on 
this topic since I was nominated to this office.
    Let me give you my assessment, if I might.
    We have--and our independent advisors from outside have 
agreed, we have tremendously reduced--we believe that we have 
tremendously reduced the amount of debris, which is shed, or 
will be shed, by the external tank on this next Shuttle 
mission, as compared to all prior Shuttle missions. Now we 
believe that. This is a test flight. These next two flights are 
test flights. It needs to be fully understood that they carry 
the risk of test flights, because we cannot--we simply do not 
have the capability to assess the efficacy of our improvement 
without returning to flight. But we believe it is much 
improved.
    So when we say ``acceptable risk'', we mean that the risk 
of an accident due to debris, which was the approximate cause 
of the Shuttle Columbia loss, has been reduced to a level that 
is consistent with other risks associated with the Shuttle 
space flight system. And there are many.
    Mr. Green. Just as a quick follow-up, will we have repair 
tools and repair techniques available to us prior to the next 
launch?
    Dr. Griffin. No, sir, we will not. We--those three 
recommendations in the Columbia Accident Investigation Board's 
report were, of course, well intended and serve as admirable 
goals. The ideal state would be to have no debris coming from 
the tank. We have not been able to achieve that. The ideal 
state would be to have repair tools and repair techniques, 
which could deal with a flaw in the tile, the Shuttle's entry 
heat system, heat protection system once we are on orbit. We 
don't know how to do that. We have spent quite a lot of money 
on it. Some have estimated hundreds of millions of dollars 
trying to comply with that recommendation. We don't know how to 
do it. So at this point, we must say that we have reduced the 
level of risk due to debris damage to an acceptable level, in 
Mr. Parsons' words the other day, or we must say that we don't 
want to fly the Shuttle again because we do not have a better 
technical approach to dealing with it than the one we have put 
forward.
    Mr. Green. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Boehlert. Thank you. You are generous: two 
seconds.
    Mr. Administrator, when you say ``debris,'' are we talking 
foam now or foam and ice?
    Dr. Griffin. Broadly speaking, foam and ice. If you wish to 
make it more specific, then I--everything that I have learned 
in the past two and one-half months causes me to believe that 
we have reduced the risk of damage from foam debris to a 
negligible level. Okay. That will not be a factor. And again, 
we cannot back that assertion up without a test flight, but we 
are going into the flight of STS-114 with the belief that foam 
debris risk is not a significant factor.
    Chairman Boehlert. What about the risk of ice?
    Dr. Griffin. We have greatly reduced the risk of damage by 
falling ice, in particular by putting a feedline--a heater on 
the locks, forward locks feedline bellows. There are other 
spots on the external tank and its propulsion system where ice 
can accumulate and from which it can be liberated and strike 
the orbiter. We believe that risk is minimal. Well, we believe 
it is well less than one in 100 based on our analyses, but it 
is not zero. And----
    Chairman Boehlert. But it would lead you to conclude the 
acceptable risk?
    Dr. Griffin. The--we have concluded that it is an 
acceptable risk in comparison to other risks, which we assume 
when we fly the Shuttle.
    Chairman Boehlert. Thank you very much, Mr. Administrator.
    Mr. Sodrel.
    Mr. Sodrel. Thank you, Mr. Chairman. And thank you, 
Administrator Griffin, for being here this morning.
    I know there are various kinds of risks to astronauts. One 
certainly is trauma, which the question has been asked here. 
The other is longer-term. I have got an e-mail here I would 
like to read to you from a constituent in my District and ask 
your comment.
    It says in order to ensure the safe return of astronauts 
from exploration missions, we must have effective 
countermeasures and an autonomous support system. This requires 
an aggressive basic and applied research program in flight 
aboard the International Space Station and on the ground. It is 
particularly compelling because the countermeasures that are 
available today will not adequately protect our astronauts. In 
fact, I understand the longest--that the astronauts that spent 
the longest time in orbit experienced both muscle deterioration 
and loss of bone density. But anyway, it says, in short, that 
we must maintain orbital science and grant research and apply 
them directly to exploration missions. I wonder if it had had 
any significant impacts on space life scientists has been the 
denying of funding of proposed research that received high 
acclaim and peer review. We scientists believe the values and 
principles encompassed within peer review. The process needs to 
be upheld by all research agencies, including NASA.
    So I guess first, my first question is how much weight is 
given to peer review? And the second part is what are we doing 
with regard to protecting the astronauts long-term?
    Dr. Griffin. Well, with regard to the role of peer review 
in selecting science experiments, it remains unchanged within 
NASA and absolutely follows the guidelines that your 
constituent is suggesting. However, the purpose of peer review 
is to determine which experiments, in comparison to other 
suggestions, are worth doing and ultimately to help us with 
prioritizing our overall research agenda. But there will always 
be more good ideas that could be suggested for funding and 
would pass the peer review process than we have the budget to 
support. And so at some point, there must be a cut-line 
established below which we simply can't afford to fund those 
priorities.
    Now that does not make them without a value, but it does 
mean that we don't have the money to support them. We must 
choose. We must choose whether minimizing a strategically 
significant gap in space access to the United States is more 
important or less important than doing the kind of research of 
which, you know, your constituent speaks.
    I have been very clear in my choice that the most important 
priority facing us, as we conduct our program of human space 
flight, is to fly the Shuttle safely. The next most important 
thing is to bring online its replacement. It, in my view, 
serves no purpose to conduct even very high quality research 
into human space life sciences unless we are flying humans. And 
if we have a long and strategically significant gap in such 
human space flights, I think we have got the priority order in 
the wrong way. But with all due respect to your constituent, I 
do understand the priority choices, which must be made, and I 
have made mine.
    Mr. Sodrel. So you feel like we are doing enough to protect 
the astronauts in the long-term, as well as the short-term?
    Dr. Griffin. I believe we must eventually do more to 
protect astronauts in the long-term, but at present, we are not 
conducting long-term flights.
    Mr. Sodrel. Thank you.
    I yield back the balance of my time.
    Chairman Boehlert. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.

          Lessons Learned From the International Space Station

    I apologize for being late. I had an engagement I couldn't 
change, and I might have missed a great deal of your testimony, 
but welcome, and I read about your beginning. And I would like 
to--well, over the years, I have touted the space program as 
being one of the most successful research programs in our 
history with both treatment and commercial items.
    What did we learn from the International Space Station?
    Dr. Griffin. Well, ma'am, that is a very broad question. We 
have learned much from the International Space Station so far 
and have a significant amount to go. Some specific things that 
we have learned, I have often said that one of the best 
benefits of the program has been the enduring quality of the 
international partnership which has developed. We have learned 
to work with other nations in space and to find ways to resolve 
differences and make the program work. We have learned a 
tremendous amount about assembling and integrating large 
structures in space and sustaining them for years at a time, 
frankly, through some pretty severe difficulties following the 
loss of Columbia. It is the goal of this Administration, it is 
my goal, to put us on the path to a lunar return and the 
establishment of a lunar outpost and missions to Mars. We will 
not be able to execute those missions without learning how to 
sustain operations in space for months and years at a time, and 
a place where we can learn to do that is the Space Station.

                               Workforce

    Ms. Johnson. Thank you. A year ago, as we were listening to 
testimony, one of the urgent things was making sure that we had 
the talent in-house, the numbers available to do the work. 
Have--and I noticed you have gotten rid of a lot of people. 
Have you brought new ones on?
    Dr. Griffin. Ma'am, we haven't gotten rid of a lot of 
people. I am not sure we have gotten rid of anyone. I have 
reassigned some senior managers from existing roles in the 
Agency, or will be reassigning them, to other roles within the 
Agency, if they choose to accept those roles. I am in the 
process of assembling a management team that I feel I can most 
efficaciously work with as we go forward, as I think you would 
expect of any senior manager. We are looking very closely 
across the Agency at how we preserve the core competencies that 
we need within the government.
    Ms. Johnson. You have ended your associations primarily 
with private industry as well as universities, and most 
especially with universities. I thought we were attempting to 
attract and prepare staff for the future. What was the 
rationale for that? I know you said you want to do it in-house, 
but I am just trying to----
    Dr. Griffin. Ma'am, we have not ended our associations with 
universities and private industry by any stretch of the 
imagination. Eighty percent, or more, of NASA's budget is 
outsourced and will continue to be so.
    Ms. Johnson. Okay. I am reading the wrong material.
    When you go to--what--I understand that the--in getting to 
Mars, it is going to be a journey, so it is going to probably 
take a while. What do we need to do before you start to go to--
other than raise a lot of money, what--you are going to use 
what you have learned from the International Space Station. 
What else do we need to do, and what are we looking for?
    Dr. Griffin. We need to develop a replacement for the 
Shuttle, which is capable of flying to the Moon and later on to 
Mars. We need to develop--to redevelop a heavy-lift launch 
vehicle, something in the 100 metric ton class. We need to gain 
broad operational experience going to and living on the Moon 
for significant periods of time before it would be wise, in my 
opinion, to take the step to Mars. We need to develop space 
nuclear power and propulsion systems in order that we can go to 
Mars and remain there in effective ways.
    Ms. Johnson. Do you feel----
    Dr. Griffin. Those are the broad categories of things that 
I think are important.
    Ms. Johnson. Okay. Do you feel that you have now--or you 
have your eye on the appropriate skills to bring in-house for 
that?
    Dr. Griffin. Yes, ma'am, I do. I think NASA has most of the 
critical skills it needs to acquire and maintain in order to 
execute this mission, and where we don't have them, we know 
what to do to get them.
    Chairman Boehlert. The gentlelady's time has expired.
    Ms. Johnson. Thank you very much. I appreciate it, Mr. 
Chairman. Good luck, and I will try to be of support.
    Dr. Griffin. Thank you.
    Chairman Boehlert. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.

             Manned Space Flight vs. Unmanned Space Flight

    Dr. Griffin, it is an honor to have you here today. You 
certainly have a challenge in front of you that I agree with 
the Committee. You are doing a great job getting started, and I 
wish you well.
    I have about 15,000 NASA employees and contractors on the 
Houston end of my District. I have been through the Johnson 
Space Center. It is very impressive. Most of the questions have 
already been asked, but I do want to ask a more fundamental 
question, and that is I support the President and his vision, 
space exploration to the Moon and Mars and beyond. But there 
are those critics who say that we shouldn't take the risk and 
that we should do that with unmanned vehicles. And I was hoping 
that you could possibly articulate or advocate why it is 
important for us to engage and have manned space flights to the 
Moon and Mars and beyond as opposed to unmanned space flights.
    Dr. Griffin. Well, sir, I think both are important, and I 
have spent significant portions of my career in both pursuits. 
But let me answer your question as to why I believe it is 
important.
    I believe that if the United States is to be the world's 
preeminent nation going forward in the 21st century and the 
centuries beyond, that it must be preeminent in space, exactly 
as was the case centuries ago when small island nations or 
other small nations, such as Britain, Portugal, had dominant 
roles in the global structure of their day because of their 
maritime preeminence.
    Space is--mastery of the art of space flight, both human 
and robotic, is the most important thing that America can do to 
assure that we will always be a great nation, in my opinion. 
When one looks at that, there are broad regimes of activity. 
There are activities that we undertake today in low-Earth 
orbit, both human and robotic, and they are very significant.
    Beyond low-Earth orbit, the next places that we can go are 
the Moon, Mars, and the near-Earth asteroids. If we don't go 
there, eventually other nations will, and eventually may not be 
too long. I have pointed out in other testimony that since we 
last flew our own people in space on our own machines, two 
other nations have done so. I do not find that acceptable. 
Space will be explored and exploited by humans. The question is 
which humans from where and what language will they speak. It 
is my goal that Americans will be always among them.
    Mr. McCaul. I thank you for your eloquent testimony.
    I yield back the balance of my time.
    Chairman Boehlert. Ms. Jackson Lee.
    Ms. Jackson Lee. Welcome, Dr. Griffin. It is a pleasure to 
engage you, and I thank the Chairman and the Ranking Member for 
this very crucial hearing. I hope we will have an opportunity, 
as I might imagine you would like, for members to engage on a 
regular basis. I, frankly, believe that we have to be a team if 
we are going to be successful.
    I consider the astronauts brave and patriotic Americans 
willing to risk their lives on behalf of American excellence 
and at the directions of the Commander in Chief. I don't 
believe one astronaut would tell you that they are not willing 
to accept this mission or any other mission. And that is why I 
believe it is crucial for the executive, in this instance, you, 
but even more crucial for this body, which is considered part 
of the people's house, closest to the people of the United 
States, to be diligent, technically and philosophically, on 
this question of space exploration. Now I happen to be a very 
strong supporter of human space exploration, including the 
mission to the Moon. But at the same time, my neighbors are 
astronauts. My neighbors are the Johnson Space Center. My 
neighbor was Ron McNair, who attended church in my 
Congressional District, and his wife, a friend, and still a 
very zealous and wonderful supporter of NASA's mission.
    So I pointedly ask a number of questions that you have 
already asked and answered, and I have reviewed your testimony, 
and I, too, apologize for being at another meeting. But I do 
want to probe more extensively your very forthright recognition 
that we don't have the tools or the techniques that we would 
totally like to have as it relates to space debris, and I think 
space debris is anything. It is the foam, or as I understand, 
any amount of debris that you encounter in going into space. 
Can you calculate--this question has--might be considered asked 
and answered, but I think we need to hear it more times than 
not, where you place this risk, this acceptable risk, as 
compared to the advantages or the importance of space 
exploration. Might you also give us the vision of the NASA 
Administration and the President of the extent of human 
involvement in the space exportation in the mission to the Moon 
and the presence of humans on the Moon, the advantage of their 
presence on the Moon? I am trying to give you a series of 
questions so that you can answer them.
    The other point that I want to acknowledge, and I think I 
understand this, I want to applaud the bringing in-house of 
technical and planning and strategic decisions for NASA, 
meaning that you are looking for the world's best scientists, 
the Nation's best scientists in dealing with decisions in-
house, and I think that is absolutely imperative. One of the 
questions--one of what I glean from the Gehman Administration 
is the line of command. Who was telling whom to do what? Can 
you tell me, is that where you are trying to go to make sure 
that strategic decisions, whether it is on safety or otherwise, 
are within the bounds of NASA? And if you are going that 
direction, I am with you.
    Let me conclude in this direction.
    I hope that you will join us and encourage this committee 
to hold a full, extensive hearing on the question of safety. 
And I am going to ask you. I would like you to just answer that 
yes or no in your answers, of the importance of this committee 
having oversight, being an investigatory mold to be helpful on 
the question of safety, safety on human space shuttle, but 
safety as well in the International Space Station, which I 
think is extremely important as a scientific tool for what it 
has done for America.
    And lastly, this question of training in-house. I hope that 
we can work together on our Hispanic-serving and historically 
black colleges. I would like to work with NASA on direct 
programs generating physicists, chemists, biologists, and 
others that can be directed toward your institution who happen 
to be from the minority community.
    And I thank you for your presence, and I hope you can 
summarize my questions.
    Dr. Griffin. I will try. Thank you.

                             Debris Hazards

    With regard to debris hazards and being all encompassing 
with--in our definition of debris whether it is on ascent or 
while we are on orbit, yes, you are right. Orbital debris 
might--what we call MMOD for micrometeroid and orbital debris 
hazard, is one of the more significant hazards to space flight 
in the Shuttle. And when I spoke earlier of reducing our ascent 
debris hazard down to a level consistent with other risks, this 
was one of the other risks. Going forward, in order to make 
space flight as safe as possible, the best thing we can do is 
to continue with the protocols we are already implementing 
regarding minimizing--absolutely minimizing the generation of 
new orbital debris. And then the other factor is in the 
replacement vehicle for the Shuttle, the CEV, we must have a 
design which is, as much as possible, robust in the face of 
orbital debris, and that is a significant concern that I have.

                    The Value of Humans on the Moon

    Now humans on the Moon I think is quite significant. I have 
never heard it put better than Norm Augustine in his report in 
1990 where he pointed out that an instrumented payload on the 
top of Mount Everest simply did not have the same value as 
Tenzing and Hillary ascending that mountain. Others have tried 
to come up with similar approaches, but I think Mr. Augustine 
put it best. The value of humans on the Moon is the value that 
we bring anywhere we go. The ability to make broad judgments, 
to make big picture assessments, to decide what details are 
important and what ones are not important so that we can deploy 
our robotic assistance on the proper tasks.

                       Strategic Decision-making

    With regard to our strategic decision-making in NASA, yes, 
we are refining our--in fact, our--what we call our strategic 
management handbook, as I speak, trying to simplify our chain 
of command and make our decision processes more transparent and 
more specific.
    If you decide to hold a hearing on safety of space flight, 
whether Shuttle or International Space Station, you may count 
on me to be a strong supporter of that hearing, and I look 
forward to working with you on it.

                            The Role of HBCs

    Regarding the development of in-house capability for our 
scientific and engineering staff, I welcome, with open arms, 
efforts to engage Hispanic or historically black colleges and 
universities, as I do all of our colleges and universities. We 
are, as a nation, facing a crisis, clear and documented in our 
ability to entice young people to embark on careers--on 
technical careers: science, mathematics, engineering, all 
branches of those. Our--in many cases, in our graduate 
institutions, foreign enrollment surpasses domestic enrollment, 
and the problem is that they go back home. They don't stay 
here. We need to address this. I have--I could not more 
strongly support that.
    Chairman Boehlert. Thank you very much.
    Mr. Feeney.
    Mr. Feeney. Thank you very much, Mr. Chairman.

                      Launch Vehicle Determination

    And Dr. Griffin, I want to join the chorus of the members 
of the Committee to welcome and congratulate you to the 
Administration head at NASA. I have been very impressed by your 
background, been very impressed by the fact that you hit the 
ground running. Even though you came from the outside, you had 
in your mind a very visionary way of taking a complete 
inventory of NASA's resources and capabilities and 
opportunities and challenges long before you were appointed by 
President Bush. And I have been, frankly, amazed at how 
quickly, dispensing with any need for on-the-job training, you 
have stepped forward. You have reorganized both personnel and 
mission. You have made some very critical, decisive judgments 
that are going to be criticized by a lot of us. But you have 
done so with a sort of confidence and the level of expertise 
and background that gives me confidence that we are exactly 
doing what we need to be doing. And there are going to be 535 
visions for NASA in Congress. And the fact of the matter is, we 
are going to have to rely on you to bring those together on 
behalf of the people of the United States. And I have complete 
confidence in your ability to do that job.
    I was especially delighted to hear you say that priorities 
one and two for your term involve human space flight, because, 
while there are lots of priorities in science, microbiology for 
example, as mentioned earlier, all of these are important, but 
prioritizing is the job that you have to do and the budgetary 
folks have to do. And the truth of the matter is, there are a 
lot of places that can do research. There are a lot of 
universities. There are a lot of foundations. There are a lot 
of private sector folks, but there is only one place that can 
move Americans into low, middle, and high-Earth orbit and to 
explore the solar system, and for now, that is the Federal 
Government.
    I join Dana Rohrabacher and others in hoping that, with 
respect to low-Earth orbit, NASA gets out of the business 
pretty quickly. We have commercial-viable options that can do 
that. But for now, return to the International Space Station by 
the Shuttle and then, number two, the CEV are clearly, in my 
view, the most important priorities, and you have got them 
right. And I congratulate you.
    With respect to the new CEV, and by the way I want to thank 
you for trying to find a way to shorten the window. The 
original proposal talked about a window from 2010 to 2014 where 
we would have no capability as a Nation to send humans into 
space. And you determined what that CEV ought to look like, and 
you have to select the type of vehicles for launch. The CEV is 
an important thing to design, as Ralph Hall talks about, in a 
safe way, the heavy-lift obligation for, not just people, but 
equipment, the supplies needed to go to the Moon and 
potentially to Mars someday, the ability to go back and forth 
to the Shuttle. For reasons of safety, reliability, scheduled 
costs, the development of the Shuttle-derived vehicles, I 
think, had some real opportunities, and you have expressed a 
clear preference for those Shuttle-derived launch vehicles.
    On the other hand, back in December, you had the 
President's space transportation policy, which had a 
presumption, as I understand it, in favor of the use of the 
evolved expendable launch vehicles. I wonder if you could tell 
us how those presumptions, yours versus the transportation 
policy organization, how you expect them to be resolved, who 
you expect to be involved in the decision-making, what sort of 
considerations ought to be a factor into that, and also, what 
sort of capabilities we want the CEV to have that may combine 
the usage, ultimately, of both the EELV and the Shuttle-derived 
opportunities.
    Dr. Griffin. Thank you, sir.
    Let me answer the last question first, I think.
    We have, within NASA, looked extensively at all of the 
means that we might bring to bare for the two major--or I would 
say the three major categories of things that we launch. And 
those three categories are science missions, which go on 
expendable launch vehicles, and then we will be requiring a 
Shuttle replacement, the CEV and its associated launch system. 
And then finally to go to the Moon, as I have indicated before, 
we need capability in the 100 metric ton class.
    I am, of course, aware of the space transportation policy 
that you mentioned. The--I don't believe that that 
transportation policy creates a presumption of the use of one 
system or another. What it requires NASA and the DOD to do is 
to coordinate on their requirements in an effort to achieve the 
most efficacious----
    Mr. Feeney. If I may interrupt.
    Dr. Griffin. Yes, sir.
    Mr. Feeney. DOD has a presumption here at a minimum, don't 
they?
    Dr. Griffin. I have not yet had an opportunity--I have 
spoken with General Lord, head of U.S. Space Command, and 
General Lord was quite clear that he understands and agrees 
with my stated preference of--for NASA to pursue a Shuttle-
derived solution. He would like us to launch our expendable 
vehicle traffic on DOD systems as much as possible, and with 
that, we concur. NASA has no desire to spend extra money 
developing systems that already exist. But where systems don't 
exist, then we need to look at the lowest cost and highest 
reliability, safest path forward, and that is what we are 
doing.
    Chairman Boehlert. The Chair would like to recognize the 
ever patient Dr. Schwarz.
    Here is the situation on the Floor. We have a series of 
votes, and they are eight minutes and 46 seconds to go. Dr. 
Schwarz, you will get your two cents in, and----
    Mr. Schwarz. How about 46 seconds worth?
    Chairman Boehlert. All right. Go to it.

                       U.S. Preeminence in Space

    Mr. Schwarz. Okay. This is a--just lob a softball up there, 
but I think people would like to know, as we talk about other 
nations and consortia who have programs, perhaps not as 
ambitious as ours to go to a Jovian moon, but other programs, 
what are the other countries and other consortia who you would 
consider our competition in these enterprises, because I think 
that is not commonly known, and people should know who the 
competition is out there and why we, perhaps, if not have 
fallen behind, have fallen back from our previous lead?
    Dr. Griffin. Yes, sir. We--the United States has partners 
in its space endeavors, and it has competitors. And in many 
cases, just as in industry, the partners and competitors are 
the same people. We ally or we compete on different ventures, 
according to what we perceive our needs to be. Our chief 
competitors for preeminence in space are Russia, the European 
Space Agency, the Chinese, who are coming along quite nicely, 
and the Indian Space Agency is making strong initiatives. We 
partner with any and all of those nations in various venues, 
and I expect that to continue in the future. But we also 
compete with them. And it is, again, my goal to see to it that 
America is always in the lead in that competition. That matters 
greatly to me.
    Dr. Schwarz. Thank you, Dr. Griffin.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Thank you. And Mr. Administrator, we 
want to help you achieve that goal. Let me say, in your maiden 
appearance before this committee as Administrator, you have 
appeared many, many times before and have been an invaluable 
resource to us, quite successful. I appreciate the candor of 
your responses to the many questions. I appreciate your trying 
to give us some guidance as to when we might expect further 
answers to specific questions. I think it has been a very 
productive hearing. I hope you share that view. We are partners 
in this endeavor. We want to make it work.
    Dr. Griffin. I do share that view, sir. If I could just 
have one more moment.
    We need your help. We do need to work together. We need the 
help of this committee and this Congress in carrying out our 
mission. We need your help with an authorization request and 
with relief on the Iran Nuclear Nonproliferation Act, pardon 
me. We cannot be successful without you, and we know that.
    So thank you for having me here today.
    Chairman Boehlert. Of the cynic society, I just want to 
tell you, we are from the Congress. We are here to help.
    This meeting is adjourned.
    [Whereupon, at 12:05 p.m., the Committee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration

Questions submitted by Representative Bart Gordon

Q1.  Do you intend to pursue competitive procurements for all of the 
required elements of the exploration program, or are you planning to 
use sole-source agreements or other non-competitive means for some of 
the elements? If the latter, which elements will not be competitively 
procured?

A1. We anticipate full and open competition on all the elements of the 
exploration program except where competition may not be safe or 
feasible. In those cases, we will utilize sole-source agreements as 
necessary. Final decisions will be part of formal Acquisition Strategy 
Meetings.
    Currently, the only sole-source procurement we are planning 
involves those parts of the Crew Launch Vehicle (CLV) that are derived 
from existing Shuttle hardware. Also, we plan to use in-house 
capabilities extensively to develop technologies for the Crew 
Exploration Vehicle (CEV) and lunar sortie missions.
    Competitions are currently planned for the CEV, the CLV Upper 
Stage, and crew and cargo services to and from the International Space 
Station. The CEV currently has two contractors in phase 1 of a two-
phase program with a competitive down select scheduled for spring 2006.
    It should be noted that the Acquisition Strategy for the 
Constellation Program is still a work-in-progress and details could 
change, but this reflects our current baseline.

Q2.  What exploration capabilities do you intend to develop in-house at 
NASA, and which ones do you plan to have industry develop? How did you 
go about making those decisions?

A2. NASA considers many factors when determining which tasks will be 
retained in the Agency and which will be performed by contractors. 
These factors include criticality to fulfilling the Vision, available 
Agency workforce, existing talent pools, future developments in the 
marketplace, and budget and schedule concerns. The capabilities that we 
will keep ``in-house'' are those that are considered core NASA 
capabilities, such as Systems Engineering and Integration and many 
technology capabilities as well. For example, the Liquid Oxygen, Liquid 
Methane engine will be developed primarily at NASA Centers, with NASA's 
Glenn research center leading the activity. This will be done to 
invigorate the technology capabilities at our NASA Research Centers and 
to utilize our civil service work force.
    We will go to industry for many other capabilities. Goods and 
services provided by industry will be competitively procured. For 
example, NASA will work in partnership with a contractor team to 
develop new space suit capabilities for the CEV and lunar exploration 
vehicles.

Q3.  Under what circumstances, if any, do you envision using U.S. funds 
to pay non-U.S. companies or organizations for exploration-related 
technologies, products, or services instead of by means of no-exchange-
of-funds cooperative agreements with non-U.S. space agencies?

A3. NASA will pursue opportunities to cooperate with its international 
partners, as the President directed us to do in the Vision for Space 
Exploration. We plan to purchase transportation services from our 
partners in support of the International Space Station if commercial 
capabilities are not available when needed. We are seeking 
international cooperation on the lunar robotic precursor missions and 
potentially with lunar surface systems such as rovers, habitats, and 
power, systems but no firm plans or agreements are yet in place.
    Under the U.S. Federal Acquisition Regulations, it is possible that 
foreign firms with unique capabilities could compete and win some NASA-
sponsored contracts and grants for exploration-related activities. In 
such cases, NASA would first explore whether the proposed activities 
could be accomplished on a cooperative no-exchange of funds basis with 
NASA's foreign government counterpart as an alternative to funding a 
foreign firm.

Q4.  You have talked about accelerating the Crew Exploration Vehicle 
[CEV] and its launch vehicle, as well as starting development of a 
heavy lift booster to launch cargo. How do you plan to reconcile those 
desires with the realities of the exploration program's current five-
year budget plan? Are you prepared to defer work on other parts of the 
exploration initiative to accelerate the CEV and heavy lift booster? If 
so, what activities would you defer? Or would you get the money from 
somewhere else? And if so, where?

A4. The Exploration Systems Architecture Study (ESAS) team has 
identified our architecture for the development of the CEV, the Crew 
Launch Vehicle (CLV), and initial lunar landing sorties. To meet the 
challenge of accelerating the CEV and all of its associated systems, 
and to provide adequate resources for this priority, ESMD's technology 
programs were carefully assessed as part of the Exploration Systems 
Architecture Study (ESAS). ESMD can currently afford this acceleration, 
with no new funding sources from outside the Directorate. This can be 
accomplished by shifting funds from lower-priority or longer-term 
technology needs, including a total of $785 million in FY 2006, 
including $292 million reflected in the FY 2006 budget amendment and 
$493 million identified as a result of actions taken in the FY 2005 
Operating Plan September update. We have been able to shift funding 
from Research and Technology projects that were more focused on future 
capabilities that are not required for near-term objectives. For 
example, closed loop life support systems funded by ESMD have been 
deferred in the near term, because they are not required by the early 
lunar sortie missions. As we begin to focus on long-duration lunar 
outposts, funding for closed-loop life support systems and other 
essential technology will be increased at the appropriate time to 
support those missions.

Q5.  NASA recently decided to phase out the involvement of the 
consultant Behavior Sciences Technology (BST) after just 16 months of 
what was expected to be a three-year campaign. BST was brought in as a 
result of the findings in the Columbia Accident Investigation Board 
(CAIB) report that focused on the role that the NASA culture played in 
creating the environment that contributed to the Shuttle accident.

        <bullet>  Why has the contract been canceled?

        <bullet>  Do you believe that no more work is needed to improve 
        the NASA culture? If so, why?

A5. The BST effort was reviewed by the Office of Program Analysis and 
Evaluation in cooperation with the Office of Institutions and 
Management. Working in collaboration, those offices defined the 
refocused effort that is being implemented after consultation with the 
Office of the Administrator. We feel NASA has benefited from the 
activities involved in this effort. After significant experience with 
the BST contract and dedicated work at several field centers, we 
decided to place internal focus on those parts of the BST culture 
change effort, which offered the most significant benefits while 
curtailing other aspects.
    While we did find many aspects of the BST activities to be 
beneficial, there was never an expectation that culture could be fixed 
like a machine. Attention to safety and strong internal communications 
is an on-going, continuous effort. NASA is dedicated to pursue this 
effort in the most efficient and effective manner possible. Similarly, 
there are many different ways we can improve our ability to consider 
alternative views and make effective, informed decisions. With our 
Strategic Management Handbook, we are setting up a streamlined set of 
Councils that will facilitate informed decisions by senior leaders. The 
leaders and members of the councils will be responsible and accountable 
for those decisions. With the new Office of Program Analysis and 
Evaluation, NASA is ensuring that there are internal checks and 
balances built into the decision-making process.

Q6.  You have stated your firm intention to terminate the Space Shuttle 
program in 2010.

Q6a.  How do you respond to the concern that setting such a strict 
deadline creates the same kind of schedule pressure that the Columbia 
Accident Investigation Board (CAIB) identified as a contributing factor 
to the Shuttle accident?

A6a. NASA will not be driven by schedule pressure to fly the Shuttle 
when it is not ready to fly, even if that means fewer flights prior to 
retirement.

Q6b.  Two alternatives to a hard deadline are (1) to firmly define how 
many Shuttle launches are needed and then operate the Shuttle until 
those launches are completed--however long that might be; or (2) to 
operate the Shuttle until a replacement means of crew transport has 
been developed. What do you see as the pros and cons of each of these 
approaches?

A6b. NASA conducted a study to re-evaluate the Space Shuttle mission 
plans for completion of the International Space Station in light of the 
February 2004 Vision for Space Exploration, in particular, the number 
of Shuttle flights required by FY 2010. The Station-Shuttle analysis 
has become the basis for the number of remaining flights to be planned 
for the Shuttle program. Shuttle costs exceed $4 billion per year to 
operate, and retiring the Shuttle is a key source of funds for 
developing exploration systems. Extending Shuttle operations for a 
finite or indefinite period would correspondingly defer exploration 
goals, given current resource constraints.
    The Vision for Space Exploration calls for the Space Shuttle to be 
retired by 2010 with its primary focus being to complete assembly of 
the International Space Station. NASA has developed a proposed plan to 
execute this mission and meet our international partner obligations 
using eighteen Space Shuttle flights over the next five years.
    NASA is also pursuing alternative means of crew and cargo access to 
the International Space Station in the post-Shuttle era, including 
soliciting crew and cargo services from potential commercial providers. 
In addition, our international partners have, or are developing, a 
number of vehicles to provide crew and cargo access to the 
International Space Station, including the Russian Soyuz (crew) and 
Progress (cargo), the European Space Agency's Automated Transfer 
Vehicle (cargo), and the Japanese H-2 Transfer Vehicle (cargo). The 
Crew Exploration vehicle will also be capable of servicing the 
International Space Station.

Q7.  How many flights of the Space Shuttle were budgeted for in the 
five-year budgetary plan (FY 2006-2010) for the Space Shuttle that was 
submitted as part of the FY 2006 NASA budget request? How was the Space 
Shuttle five-year budget estimate arrived at?

A7. There was a great deal of uncertainty associated with the outyears 
of the FY 2006 budget request for Shuttle. NASA was still working 
toward Return-to-Flight, and had not yet addressed all issues raised by 
the Columbia Accident Investigation Board (CAIB). In addition, NASA had 
not yet determined how many times the Shuttle was going to fly before 
its retirement in 2010. The President's FY 2006 Budget request stated, 
``NASA is examining configurations for the Space Station that meet the 
needs of both the new space exploration vision and our international 
partners using as few Shuttle flights as possible.'' The five-year 
budget estimate was an estimate, based on the Shuttle budget in the FY 
2005 budget request.

Questions submitted by Representative Mark Udall

Q1.  You have said that you plan to revisit the possibility of a 
Shuttle mission to service Hubble because after the Shuttle completes 
two successful Shuttle return-to-flight missions, the Shuttle will then 
be ``essentially a new vehicle.'' If that is so, it sounds as though no 
extensive ``recertification'' of the Shuttle [as called for by the 
Columbia Accident Investigation Board] would be required if the 
decision was made to fly the Shuttle for a year or so past the proposed 
2010 retirement date. Is that an accurate assessment? If not, what 
would still need to be recertified?

A1. All the Criticality 1 systems and subsystems on the Space Shuttle 
have been assessed against the 2010 retirement date and found to be 
within their hardware certification limits. Certification assessments 
for certain lower criticality hardware will continue through 2006. 
Consistent with the policy direction given in the Vision for Space 
Exploration, the Space Shuttle program has not assessed any 
certification activity that may be required to continue flying past 
2010.

Q2.  NASA plans to place some of its Earth observing sensors on 
spacecraft built by other agencies instead of building its own 
satellites. For example, NASA plans to put Landsat-type sensors on the 
first NOAA-DOD NPOESS satellite instead of launching a dedicated 
Landsat spacecraft.

Q2a.  What is the status of the NPOESS program? How easy is it going to 
be to add Landsat sensors to the first NPOESS?

A2a. NASA is a partner in the NPOESS program. The NPOESS development is 
governed by the NPOESS Executive Committee (ExCom) which has members 
from the Department of Commerce, the Department of Defense and NASA. 
Official NPOESS Program status should be obtained from the host agency 
for NPOESS; the Department of Commerce.
    The complexities of manifesting a Landsat-like sensor on the NPOESS 
have been analyzed in coordination with NASA, the NPOESS IPO and the 
NPOESS prime contractor, Northrop Grumman Space Technology. Analysis 
indicates that accommodating a Landsat-like sensor on the NPOESS 
spacecraft would entail significant technical challenges.

Q2b.  To what extent are you concerned that the government may be 
following a strategy of ``putting all your eggs in one basket'' with 
respect to Earth observations research and operations?

A2b. We have a diversified approach to Earth observations, research, 
and applications. We have other partnerships for measurements not 
destined for NPOESS. We are pursuing a four-partner approach for ocean 
altimetry among NASA, CNES, NOAA, and EUMETSAT with the intent that the 
research agencies (NASA, CNES) will build the ocean surface topography 
mission, NOAA and EUMETSAT (the operational agencies) will operate it, 
and then NOAA and EUMETSAT will continue ocean altimetry measurements 
via inclusion in their future operational satellite systems.
    Reducing risk to long-term data continuity is the principal reason 
for seeking to acquire selected Earth observations through NPOESS. The 
NPOESS Preparatory Project (NPP), built by the Goddard Space Flight 
Center (GSFC) with instruments provided by GSFC and the IPO, will serve 
as both a risk reduction for the NPOESS project and also provide 
climate data. NPOESS is the next generation series of polar weather 
satellites, whose continuous operation is secured via multiple copies 
and flight-ready or on-orbit spares. NASA research satellites, on the 
other hand, because they are research missions, tend to be one-of-a-
kind, with limited or no on-orbit redundancy or stand-by copies on the 
ground. The idea is to migrate measurements that have proven their 
value in NASA research missions to NPOESS operational systems so their 
continuity is assured. The challenge is in this transition phase where 
the operational system taking on the key measurements is itself a new 
system. NPOESS is a `block change' upgrade of the NOAA-operated, NASA-
built POES series that have comprised the civilian polar-orbiting 
weather satellite system for many years. NASA is staying in the Earth 
observation business, continuing its role of creating new Earth 
observation technologies and research.

Q2c.  What if NPOESS runs into cost or technical problems--has NOAA 
committed to you that it will keep the Landsat sensors on NPOESS no 
matter what?

A2c. The NPOESS management structure is governed by the NPOESS 
Executive Committee (ExCom) which has members from the Department of 
Commerce, the Department of Defense and NASA. The manifest of a 
Landsat-like sensor on the NPOESS platform and the resulting NPOESS 
implementation strategies and contingencies will be governed by the 
NPOESS Executive Committee.

Q3.  The American Geophysical Union (AGU) released a statement in May 
that concluded that NASA's Earth and space science programs are ``at 
risk.'' The statement said, ``There are indications that Earth and 
space sciences have become a lower priority at NASA'' and that NASA's 
FY 2006 budget plan reduces science research by $1.2 billion over the 
next five years relative to the previous plan. Is the AGU correct in 
its assessment? What is your response to the statement?

A3. While the FY 2006 President's budget shows a smaller rate of 
increase in the budget for NASA's Science Mission Directorate, these 
programs are still growing significantly. The overall NASA science 
programs budget runout shows a 24 percent increase from FY 2006 through 
FY 2010, at which science will grow from 33 percent to approximately 38 
percent of the NASA budget, enabling the Science Missions Directorate 
to continue to support 55 operational missions, 26 missions in 
development, and 34 in formulation.

Q4.  On page 2 of your testimony, you state that NASA ``has adopted a 
`go-as-you-can-pay' approach toward space exploration.'' The 1990 
Augustine Commission used the same phrase to describe its approach to 
human exploration beyond low Earth orbit, but it meant something very 
different from what NASA's current approach seems to be. The Augustine 
Commission defined science as NASA's highest priority and stated that 
human exploration beyond low Earth orbit [or ``Mission from Planet 
Earth'' as they termed it] should only be funded after the other core 
missions of the Agency such as space and Earth science were adequately 
funded, and that the pace of the human exploration initiative should be 
determined by how much extra funding was made available. Do you agree 
with the Augustine Commission's definition of ``go-as-you-can-pay''? If 
not, how would you define it and why shouldn't NASA follow the approach 
recommended by the Augustine Commission?

A4. While NASA strives to stay within budget and ensure adequate 
support for Earth and space science, as called for by the Augustine 
Commission, NASA's mission has changed since 1990. On January 14, 2004, 
President George W. Bush announced the Vision for Space Exploration. 
This bold initiative places a renewed emphasis on human exploration of 
the solar system while continuing to ensure a balanced portfolio of 
scientific research. Implementation of the Vision for Space Exploration 
will be enabled by scientific discovery and will enable new compelling 
scientific opportunities. In addition, the Vision offers an opportunity 
to stimulate mathematics, science and engineering in America's grade, 
undergraduate and graduate studies programs.

Q5.  NASA officials indicated to us earlier this year that substantial 
job cuts were assumed in the budget projections contained in your FY 
2006 budget. Specifically, we were told that the number of budgeted 
civil service full time equivalents (FTEs) will drop by almost 2,500 
over the next year and a half.

        <bullet>  Do you still anticipate that level of personnel cuts?

        <bullet>  If so, what are the details of those cuts by Center 
        and by discipline?

        <bullet>  If not, what is your current best estimate, and why 
        has it changed?

A5. The NASA workforce has been impacted by significant budget 
reductions in our aeronautics programs, cancellation of programs, and 
investment changes to the research and technology portfolio of the 
Exploration Systems Mission Directorate. We have taken specific actions 
to try to alleviate this problem. For example, starting in November 
2004, NASA implemented employee buyouts to rebalance the workforce and 
in January 2005 established hiring guidelines to emphasize filling 
vacancies from within the Agency. We are also making significant 
changes that will help ensure that NASA's Centers have a productive 
future. Contractors will continue to play a key role, but we need to 
ensure that the Federal Government maintains the in-house intellectual 
core capacity to sustain NASA's exploration, science and aeronautics 
missions. Our goal is to ensure that NASA Centers are productive 
contributors to the Agency's agenda and that we have the people and 
tools necessary to accomplish the long-term goals of space exploration. 
With that in mind, we will be making changes at Headquarters as well.
    In September, NASA initiated an Institutional Requirements Review 
(IRR) the scope of which includes corporate G&A, corporate service 
pools, and all Headquarters-based operations. Our goals are to keep 
corporately funded requirements within overall corporate budget 
guidelines, reduce the total workforce at Headquarters commensurate 
with its appropriate role and overall size of the Agency, and 
consolidate required personnel at the Headquarters building. We aim to 
(1) gain operational efficiencies; (2) align ourselves to a management 
model that has Headquarters in charge of architecture, strategy, 
policy, compliance, and general management with field Centers executing 
programs and projects; and (3) set an example for the rest of the 
Agency of the willingness of Headquarters to make hard decisions that 
benefit NASA in the long run.
    Assuming we can achieve additional buyouts in the next few months 
and redirect some of our in-house capacity to performing core 
activities related to exploration, science, and aeronautics missions, 
NASA has approximately 950 civil servants in the field without program 
coverage in FY 2006.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We will continue to address this problem and structure the 
workforce to ensure the success of the exploration vision, as well as 
NASA's other missions in science, aeronautics, education, space 
operations and exploration. However, changes to our skill mix and, 
therefore, the workforce will be required.
    The NASA Office of Human Capital continues to work with center 
management on the workforce strategies. We will continue to identify 
center work assignments based on our strategic planning for the 
exploration systems. We are in the planning stages of offering a final 
buyout program to employees.
    If we are unable to cover all of the NASA civil service positions, 
NASA is planning to conduct a Reduction in Force (RIF). Our Office of 
Human Capital is working with human resource offices at the centers to 
ensure readiness for a RIF, should it become necessary. However, a RIF 
is a last resort, and we will exhaust all other reasonable 
possibilities before undertaking such an action.
    With changes to NASA's mission, it is important that we manage our 
workforce issues to ensure that we have the right skill mix to 
successfully execute the vision for space exploration and maintain the 
important work in other areas such as our aeronautics, space operations 
and science portfolios. We will have an integrated, Agency-wide 
approach to human capital management.

Questions submitted by Representative Brian Baird

Q1.  Last year, the Exploration Systems Mission Directorate (ESMD) 
issued contracts to firms from the Explorations Systems Research and 
Technology and Human Systems Research and Technology programs. In 
April, NASA announced it was ``indefinitely deferring'' the expected 
Broad Agency Announcement for these two programs. The Agency promised 
``additional insight into our revised plans.''

A1. The Exploration Systems Mission Directorate did issue contracts 
last year for Exploration Systems Research and Technology but none for 
Human Systems Research and Technology. The Broad Agency Announcement 
planned for 2005 was canceled in anticipation of the change in 
direction being outlined by new Administrator Michael Griffin.

Q1a.  In issuing these contracts, NASA was hoping to attract interest 
from non-traditional sources. In many cases, these are smaller firms 
that have a harder time with uncertainty in funding and planning than 
the usual government sources.

      Does NASA intend to honor the contracts that it has already 
signed?

A1a. The Exploration Systems Research and Technology projects have been 
realigned to support the Exploration Systems Architecture Study's 
(ESAS) recommended requirements including accelerated development of 
the new Crew Exploration Vehicle (CEV), the Crew Launch vehicle (CLV) 
and the lunar lander. This realignment has resulted in a focused and 
phased, requirements driven Research and Technology program in which 
some projects are curtailed, some modified or delayed, and some added. 
On going projects are streamlined to deliver technology capabilities 
when needed to meet the accelerated development schedules for the CEV, 
launch systems and lunar lander. In FY 2005, 80 tasks and activities 
are being discontinued since they do not directly support ESAS 
architecture or schedule requirements. NASA, however, is continuing to 
investigate innovative procurements for commercial resupply of crew and 
cargo to the ISS and encouraging other innovative approaches 
(Centennial Challenges) to assist our exploration objectives.

Q1b.  What steps is the Agency taking for the disposition of these 
contracts?

A1b. The first step was to notify Congress via the FY 2005 Operating 
Plan September update, which included the modifications. The next step 
is to provide affected contractors with termination notices following 
consideration by the Committees of the Operating Plan. NASA will also 
provide the contractors with two months of FY 2006 funding for closeout 
costs. Additional closeout costs will be negotiated on a case-by-case 
basis.

Q1c.  What is your timetable for the disposition of those contracts?

A1c. Notification of effected contractors is projected by late-October.

Q1d.  When are we likely to know NASA's intentions to resume 
procurements in these programs?

A1d. ESMD does not anticipate any new Broad Agency Announcements in 
these programs. Our future research will be directed, with the 
intention of focusing our efforts and funding on near term technologies 
designed to accelerate the development of the crew exploration vehicle 
and lunar sortie missions. Much of this directed research will be at 
NASA Centers. Industry and universities will provide capabilities and 
expertise that is not resident at the NASA Centers.

Questions submitted by Representative Sheila Jackson Lee

Q1.  Dr. Griffin, as a long-time supporter of NASA, my greatest 
priority at this point is safety. The Columbia Accident Investigation 
Board led by Admiral Gehman was able to determine the cause of the 
accident and was a solid first step in establishing new safety 
procedures for future space exploration missions. Since last year, I 
have called for such a commission to be formed to investigate safety 
aboard the International Space Station. Will you support the formation 
of such a commission?

A1. I share your passion for conducting NASA's space and aeronautics 
missions safely and let me assure you that we do not take for granted 
the health or safety of our astronauts and pilots who are needed to 
help us explore humankind's remaining frontiers. After the 
investigation of the Columbia accident, our stakeholders challenged us 
to address each recommendation provided by the Columbia Accident 
Report. You may be familiar with the extensive planning undertaken by 
the Shuttle program to address its cited deficiencies since the 
overwhelming share of public scrutiny was focused on the Shuttle's 
return-to-flight. Much less apparent, but nonetheless just as 
important, were the lessons that NASA wove into the fiber of many other 
programs across all our centers. The International Space Station 
drafted its own implementation plan for supporting the continuation of 
flight of the ISS entitled, NASA's Implementation Plan for 
International Space Station Continuing Flight. This document, available 
at http://www.nasa.gov/pdf/
110883main<INF>-</INF>Station<INF>-</INF>CFT<INF>-</INF>Rev2.pdf, 
demonstrates NASA's commitment to the application of lessons learned 
from the Columbia Accident Investigation Board recommendations and 
observations in support of safe continuing flight of the International 
Space Station.
    The Aerospace Safety Advisory Panel (ASAP) is my source of expert 
consultation on safety matters as well as a representative of our 
external stakeholders. In order to assure that ASAP is satisfied with 
the approaches we are taking to ensure safety; we have methodically 
provided its members with copies of the plan at each step of its 
iteration. NASA briefed the ASAP about the plan during its development. 
Consistent with your request for a review of safety aboard the ISS, I 
have asked Vice Admiral Joe Dyer, Chairman of the Aerospace Safety 
Advisory Panel (ASAP), to review the ISS plan again independently, and 
to verify that this important program has properly implemented the CAIB 
findings into its own planning. As you know, the ASAP is an independent 
group of industry and non-NASA government leaders and safety experts 
that advises me Administrator on safety matters with an emphasis on 
human space flight. Congress originally chartered this panel after the 
Apollo fire, and the panel has been effective over the years in helping 
NASA focus on safety related design, operational and cultural issues. I 
have asked Admiral Dyer to complete his review by the end of the 
calendar year, and I look forward to sharing the results of his study 
with you and your staff.

Q2.  I am especially concerned to learn that the Stafford-Covey Return-
to-Flight Task Group, the independent oversight panel chartered by NASA 
to certify that the 15 safety recommendations of the Columbia Accident 
Investigation Board are met, has stated that three of these 
recommendations remain incomplete in advance of a proposed July launch. 
Will you delay the launch to make certain that the problems faced by 
Columbia have been completely resolved?

A2. NASA's Return-to-Flight process has been guided by the fifteen 
Return-to-Flight recommendations of the Columbia Accident Investigation 
Board and the Space Shuttle program's own internally generated ``raise 
the bar'' actions. NASA's implementation of the Board's Return-to-
Flight recommendations has been independently assessed by the Return-
to-Flight Task Group. NASA's overall Return-to-Flight progress has been 
documented in the periodically updated Implementation Plan for Space 
Shuttle Return-to-Flight and Beyond.
    On August 17, 2005, the Return-to-Flight Task Group released its 
Final Report. In it, the Task Group unanimously closed out all but 
three of the Board's Return-to-Flight recommendations. The Task Group 
could not reach consensus on whether NASA's actions fully met the 
intent of three of the Board's most challenging recommendations: 
External Tank Thermal Protection System Modifications (3.2-1), Orbiter 
Hardening and Impact Tolerance (3.3-2) and Thermal Protection System 
On-Orbit Inspection and Repair (6.4-1). The Task group noted NASA had 
made substantial progress relative to these recommendations, and 
emphasized that, ``The ability to fully comply with all of the 
[Board's] recommendations does not imply that the Space Shuttle is 
unsafe.'' The first two Return-to-Flight missions, STS-114 and STS-121, 
will provide the data and flight experience needed to address the 
remaining open issues in these recommendations. This work will be 
documented in future updates to the Implementation Plan.
    NASA made the decision to proceed with the launch of STS-114 on 
July 26, 2005 based on Return-to-Flight Task Group's assessment, the 
totality of improvements made to the Space Shuttle system during 
Return-to-Flight, and the vetting of all these improvements through a 
rigorous and multi-layered engineering review process.
    Post-flight analysis of STS-114 indicated that, except for one 
event, the thermal protection system on the External Tank performed 
within expected parameters. Most of the small foam shedding events that 
were observed with the upgraded imagery and sensor capabilities 
developed during Return-to-Flight posed little or no threat to the 
Orbiter. The one event of concern was the loss of an approximately one-
pound piece of foam from the area of the External Tank's liquid 
hydrogen protuberance air load (PAL) ramp. NASA commissioned two teams 
(one lead by the Space Shuttle propulsion manager, the other an 
independent ``Tiger Team'' reporting directly to the Associate 
Administrator for Space Operations) to analyze these foam loss events 
and recommend any forward work that would have to be done prior to the 
launch of the next mission, STS-121.
    As of September 2005, NASA is reviewing flight opportunities for 
future missions given the effects of Hurricane Katrina (which caused 
extensive damage to the area around the External Tank manufacturing 
facility near New Orleans) on ongoing foam loss troubleshooting and 
normal processing activities. NASA is targeting the May 2006 launch 
window as the next opportunity to launch STS-121.

Q3.  It has come to my attention that the NASA Education Office has 
been merged into the Strategic Communication Office. How will this 
affect NASA's education program? Furthermore, how will this affect 
NASA's assistance and work with minority serving institutions?

A3. As directed by the NASA Administrator, the Office of Education is 
now part of the Strategic Communications component at NASA 
Headquarters. Under the direction of the Chief of Strategic 
Communications, the Office of External Relations, the Office of 
Legislative Affairs, the Office of Public Affairs, and the Office of 
Education are now working more closely than ever regarding our regular 
and ongoing communications with our stakeholder communities. This 
ensures that more timely and consistent information is provided to the 
distinct stakeholder communities serviced by each office. Specifically, 
the Office of Education, its functions, and all programs previously in 
place remain intact. Program operations under the Chief of Strategic 
Communications will have no adverse affect on NASA's assistance to and 
work with the minority serving institutions (MSIs). NASA's education 
programs will continue to provide opportunities for MSI faculty and 
students to participate in the Agency's research and education 
programs.

Q4.  NASA officials indicated to us earlier this year that substantial 
job cuts were assumed in the budget projections contained in your FY 
2006 budget. Specifically, we were told that the number of budgeted 
civil service full time equivalents (FTEs) will drop by almost 2,500 
over the next year and a half.

        <bullet>  Do you still anticipate that level of personnel cuts?

        <bullet>  If so, what are the details of those cuts by Center 
        and by discipline?

        <bullet>  If not, what is your current best estimate, and why 
        has it changed?

A4. The NASA workforce has been impacted by significant budget 
reductions in our aeronautics programs, cancellation of programs, and 
investment changes to the research and technology portfolio of the 
Exploration Systems Mission Directorate. We have taken specific actions 
to try to alleviate this problem. For example, starting in November 
2004, NASA implemented employee buyouts to rebalance the workforce and 
in January 2005 established hiring guidelines to emphasize filling 
vacancies from within the Agency. We are also making significant 
changes that will help ensure that NASA's Centers have a productive 
future. Contractors will continue to play a key role, but we need to 
ensure that the Federal Government maintains the in-house intellectual 
core capacity to sustain NASA's exploration, science and aeronautics 
missions. Our goal is to ensure that NASA Centers are productive 
contributors to the Agency's agenda and that we have the people and 
tools necessary to accomplish the long-term goals of space exploration. 
With that in mind, we will be making changes at Headquarters as well.
    In September, NASA initiated an Institutional Requirements Review 
(IRR) the scope of which includes corporate G&A, corporate service 
pools, and all Headquarters-based operations. Our goals are to keep 
corporately funded requirements within overall corporate budget 
guidelines, reduce the total workforce at Headquarters commensurate 
with its appropriate role and overall size of the Agency, and 
consolidate required personnel at the Headquarters building. We aim to 
(1) gain operational efficiencies; (2) align ourselves to a management 
model that has Headquarters in charge of architecture, strategy, 
policy, compliance, and general management with field Centers executing 
programs and projects; and (3) set an example for the rest of the 
Agency of the willingness of Headquarters to make hard decisions that 
benefit NASA in the long run.
    Assuming we can achieve additional buyouts in the next few months 
and redirect some of our in-house capacity to performing core 
activities related to exploration, science, and aeronautics missions, 
NASA has approximately 950 civil servants in the field without program 
coverage in FY 2006.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We will continue to address this problem and structure the 
workforce to ensure the success of the exploration vision, as well as 
NASA's other missions in science, aeronautics, education, space 
operations and exploration. However, changes to our skill mix and, 
therefore, the workforce will be required.
    The NASA Office of Human Capital continues to work with center 
management on the workforce strategies. We will continue to identify 
center work assignments based on our strategic planning for the 
exploration systems. We are in the planning stages of offering a final 
buyout program to employees.
    If we are unable to cover all of the NASA civil service positions, 
NASA is planning to conduct a Reduction in Force (RIF). Our Office of 
Human Capital is working with human resource offices at the centers to 
ensure readiness for a RIF, should it become necessary. However, a RIF 
is a last resort, and we will exhaust all other reasonable 
possibilities before undertaking such an action.
    With changes to NASA's mission, it is important that we manage our 
workforce issues to ensure that we have the right skill mix to 
successfully execute the vision for space exploration and maintain the 
important work in other areas such as our aeronautics, space operations 
and science portfolios. We will have an integrated, Agency-wide 
approach to human capital management.

Q5.  When do you expect the first humans to set foot on Mars? What is 
that estimate based on, and can that be done within a NASA budget that 
is flat or at best keeping pace with inflation? If so, how?

A5. When the President unveiled the Vision for Space Exploration on 
January 14, 2004, he announced a plan to extend human presence across 
the solar system and beyond. NASA's exploration architecture lays out 
our plans for developing launch, transportation, landing and habitation 
systems that will enable a return to the Moon by 2018, followed by 
sustained human presence on the Moon while preparing for later Mars 
missions. This architecture will be affordable and will institute a 
``go as you can afford to pay'' budget approach. We're not far enough 
along in the planning to say exactly when the first human flight to 
Mars will be, however we will already have much of the architecture, 
including the heavy lift vehicle, a versatile crew capsule and 
propulsion systems, needed to get there. In addition, experience from 
missions to the Moon will lay the groundwork for using Martian 
resources. A lunar outpost, just three days away from Earth, will 
provide us with the needed practice of ``living off the land'' that 
will be required for the longer missions to Mars.

Question submitted by Representative Michael E. Sodrel

Q1.  Administrator Griffin, in your answer to my question as to whether 
or not NASA was doing enough to ensure astronaut health in long-term 
missions, you stated that NASA will need to do more in the future, but 
NASA was not endeavoring to have long-term human flight at this time. 
Shortly after answering my question, you referenced the 
Administration's goal of visiting Mars. If I am not mistaken, flight to 
Mars will take years just to traverse the distance. While I can 
understand why many resources will be committed to developing a vehicle 
capable of distance flight, I would hope engineering plans would also 
seek to alleviate or mitigate physical stress on the human flight crew. 
When placed in zero gravity for extended periods, tremendous physical 
changes take place in the human body such as accelerated skeletal 
aging, muscle atrophy and inexplicable biochemical signaling 
disturbances that lead to anemia and immune dysfunction in crew. 
Vigorous life science research will be necessary to assist engineers in 
solving such problems involved in long-term human flight. Would you 
agree that maintaining a life science program at NASA is essential to 
obtaining stated goals of NASA and the President?

A1. Four types of missions are currently planned for NASA: 1) Long 
duration, up to six months in Low Earth Orbit; 2) short duration, 9-14 
day missions to the Moon starting in 2018; 3) longer duration stays (up 
to six months) on the Lunar surface, and 4) a long duration mission to 
Mars later in the century. Physiological changes develop in astronauts 
in microgravity and become more profound on extended duration missions.
    Current research is directed toward the validation of 
countermeasures protecting human health on the International Space 
Station (ISS). Medical standards for addressing the affects of space 
flight are being developed, as are prototypes of medical care. Also 
critical, environmental health and radiation protection research is 
being conducted on ISS and in the Brookhaven National Laboratory 
facility. Significant resources are directed toward developing life 
support technology and autonomous medical care without which longer 
missions such as Mars will not be possible.
    NASA Life Sciences has provided significant contributions to our 
understanding of the physiological changes and human adaptation to 
microgravity. ISS continues to provide invaluable data on the exposure 
of humans to microgravity and the time course of these changes, 
information which is also needed for Mars. The National Space 
Biomedical Research Institute has been created to address space 
physiology, psychosocial issues, and medicine, and to link with the 
Johnson Space Center and other members of the Space Life Sciences 
community to address these issues. Obviously, NASA will also continue 
to rely on the contributions of the National Institutes of Health 
research in relevant areas.


                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

                Prepared Statement of Michael D. Griffin

                  Review of President's FY 2006 Budget

    Thank you, Chairman Boehlert, Ranking Member Gordon and Members of 
the Committee for inviting me to appear before you for today's hearing. 
You have invited me to appear before your committee as a private 
citizen on several past occasions to discuss our nation's space 
program. Today, I'm testifying before you in a much different 
capacity--as NASA Administrator. When I previously appeared before you, 
I would use phrases such ``they (meaning NASA) should do X or Y.'' I 
now need another choice of pronouns. We at NASA have a lot of work to 
do. We have many challenges to overcome. We need to work closely with 
this committee and the entire Congress in carrying out the many 
challenges before us, and we will need your help in this great 
endeavor.
    In your invitation, you asked me to address my guiding philosophy 
and plans for setting priorities for NASA's programs in human space 
flight, space science, Earth science, and aeronautics, as well as its 
workforce and infrastructure. That's a tall order for a five minute 
summary, so this might take a little longer.
    The Science Committee has already received testimony this year from 
NASA's Deputy Administrator, Fred Gregory, concerning NASA's FY 2006 
budget request, you've held focused hearings on NASA's aeronautics R&D 
and Earth science programs, and few weeks ago your committee held the 
first-ever Congressional hearing with a live feed from astronaut John 
Phillips onboard the International Space Station. I will try to focus 
my testimony today on my guiding philosophy and priorities, and will 
update the Committee on where we are and where we are going. It has 
been a busy time for me personally as well as for the entire NASA team. 
We have a lot of work ahead of us.
    In presenting the Vision for Space Exploration last year, the 
President defined a focus for our nation's space program in a journey 
of exploration that will be carried out over the next several decades. 
In heading down this path, the first steps we take are critically 
important, and decisions need to be made in a timely manner.
    The first step is to return the Space Shuttle to flight, and to fly 
each mission thereafter as safely as possible. This is my top priority 
as NASA Administrator. Last week I participated in an engineering 
review of the risk to the Shuttle due to foam and ice debris, which we 
believe to have been greatly mitigated since the loss of Columbia. I 
met with the Stafford-Covey Return-To-Flight Task Group this morning to 
hear the concerns of the panel members. Given the level of complexity 
of the issues involved, we need their point of view. We need these 
complex issues to be discussed openly and accurately.
    Tonight, I leave for Kennedy Space Center for the Flight Readiness 
Review of the STS-114 mission with the Space Shuttle Discovery 
commanded by USAF Colonel Eileen Collins. At this review, the NASA team 
will determine if we're ready to fly when the next launch window opens 
in mid-July. I look forward to a healthy, open dialogue about Space 
Shuttle safety issues and NASA's ability to return the Space Shuttle to 
flight. Members of the Science Committee are invited to Kennedy Space 
Center for this launch, but let me caution everyone involved that the 
entire NASA Space Shuttle team has a lot of hard work to do, and many 
things can happen between now and the date of launch.
    Following a safe return-to-flight, we will turn our sights to the 
construction of the International Space Station and, after its 
completion, the retirement of the Space Shuttle by 2010. To this end, a 
team of experts within NASA are investigating a range of realistic ISS 
configuration and Shuttle manifest options before we retire the Shuttle 
in 2010. I met again with the team earlier this morning, and I hope to 
present NASA's proposed plan for the ISS configuration and Shuttle 
manifest to you and our international partners later this summer. Let 
me emphasize to everyone that this is a proposal that requires further 
discussion. I visited with many of our partners a few weeks ago during 
the Paris Air Show. We shared with each other our thoughts on the 
International Space Station and other areas of cooperation in space 
exploration. I look forward to continuing an open dialogue with our 
international partners on how best to use the Space Station as a 
testbed for future space exploration activities, and how to realize 
tangible benefits from the fruits of this research.
    Even as a testbed, the Space Station will not answer all of the 
questions that need to be answered before we begin to explore the Moon 
and Mars. However, if a problem occurs on the Space Station, the crew 
is only a few hours away from a safe return to Earth, while they will 
be three days away when on the Moon, and many months away from home 
during the long journey to Mars.
    The loss of the Space Shuttle Columbia has made us acutely aware 
that one of the major impediments in fully utilizing the Space 
Station's capabilities is that we need a more robust logistics 
capability for crew and cargo than the United States or our 
international partners have readily available or on the drawing board. 
For this reason, we plan to leverage our nation's commercial space 
industry to meet NASA's needs for ISS cargo logistics and possibly crew 
support. I spoke in some depth on this topic at last week's Space 
Transportation Association breakfast about my guiding philosophy in 
dealing constructively with the emerging commercial space industry. I 
want to thank Congressmen Hall and Calvert for taking part in that 
event.
    To meet the need for crew rescue support for the Space Station, 
NASA will require the help of this committee in helping to resolve 
certain restrictions placed on cooperation with Russia in the Iran 
Nonproliferation Act of 2000. This Administration recognizes the value 
of effective cooperation with our international partners on the Space 
Station. At the same time, we must appropriately respect and maintain 
our nation's nonproliferation objectives. Over the last several months, 
NASA has participated in an interagency coordination process and is 
proposing a legislative solution in the form of an amendment to the 
Iran Nonproliferation Act of 2000 that would provide NASA with the 
necessary flexibility while maintaining our nation's nonproliferation 
objectives.
    If a solution is not found, we believe that U.S. astronauts will 
need to cease maintaining permanent presence aboard the Space Station 
in April 2006, in accordance with previous agreements between NASA and 
Russia concerning crew rescue support for the ISS using the Russian 
Soyuz vehicle. We do not believe this situation was the intent of 
Congress back in 2000, but this is the consequence we are facing today. 
I also should note that NASA did not plan to rely so extensively on the 
Russian Space Agency in carrying out the Space Station program, but 
this is the situation in which we find ourselves today. The 
Administration expects to deliver this proposed legislative solution to 
the Congress in the very near future. We will need this committee's 
help in dealing with these restrictions.
    In the future, I believe that we need to ensure that the United 
States does not find our space program so heavily reliant on others. 
Toward this end, NASA must accelerate the development of the Crew 
Exploration Vehicle, which will be capable of ferrying our astronauts 
to and from the Space Station, and of conducting voyages to the Moon 
and Mars. We have a team of some of the best engineers and managers 
drawn from across the Agency looking at ways to accelerate the 
development of the Crew Exploration Vehicle, and we hope to soon share 
with the Congress our plans for the overall space exploration 
architecture, the CEV, and the transportation system needed to launch 
it.
    Another major initiative underway concerns how we as an Agency 
consisting of ten field centers plan to organize our workforce and 
facilities to carry out our exploration, aeronautics, and science 
missions. Having visited all of the NASA centers within the past few 
weeks, I firmly believe that more authority should be delegated to 
program managers at these centers, while NASA headquarters should focus 
on policy, budget, and program executive functions. Frankly, NASA 
headquarters staffing has grown too large over the last several years.
    Another of the things I realized during my tour of NASA's field 
centers is that some outdated facilities need to be modernized, closed, 
or mothballed. We will conduct a study, across the Agency, to determine 
which facilities belong in which category. This analysis of our assets 
will require close coordination with our DOD, FAA, and industry 
stakeholders.
    NASA is facing difficult choices in balancing the needs of the 
Agency's civil servant workforce with the missions the Agency conducts 
on behalf of the Nation along with the budget available. We have not 
yet decided whether any involuntary layoffs of NASA's civil servants 
will be needed in the future, beyond those already announced at Langley 
Research Center due to an A-76 competition. Thus, we are conducting an 
assessment of the Agency in organizing the work to be done and 
workforce needs. I plan to have interim answers in the coming weeks, 
but this will be a difficult problem for the next several years. As a 
team, we are trying to be sensitive in balancing the needs of the 
workforce, NASA's mission requirements, and our budget constraints. I 
hope to keep NASA's workforce and the Congress informed as much as 
humanly possible.
    However, I need to be straightforward with all concerned. NASA 
cannot afford everything on its plate today. We must set clear 
priorities and remain within the budget NASA has been allocated. We are 
taking a ``go-as-you-can-afford-to-pay'' approach toward space 
exploration, but at several field centers, NASA has a gross mismatch 
between the work to be done, the size of the civil service workforce, 
and the budget available. We are working through these issues and 
trying to consult everyone as much as possible, but difficult decisions 
will be required, and these decisions must be made in a timely manner.
    Another set of major, upcoming decisions that we at NASA need to 
address concern how best to manage several space astronomy missions 
under development. Congress has been clear in its priorities for the 
Agency. NASA is making plans for a servicing mission to the Hubble 
Space Telescope, but we need to complete two successful Shuttle test 
flights before we can assess the relative risks of another Shuttle 
mission to the Hubble. This assessment should be completed this fall. 
At the same time, we are conducting an assessment of significant cost 
growth purported for the James Webb Space Telescope, a high priority 
mission under development within NASA's astronomy portfolio. I have 
called for a special review of the program to report back in late July. 
In the meantime, we have decided that NASA will accept the European 
Space Agency's offer to launch the Webb Space Telescope spacecraft on 
an Ariane V rocket as their contribution to the overall mission.
    However, the problems facing both of these space telescopes 
jeopardize the budgets for other advanced astronomy and space physics 
missions currently under formulation. Again, NASA simply cannot afford 
everything on its plate.
    Another priority is the acceleration of the Crew Exploration 
Vehicle. In order to accelerate development of the CEV and its 
associated launch vehicle, while keeping within NASA's budget 
guidelines, NASA will need to defer the development of some other space 
exploration-related technologies, ISS research, and space nuclear 
systems that are only needed after the CEV comes on-line in the post-
2010 timeframe.
    Within the Science Mission Directorate, NASA is seeking a better 
balance in how priorities are set between Earth and space science 
missions. NASA has a robust science agenda--with 55 missions in orbit, 
26 missions in development--including the Lunar Reconnaissance Orbiter 
to map the Moon's surface in great detail--and 34 missions in the 
design phase. However, due to cost growth and the extended life on 
several missions, NASA will need to defer some missions.
    One of those missions which we hope to extend is the Tropical 
Rainfall Measuring Mission (or TRMM), a research satellite which has 
exceeded our expectations in being used operationally with hurricane 
forecasts. NASA is working closely with NOAA, the Japanese Government, 
and others in the interagency process to determine the legal 
liabilities and safety measures necessary in extending this mission. 
NASA and NOAA need to continue to work closely together, especially in 
transitioning NASA-developed sensors, research, and other capabilities 
to operations. Likewise, NASA also needs NOAA's operational sensors to 
enable further Earth Science research.
    In aeronautics research, NASA needs to focus its technical 
expertise and facilities on results-oriented programs for our nation. 
The Administration supports the call for the development of a national 
aeronautics policy in H.R. 2862, the FY 2006 appropriation bill for 
NASA that recently passed the House of Representatives. NASA must work 
closely with a broad range of stakeholders and customers, including the 
Congress, Defense Department, and FAA in developing this national 
aeronautics policy. But again, I need to be straightforward with you. 
This policy needs to set clear, realistic priorities to focus NASA's 
limited resources, and not simply be a laundry list of unrelated 
projects.
    To conclude, I would like to note that next week our nation will 
celebrate our Independence Day, a day of fireworks and celebration. 
That same day, NASA satellite operators working on the Deep Impact 
mission will be hard at work trying to create their own fireworks 
display, 80 million miles from Earth, by smashing a small spacecraft 
into the comet Temple 1 at 23,000 miles per hour to discover what's 
inside. It's a difficult mission. . .even for rocket scientists.
    The men and women of NASA appreciate the risks our nation is 
willing to make for the noble purpose of exploration and science. 
Meriwether Lewis observed in his journal two hundred years ago on July 
4th, 1805: ``We all believe that we are now about to enter on the most 
perilous and difficult part of our voyage, yet I see no one repining; 
all appear ready to meet those difficulties which wait us with 
resolution and becoming fortitude.''

</pre></body></html>
